<html>
<title> - THE ROLE OF BILATERAL AND MULTILATERAL ARMS CONTROL AGREEMENTS IN CONTROLLING THREATS FROM THE PROLIFERATION OF WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 107-383]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-383
 
   THE ROLE OF BILATERAL AND MULTILATERAL ARMS CONTROL AGREEMENTS IN 
     CONTROLLING THREATS FROM THE PROLIFERATION OF WEAPONS OF MASS 
                              DESTRUCTION
=======================================================================

                                HEARINGS

                               before the


INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                        FIRST AND SECOND SESSION

                               __________

                            NOVEMBER 7, 2001
  CURRENT AND FUTURE WEAPONS OF MASS DESTRUCTION (WMD) PROLIFERATION 
                                THREATS

                        NOVEMBER 14 AND 29, 2001
   COMBATING PROLIFERATION OF WEAPONS OF MASS DESTRUCTION (WMD) WITH 
NONPROLIFERATION PROGRAMS: NONPROLIFERATION ASSISTANCE COORDINATION ACT 
                                OF 2001

                           FEBRUARY 12, 2002
  MULTILATERAL NONPROLIFERATION REGIMES, WEAPONS OF MASS DESTRUCTION 
                 TECHNOLOGIES, AND THE WAR ON TERRORISM

                             JULY 29, 2002
          STRENGTHENING MULTILATERAL NONPROLIFERATION REGIMES

                               __________

      Printed for the use of the Committee on Governmental Affairs







                           U.S. GOVERNMENT PRINTING OFFICE
78-620                               WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               ROBERT F. BENNETT, Utah
                   Richard J. Kessler, Staff Director
               Mitchel B. Kugler, Minority Staff Director
                      Brian D. Rubens, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka...................................12, 31, 59, 93, 121
    Senator Cleland..........................................12, 40, 60
    Senator Cochran.................................12, 34, 72, 98, 122
    Senator Domenici.............................................    32
    Senator Carnahan.............................................    75
    Senator Thompson.............................................    94
Prepared statement:
    Senator Carnahan, November 14, 2002..........................    52

                               WITNESSES
                      Wednesday, November 7, 2001

Michael L. Moodie, President, Chemical and Biological Arms 
  Control Institute..............................................     4
Jonathan B. Tucker, Ph.D., Director, Chemical and Biological 
  Nonproliferation Program, Center for Nonproliferation Studies, 
  Monterey Institute of International Studies....................     6
Rose Gottemoeller, Senior Associate, Carnegie Endowment for 
  International Peace............................................     9
Joseph A. Christoff, Director, International Affairs and Trade, 
  U.S. General Accounting Office.................................    20
Richard T. Cupitt, Associate Director, Center for International 
  Trade and Security.............................................    22
James A. Lewis, Senior Fellow and Director of Technology Policy, 
  Center for Strategic and International Studies.................    24
Gary Milhollin, Director, Wisconsin Project on Nuclear Arms 
  Control........................................................    26

                      Wendesday, November 14, 2001

Hon. Chuck Hagel, a U.S. Senator from the State of Nebraska......    35
Ms. Gary L. Jones, Director of Nuclear and Nonproliferation 
  Issues, Natural Resources and the Environment, U.S. General 
  Accounting Office..............................................    38
Laura S.H. Holgate, Vice President for Russia Newly Independent 
  States Programs, Nuclear Threat Initiative.....................    41
Leonard S. Spector, Deputy Director, Center for Nonproliferation 
  Studies, Monterey Institute of International Studies...........    43

                      Thursday, November 29, 2001

Vann H. Van Diepen, Acting Deputy Assistant Secretary of State, 
  Bureau of Nonproliferation, U.S. Department of State...........    62
Marshall S. Billingslea, Acting Deputy Assistant Secretary of 
  Defense for Negotiation Policy, U.S. Department of Defense.....    65
Kenneth E. Baker, Principal Assistant Deputy Administrator for 
  Defense Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................    69
Matthew S. Borman, Deputy Assistant Secretary, Bureau of Export 
  Administration, U.S. Department of Commerce....................    72

                       Tuesday, February 12, 2002

Elisa D. Harris, Research Fellow, Center for International and 
  Security Studies...............................................    96
Amy E. Smithson, Ph.D., Director, Chemical and Biological Weapons 
  Nonproliferation Project, Henry L. Stimson Center..............    99
Jim Walsh, Ph.D., Research Fellow, Belfer Center for Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University.............................................   101
Dennis M. Gormley, Senior Fellow, International Institute for 
  Strategic Studies..............................................   106

                         Monday, July 29, 2002

Vann H. Van Diepen, Director, Office of Chemical, Biological and 
  Missile Nonproliferation, U.S. Department of State.............   123
Marshall S. Billingslea, Deputy Assistant Secretary of Defense, 
  U.S. Department of Defense.....................................   127

                     Alphabetical List of Witnesses

Baker, Kenneth E.:
    Testimony....................................................    69
    Prepared statement...........................................   290
Billingslea, Marshall S.:
    Testimony...................................................65, 127
    Prepared statement.........................................279, 346
Borman, Matthew S.:
    Testimony....................................................    72
    Prepared statement...........................................   296
Christoff, Joseph A.:
    Testimony....................................................    20
    Prepared statement with attachments..........................   178
Cupitt, Richard T.:
    Testimony....................................................    22
    Prepared statement...........................................   196
Gormley, Dennis M.:
    Testimony....................................................   106
    Prepared statement...........................................   322
Gottemoeller, Rose:
    Testimony....................................................     9
    Prepared statement...........................................   171
Hagel, Hon. Chuck:
    Testimony....................................................    35
    Prepared statement with an attachment........................   219
Harris, Elisa D.:
    Testimony....................................................    96
    Prepared statement...........................................   298
Holgate, Laura S.H.:
    Testimony....................................................    41
    Prepared statement...........................................   233
Jones, Ms. Gary L.:
    Testimony....................................................    38
    Prepared statement...........................................   223
Lewis, James A.:
    Testimony....................................................    24
    Prepared statement...........................................   206
Milhollin, Gary:
    Testimony....................................................    26
    Prepared statement with an attachment........................   212
Moodie, Michael L.:
    Testimony....................................................     4
    Prepared statement...........................................   145
Smithson, Amy E., Ph.D.:
    Testimony....................................................    99
    Prepared statement...........................................   304
Spector, Leonard S.:
    Testimony....................................................    43
    Prepared statement with attachments..........................   245
Tucker, Jonathan B., Ph.D.:
    Testimony....................................................     6
    Prepared statement with an attached table....................   155
Van Diepen, Vann H.:
    Testimony...................................................62, 123
    Prepared statement.........................................268, 331
Walsh Jim, Ph.D.:
    Testimony....................................................   101
    Prepared statement...........................................   313

                                Appendix

Hon. Joseph R. Biden, Jr., a U.S. Senator from the State of 
  Delaware, November 29, 2001, prepared statement................    90
Information submitted for the record by Mr. Billingslea entitled 
  ``Nuclear Non-Proliferation Treaty and the International Atomic 
  Energy Agency''................................................   355
Copy of S. 673...................................................   369
S. 673--Section by Section Analysis..............................   377
USEC Inc., Executive Agent for the U.S. Government Implementing 
  the Megatons to Megawatts Program, prepared statement, November 
  14, 2002.......................................................   379
Appendix ----: Current and Future Weapons of Mass Destruction 
  (WMD) Proliferation Threats....................................   387
Appendix ----: Background on Non-proliferation Assistance 
  Programs.......................................................   396
Appendix ----: Multilateral Nonproliferation Regimes.............   414

Questions submitted for the Record by Senator Akaka with answers 
  from:
    Mr. Christoff................................................   417
    Mr. Cupitt...................................................   420
    Mr. Lewis....................................................   423
    Mr. Milhollin................................................   425
    Mr. Billingslea..............................................   427
    Mr. Borman...................................................   429
    Ms. Harris...................................................   430
    Ms. Smithson.................................................   435
    Mr. Walsh....................................................   441
    Mr. Gormley..................................................   459
    Mr. Van Diepen...............................................   466

Questions submitted for the Record by Senator Cleland with 
  answers from:
    Ms. Harris...................................................   434
    Ms. Smithson.................................................   440
    Mr. Gromley..................................................   457

Questions submitted for the Record by Senator Thompson with 
  answers from:
    Mr. Van Diepen...............................................   472
    Mr. Billingslea..............................................   485


                     CURRENT AND FUTURE WEAPONS OF



              MASS DESTRUCTION (WMD) PROLIFERATION THREATS

                              ----------                              


                      WEDNESDAY, NOVEMBER 7, 2001

                                   U.S. Senate,    
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Cleland, Carper, Cochran, Stevens, 
and Thompson.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
I welcome my friend, Senator Cleland, and our first panel.
    Today's hearing about export controls and weapons of mass 
destruction is not a new topic for this Subcommittee. Senator 
Cochran, our distinguished Ranking Member and good friend, also 
held hearings on export controls when he chaired this 
Subcommittee. It is not a partisan issue. I think it is fair to 
say that our witnesses today, who are all noted experts on the 
subject of proliferation and export controls, reflect the 
bipartisan nature of this discussion.
    Since September 11, however, developing an effective 
approach to controlling the spread of weapons of mass 
destruction to both state and non-state actors has taken a new 
urgency. The terrorists of the 21st Century are not intent on 
using one bullet to assassinate political leaders, as did the 
lone Serbian nationals who triggered the First World War at the 
beginning of the last century with the shooting of Archduke 
Ferdinand in Sarajevo. Twenty-first Century terrorists strive 
to cause the maximum amount of damage to the maximum number of 
innocent people. Their weapons of choice are amazingly simple 
and astoundingly deadly. But they are still the few against the 
many.
    As one of our witnesses today notes, contemporary 
terrorists have a mystical fascination with chemical, 
biological, and radiological weapons. Osama bin Laden and his 
followers would use these weapons to harm us all without regard 
to age, gender, or nationality. Men, women, and children from 
over 50 nations died on September 11. We cannot forget this 
fact as we prepare for future conflicts during the rest of this 
century, which has begun as sadly as the last.
    The technology that has made us rich, however, also 
threatens to be the technology that destroys us. High-speed 
computers, Internet access, dual-use materials, equipment, and 
know how are essential ingredients of these simple but deadly 
devices. Unfortunately, we know from sad experience with the 
recent anthrax attacks that these threats are real.
    Our hearing is about how we can prevent more laboratories 
with dangerous weapons capabilities from being developed. Some 
might argue that it is too late. Technology is loose. Dual-use 
items are too difficult to control, or trying to control dual-
use exports will only hinder our own economy.
    I do not think we have the luxury of indulging in any of 
those arguments anymore. Our enemies are using our own 
technology and our own open society against us.
    We cannot declare war against international terrorism while 
saying at the same time that we should conduct business as 
usual. There is no more time for business as usual. We need to 
examine every aspect of our society to see how we can harden 
ourselves against terrorist attack and we need to examine every 
aspect of our international transactions to see how we can 
inhibit our enemies from gaining technologies to use against 
us.
    In World War II, export controls were not ``dirty words.'' 
They were an essential part of our defense. In today's war, 
there is also a role for export controls because if we do not 
do everything we can do to deter our enemies from gaining 
deadly weapons, then we all will pay the ultimate price in our 
own backyards. This is the terrible message from today's 
terrorists.
    This hearing is an effort to start identifying those 
technologies and the means to prevent them from hurting us 
later.
    I am pleased to welcome my colleague, Senator Cleland, and 
ask him for an opening statement.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman, and 
members of our panel, thank you for coming. I am pleased that 
this Subcommittee is addressing this critical issue today and 
that we are further scheduled to address the Nonproliferation 
Assistance Coordination Act next week.
    I note that a dear friend of mine, former Senator Sam Nunn, 
in his recent testimony before the Senate Armed Services 
Committee called once again for enhancing the cooperative 
threat reduction measures that he helped put in place several 
years ago. I strongly support such action. There is no more 
important topic for our national security than addressing the 
threat posed by proliferation of weapons of mass destruction. I 
have long advocated a comprehensive national strategy for 
dealing with this threat and I believe that our strategy must 
be based on the likelihood of each type of incident as well as 
on our vulnerability to it.
    For many years, I have argued that we were too focused on 
low probability, high-tech threats and not focused enough on 
high probability, low-tech threats. Regardless of the threat, I 
am convinced that we must enhance the mechanisms for 
coordinating our response to WMD.
    Coordination is essential. It is my conviction that we must 
better coordinate the efforts of all players that led me to 
develop legislation I am introducing today, the Public Health 
Emergencies Accountability Act. This act puts in place a 
procedure that allows clear assignment of responsibility in 
cases where the public health is threatened. It further 
mandates the exchange of information between institutions 
primarily responsible for public health, such as the Centers 
for Disease Control and Prevention, and those primarily 
responsible for countering criminal and terrorist activities. 
We must also resource these agencies to enable them to carry 
out this essential coordination. Coordination is particularly 
important in the tough areas where the lines of responsibility 
and definition blur.
    This hearing addresses another such arena, the dual-use 
technologies that lie at the heart of chemical, biological, 
even nuclear infrastructures that exist around the world today. 
To achieve the necessary coordination, we must tackle the hard 
questions that arise when talking about technologies that 
provide legitimate commercial opportunities, but which in the 
wrong hands can also mask potential threats.
    It is no longer enough to throw up our hands and walk away 
from the table when the establishment and enforcement of 
necessary counterproliferation protocols conflicts with 
legitimate commercial interests. We have got to find a way to 
strike a balance that allows commercial enterprises a 
reasonable degree of autonomy while ensuring the greater public 
good is not compromised.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you for your statement, Senator. 
Senator Stevens.
    Senator Stevens. I have no statement, Senator. I wish I 
could stay longer. I am just here for a little while. Thank you 
very much.
    Senator Akaka. Thank you for being here.
    We are glad to have our panel this morning. I am pleased to 
welcome you. Dr. Moodie is co-founder and President of the 
Chemical and Biological Arms Control Institute and former 
Assistant Director for Multilateral Affairs of the U.S. Arms 
Control and Disarmament Agency.
    Dr. Jonathan Tucker is Director of the Chemical and 
Biological Nonproliferation Program and was a member of the 
biological weapons inspection team in Baghdad, Iraq, with the 
United Nations Special Commission.
    Ms. Rose Gottemoeller is a Senior Associate at the Carnegie 
Endowment for International Peace. She holds a joint 
appointment, the Russian and Eurasian program and global policy 
program, and is former Deputy Under Secretary for Defense, 
Nuclear Nonproliferation, in the U.S. Department of Energy and 
former Assistant Secretary for Nonproliferation and National 
Security.
     I would like to at this time, before I call on Dr. Moodie, 
to yield to Senator Thompson for any statement he may have.
    Senator Thompson. Thank you, Mr. Chairman. I do not have 
any statement to give. I am looking forward to hearing the 
testimony of these fine witnesses. This is, of course, a 
continuation of a series of hearings that this Committee and 
Subcommittee has had for a long time on this subject, and, of 
course, it is much more timely now in a lot of people's minds 
than it has been in times past, but I commend you for keeping 
the spotlight on this important area. Hopefully, people will 
now pay attention. Thank you.
    Senator Akaka. Thank you very much.
    Dr. Moodie, we welcome any opening statement you may have.

  TESTIMONY OF MICHAEL L. MOODIE,\1\ PRESIDENT, CHEMICAL AND 
               BIOLOGICAL ARMS CONTROL INSTITUTE

    Mr. Moodie. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to appear before the Subcommittee as it 
addresses this very important topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Moodie appears in the Appendix on 
page 145.
---------------------------------------------------------------------------
    In the summary of my statement, in the few minutes that I 
have, I would like briefly to address three interrelated 
issues, the need for better threat assessments, the linkage 
between state and non-state threats, and the need for a 
strategic response in which export controls continue to play an 
important role. My remarks today will focus on the chemical and 
especially the biological weapons threats.
    My starting point is the recommendation of the Gilmore 
Commission that we must improve our threat assessments. This is 
true not only with respect to the chemical and biological 
terrorism threat, but also for the challenge of proliferation 
at the state level. Traditionally, threat assessments have been 
overly simplistic. They have tended to focus on only a single 
factor, such as the agent that might be used or the motivations 
of the state or terrorist who might use them. In addition, 
these more simple threat assessments have emphasized 
vulnerabilities rather than genuine risks, which are a 
combination of vulnerability and likelihood.
    But conducting more complex threat assessments is not easy. 
It demands good intelligence and creative analysis. But better 
threat assessments would do three things. First, they would 
describe a threat envelope that identifies the most plausible 
contingencies.
    Second, they would provide a means to identify those 
contingencies that require hedging in that due to the severity 
of their consequences, some preparation for them should be 
undertaken even if they are relatively unlikely, and this 
combination of a plausible threat envelope and the hedging 
contingencies should give to policy makers some measure for 
making decisions regarding policy priorities and resource 
allocations.
    Third, a good threat assessment will highlight the fact 
that the threat is not uni-dimensional, rather that it is 
composed of several elements, including the actor, his 
motivations, intentions regarding casualties and capabilities, 
the agent involved, the target, and issues regarding the mode 
of attack and other operational considerations.
    The key to a successful threat assessment is disaggregating 
the threat into these component elements and assessing the 
possibilities that various combinations of them produce. Some 
combinations of factors will yield significant consequences, 
others will produce no consequences at all.
    This approach to threat assessment leads to important 
conclusions that should inform policy decisions. First, the 
degree of risk declines as the level of desired casualties 
increases insofar as the contingency involving higher levels of 
casualties become less likely.
    Second, we should not take great comfort from this 
conclusion because, despite the low probability of catastrophic 
attacks in the United States, there is still ample cause for 
concern because we do not know how massive a mass attack has to 
be. Worst case scenarios need not happen to stress the response 
system to the point of collapse. Moreover, the danger and harm 
inherent in the use of chemical and especially biological 
weapons is not limited to physical casualties. As we have seen 
with the anthrax attacks, psychological impacts and social and 
economic disruption are also potentially severe.
    Third, the events of September 11 and subsequent anthrax 
attacks suggest that the connections between state and non-
state actors warrant increased attention. Analysts have tended 
to conceptualize and address the state CBW proliferation 
challenge and chemical and biological terrorism along separate 
tracks.
    Today, the distinction between war and terrorism has become 
blurred and they have become inextricably linked. Our 
adversaries have declared war on the West and the United States 
in particular and they are using terrorist tactics as part of 
their campaign. We confront an adversary that is not 
necessarily a State, although it might be, but nevertheless has 
chemical and terrorism weapons potential, at a minimum.
    As this war unfolds, then, the United States may find 
itself at war against one or more chemical and biological armed 
adversaries, whether a state or non-state. How do they think 
about the strategic and tactical utility of such weapons? 
Saying that chemical and biological capabilities will be part 
of an asymmetric strategy of either a state or a terrorist is 
not enough. Different strategic goals point to different 
chemical and biological weapons uses and a number of 
possibilities, each of which has both a limited and an ultimate 
form, suggest themselves as examples.
    One, the desire to generate fear among the U.S. population, 
ultimately pushing such fear to the point that it raises 
questions about the integrity of U.S. society.
    Second, slowing military action or ultimately crippling 
U.S. strategies that depend on power projection and coalition 
warfare.
    Or third, disrupting the U.S. economy or ultimately 
undermining it by attacking such critical components as the 
agricultural sector, a threat that I believe has received 
insufficient attention, or the financial centers of the 
country. The willingness of terrorists or states to resort to 
chemical or biological capabilities depends on these kinds of 
strategic objectives, and our response depends, in part, on 
understanding what those strategic objectives might be.
    What does this approach to defining the threat suggest 
about the needs for responding effectively? First, that because 
the threat is a multi-dimensional one and a complex one, an 
effective response must be strategic in nature, one that 
addresses requirements that span a spectrum from deterrence 
through prevention, defense, and preparedness to responses.
    To perform each of these strategic missions effectively, 
difficult challenges must be overcome. Effective responses, for 
example, whether on the battlefield or in terms of homeland 
defense, demand meeting both short-term needs, such as adapting 
military concepts of operations or upgrading the Public Health 
System, and long-term measures, including an effective research 
and development program.
    Second, a strategic response is also a multi-faceted 
response. A range of tools must be exploited. These include 
intelligence, defenses, both active and passive, diplomacy, 
legal measures, preparedness, financial measures, military 
options, and arms control. Each of these tools of policy 
contributes something to an effective response to the CBW 
proliferation challenge, but each tool has shortcomings that 
must be overcome and none of them constitutes a silver bullet 
that provides the total answer.
    In this context, export controls have an important role to 
play, but it is not necessarily the traditional contribution of 
the past. Export control regimes can be effective in delaying 
the acquisition of sensitive technologies by a committed 
proliferator. But in the longer term, they cannot realistically 
be expected to stop the transfer of technology that may be used 
for weapons purposes, particularly since so much of that 
technology also has legitimate commercial medical and other 
uses.
    This does not mean that export controls should be 
abandoned. They perform other functions. Regulation through 
export controls, for example, facilitates the global 
dissemination of materials and equipment. By defining the rules 
of the game by which companies must abide, for example, export 
controls make it easier for those companies to engage in 
international trade and cooperation.
    It is this kind of newly defined role for export controls 
that should be emphasized in the future. At the same time, the 
United States must maintain open markets and avoid neo-
protectionist practices that deny or severely limit access to 
markets or appropriate technology which would make key states 
less inclined to pursue cooperative measures.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you for your statement.
    Dr. Tucker, we welcome your statement.

 TESTIMONY OF JONATHAN B. TUCKER, Ph.D.,\1\ DIRECTOR, CHEMICAL 
      AND BIOLOGICAL NONPROLIFERATION PROGRAM, CENTER FOR 
 NONPROLIFERATION STUDIES, MONTEREY INSTITUTE OF INTERNATIONAL 
                            STUDIES

    Mr. Tucker. Thank you. Mr. Chairman, distinguished Members 
of the Subcommittee and guests, many thanks for the opportunity 
to appear before you today on a topic of great importance and 
concern in the aftermath of September 11: The proliferation of 
chemical and biological weapons to states and terrorist 
organizations. The recent series of anthrax attacks through the 
U.S. mail indicates that the global spread of dual-use 
technologies, materials, and scientific know how relevant to 
the production and delivery of chemical and biological weapons 
poses a clear and present danger to U.S. national security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tucker with an attached table 
appears in the Appendix on page 155.
---------------------------------------------------------------------------
    The anthrax that was mailed to Senator Tom Daschle's office 
contained dried spores that were milled to an extremely fine 
powder and treated with chemical additives so they would 
readily become airborne and infect through the lungs. These 
facts suggest that the perpetrators, whoever they are, had 
access to specialized military technology and expertise related 
to the weaponization of anthrax. Although to date the exposures 
have remained limited, a large-scale attack by the chemical or 
biological agent against U.S. targets at home or abroad is now 
a real possibility.
    Because the senders of the anthrax-tainted letters may have 
received assistance from former weapons scientists or from a 
state sponsor, it is important to assess which states possess 
chemical and biological weapons capabilities and the extent to 
which trade in dual-use materials and technologies contributes 
to clandestine CBW programs. Evidence from open sources 
indicates that roughly 13 countries are actively seeking 
biological warfare capabilities and closer to 20 are seeking 
chemical warfare capabilities. Proliferant states of particular 
concern to the United States include Iraq, Iran, Libya, North 
Korea, Sudan, and Syria. More information on state-level 
proliferation is contained in a table attached to my written 
testimony.\1\
---------------------------------------------------------------------------
    \1\ The table referred to by Mr. Tucker appear in the Appendix on 
pages 167-170.
---------------------------------------------------------------------------
    Furthermore, over the past decade, sub-state groups have 
been increasingly interested in acquiring chemical and 
biological weapons. The Japanese doomsday cult Aum Shinrikyo, 
the Kurdistan Workers' Party, and bin Laden's al Qaeda are only 
a few of the groups actively pursuing weapons of mass 
destruction capabilities.
    In recent years, the growing availability of dual-use 
technologies, materials, information, and expertise associated 
with production and delivery of chemical and biological weapons 
has exacerbated the problem of CBW proliferation. Indeed, the 
relative ease of acquiring these weapons when compared to 
advanced conventional or nuclear weapons has increased their 
attractiveness to states that cannot afford more advanced 
weapons or are technically incapable of developing them. Nearly 
all the materials and equipment used to make chemical and 
biological weapons are dual-use, complicating the control, 
detection, and interdiction of proliferation-relevant exports.
    Attempts to regulate trade in dual-use technologies to 
countries of proliferation concern are extremely difficult. 
They face intense opposition not only from non-aligned states 
that claim that such controls are discriminatory, but also from 
international suppliers, companies, and research institutes 
that benefit from the commercial sale and transfer of such 
technologies.
    The Chemical Weapons Convention and the Australia Group, an 
informal forum of 33 exporting counties, restrict trade in 
chemical weapons precursors, dangerous biological pathogens, 
and certain types of dual-use equipment. Even so, proliferant 
states have often been successful in circumventing these 
controls by purchasing the materials from unscrupulous 
suppliers and evading interdiction efforts by means of trans-
shipment points and front companies.
    Given the dual-use dilemma and the rapid diffusion of 
legitimate chemical, pharmaceutical, and biotechnology 
industries around the globe, strengthened dual-use export 
controls can buy time, but they do not offer a long-term 
solution to the CBW proliferation problem. Accordingly, export 
controls should be seen as one of a set of policy tools for 
addressing the proliferation threat, together with active 
interdiction efforts, passive and active defenses, strengthened 
consequence-management capabilities, cooperative threat 
reduction efforts in the former Soviet Union, and multilateral 
arms control.
    Although the Bush Administration has taken a skeptical 
attitude towards arms control, a strengthened international 
legal regime banning the possession and use of these weapons, 
backed by a credible threat of economic sanctions and military 
action against violators, offers, in my view, the best hope of 
reversing the spread of these heinous weapons.
    Because of the dangerous precedent that has been set by the 
actual use of biological weapons against civilian targets in 
the United States, it is vital for the international community 
to continue to strengthen the existing international norm 
against possession and use of chemical and biological weapons. 
Although the Chemical Weapons Convention and the Biological 
Weapons Convention impose a blanket prohibition on such 
weapons, both regimes have serious weaknesses that undermine 
their effectiveness. Accordingly, both regimes must be 
strengthened if they are to promote the international norm of 
non-use and non-possession by states of concern, and by 
extension, sub-state actors, as well.
    For example, the United States has repeatedly accused Iran, 
a party to the Chemical Weapons Convention, of systematically 
violating its treaty obligations. To date, however, the United 
States has failed to request a challenge inspection of Iran as 
permitted under the Chemical Weapons Convention, undermining 
the credibility of this key element of the treaty's 
verification regime.
    With respect to the Biological Weapons Convention, the Bush 
Administration decided in July 2001, earlier this year, to 
withdraw from a 6-year effort to negotiate a legally binding 
compliance regime. Although the administration has recently 
proposed an alternative package of voluntary measures, they 
appear insufficiently intrusive or effective to deter 
violations or to enhance compliance with the treaty. The 
administration should work with our European allies to make 
legally binding the proposed measure for investigation of 
alleged use of biological weapons and suspicious outbreaks of 
disease.
    To achieve these goals, the United States should devote 
greater political and financial capital to strengthening the 
Chemical and Biological Weapons Conventions, make more 
effective use of existing treaty instruments, for example, by 
requesting a challenge inspection of Iran and other suspected 
violators, and seek to brand the possession and use of chemical 
and biological weapons as a crime against humanity under 
international law.
    That concludes my oral testimony and I would be happy to 
answer your questions.
    Senator Akaka. Thank you for your testimony. Ms. 
Gottemoeller.

 TESTIMONY OF ROSE GOTTEMOELLER,\1\ SENIOR ASSOCIATE, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Ms. Gottemoeller. Thank you, Mr. Chairman, and thank you 
for the honor of appearing today before the Subcommittee before 
you and Senator Thompson.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gottemoeller appears in the 
Appendix on page 171.
---------------------------------------------------------------------------
    Suddenly, the press is full of terrible scenarios of 
suitcase bombs spewing detonation in the middle of the Golden 
Gate Bridge, a radiological bomb spreading plutonium over the 
White House, creating a ``keep out'' zone in central Washington 
that could last for many years. After reading about threats 
such as these and scenarios such as these, many people are 
worried, so I commend the Subcommittee for confronting these 
complex and difficult issues in the search for new answers in 
export controls as in other areas.
    A simple device of the Hiroshima design is actually not the 
easiest nuclear capability for a proliferator to acquire, be he 
a terrorist or a rogue state actor. A simple device of this 
kind actually requires a large amount of nuclear material to 
achieve a nuclear explosion. We assume that 15 to 30 kilograms 
of highly enriched uranium, or three to four kilograms of 
plutonium are needed for a sophisticated nuclear device, and 
for a cruder device, a great deal more material may be 
required.
    For this reason, international proliferation policy has 
stressed keeping nuclear material production and enrichment 
technologies out of proliferators' hands. Following the break-
up of the Soviet Union in 1991, the possibility that large 
amounts of weapons-usable material could be stolen from former 
Soviet nuclear facilities has also become a major concern for 
nonproliferation policy worldwide. What would have been 
achieved through years of arduous and expensive production, 
enrichment, and separation work, that is, a sufficient amount 
of material to build a bomb, could be acquired in an instant 
through thievery.
    Therefore, in the past decade, an enormous amount of 
attention and significant U.S. dollars, $173 million in fiscal 
year 2001 alone, have been spent on cooperating with Russia and 
the other states in the region to enhance the physical 
protection of weapons-usable material in facilities that house 
the Soviet weapons complex.
    In contrast to bombs that would produce a nuclear 
detonation, however, radiological weapons are a simpler 
capability for a proliferator to acquire, if only because the 
threat in the case of a radiological device exists across a 
wide spectrum. The spectrum could range from a low-level 
nuclear waste package planted in an urban location through a 
highly toxic nuclear material explosion in the form of a dirty 
bomb, using conventional explosives to spread material over a 
wide geographic area. At the very end of the spectrum could be 
an aircraft attack on a nuclear facility that would turn the 
facility itself into a radiological weapon.
    It is important to stress in looking at this spectrum the 
different types of radioactive materials that might come into 
play in a radiological attack. Since 1993, the International 
Atomic Energy Agency has tracked 175 cases of trafficking in 
nuclear materials and 201 cases of trafficking in radioactive 
materials. These are the kinds of materials used for medical 
and industrial purposes.
    Of all of these cases, only 18 involved small amounts of 
plutonium or highly-enriched uranium, the so-called weapons-
usable material that is required to make a nuclear bomb. But 
even a small amount of low-level nuclear waste, if planted in 
an urban setting, would have the potential to sow considerable 
panic unless authorities were quickly able to neutralize the 
incident in the public mind. For that reason, I believe that 
quick action to analyze and clarify for the public the nature 
of radiological threats should be an important goal of public 
policy in the current environment, whether here in the United 
States or in other countries around the world where such 
incidents might occur.
    Now let me turn my attention quickly to nuclear and 
radiological threats deserving more attention. In my view, we 
must now strike a balance between the most dangerous nuclear 
threats and the less lethal but profoundly disruptive 
radiological threats. I would like to suggest in my spoken 
testimony today that we focus immediately on four priorities as 
threats that would deserve more attention, and I will pay a 
little more time on the radiological threat because I think 
that is essentially a new priority coming to play now. But I 
also wanted to note that given the demand on U.S. budgetary 
resources, we should also be considering new methods of funding 
such projects, which I will specifically remark on, as well.
    The four priorities that I would suggest are: Halting the 
production of weapons-grade plutonium in Russia; securing 
nuclear facilities that remain vulnerable in the former Soviet 
Union on a quick fix, quick turnaround basis; closing down 
nuclear warhead production plants in Russia, that is, the 
production of warheads and maintenance of warheads at plants in 
Russia; and improving the security at nuclear reactors and 
other sites where lower-level, that is, non-weapons-usable 
nuclear material is stored. I offer these four in no particular 
order of priority. That is not a relative list, but I do 
believe that all should be given serious and urgent attention.
    Before I turn for a moment to the radiological priority, 
the fourth on my list, I would like to mention a new kind of 
funding that I think we should consider, given that there are 
many demands on the U.S. budget at the present time. One good 
idea, I believe, has already been suggested by Senators Biden 
and Lugar in some recent legislation, that is the so-called 
debt-for-security swaps. Under this concept, we would forgive 
Soviet-era debts that the Russians are holding in exchange for 
Russia putting more rubles into nonproliferation programs, and 
sir, I believe that should be an overall priority for U.S. 
policy at this point, emphasizing urging Russia to put more of 
their own budgetary resources into these important programs.
    Now let me say just a few words about my priority with 
regard to improving security at nuclear reactors and other 
sites where lower-level nuclear material is stored or used, 
because, as I mentioned at the outset, I believe it addresses 
the radiological threat that has taken on new importance in the 
wake of September 11.
    Traditionally, U.S. cooperation with the countries of the 
former Soviet Union to reduce the risks of nuclear 
proliferation have emphasized so-called higher-value nuclear 
materials and facilities, sites associated with the weapons 
complex and especially with nuclear material that can be used 
in the manufacture of weapons. But given that radiological 
threats have taken on new importance, programs should be 
emphasizing these particular kinds of threats, and I believe 
that one simple step the United States could accomplish would 
be to restore funds for international nuclear safety in the 
Federal budget.
    For nearly a decade, the United States has been working 
with countries of the former Soviet Union to upgrade the safety 
of Soviet-built nuclear reactors and prevent another Chernobyl-
style incident. This has been a largely successful program, 
and, in fact, the permanent shut-down of the last unit at 
Chernobyl occurred in December of last year. For that reason, 
the program is slowly ramping down, dropping from over $30 
million in fiscal year 1999 to just $10 million in fiscal year 
2002. The program, I believe, could be quickly ramped up in 
order to improve security at nuclear reactors and other sites 
where low-level non-weapons-usable nuclear materials are 
stored, and these efforts could be undertaken not only in 
Russia and the former Soviet Union but also other countries 
around the world where such facilities are vulnerable.
    Mr. Chairman, in closing, I would like to note what I 
believe is a potential important development in nuclear 
technology that will, I think, impact in important ways on the 
future of export controls with regard to nuclear systems. 
Increasingly, those who are engaged in nuclear technology 
development, particularly for electricity generation purposes, 
are interested in new approaches that would limit the cross-
over between peaceful uses of nuclear technology and the 
weapons sector.
    They want to avoid the kind of situation that has been 
inherent, for example, in the Soviet Union, where the Tomsk and 
Krasnoyarsk reactors produced plutonium for the weapons system 
at the same time they were producing heat and electricity for 
the local urban areas, and this continues today. In fact, the 
civilian use of these reactors continues apace while these 
reactors are still pumping out plutonium that adds to stocks of 
plutonium available potentially for weapons purposes in Russia, 
although Russia, of course, says that no longer they are used 
for that purpose.
    For that reason, the nuclear industry today, and here and 
around the world, is beginning to concentrate on developing so-
called proliferation-resistant technologies, particularly in 
the reactor arena, that will minimize the production of 
weapons-usable material in their cycles. Ideally, 
proliferation-resistant reactors, for example, would burn 
plutonium, dispose of plutonium, rather than breeding it.
    Although such reactors may be 20 years or more from 
commercial application, I think it is important that there is a 
new strategic approach developing in the nuclear industry. The 
industry is emphasizing proliferation-resistance along with 
other attributes such as minimization of nuclear waste and 
stringent design for safety and security. If this trend 
develops successfully, it will simplify the export control 
problem for nuclear technologies, and, in fact, may also prove 
to be the best way to fulfill the promise of peaceful nuclear 
uses under the Nonproliferation Treaty.
    Thank you, sir, for this opportunity.
    Senator Akaka. Thank you for your statement.
    I would like to yield to the Ranking Member and friend, 
Senator Cochran, for any statement. Following his statement and 
before the questions, I am going to ask that we recess. There 
is a vote that is on now that is on the floor, and then we will 
be back shortly. Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I 
congratulate you for organizing and calling this hearing. It is 
a very important subject for us to learn as much as possible 
about.
    I wonder, while we are over voting, whether the panelists 
can be thinking about whether the recent experiences that we 
have had with the anthrax attacks have led them to reach any 
new conclusions about the proliferation of bioterrorism 
capabilities and what, if anything, we should plan to do about 
it.
    One of the major efforts that we have made is to reach 
agreements with other countries to try to prevent the export of 
weapons or technologies that could be made into weapons of mass 
destruction, especially in the chemical and biological area. Do 
you think any of these agreements can serve as guides for the 
future and have we prevented any terrorist acts or activities 
by reason of these conventions and agreements that countries 
have joined to use as a way to combat proliferation of weapons, 
particularly the Chemical Weapons Convention and the Biological 
Weapons Convention? Have they kept states or terrorist groups 
from acquiring weapons of mass destruction?
    Mr. Chairman, I think, since we have jurisdiction over the 
proliferation subject, it is certainly important for us to 
begin a set of hearings on this subject and I congratulate you 
for leading that effort.
    Senator Akaka. As I mentioned, you have worked on this 
before in this Subcommittee and we are still continuing this.
    We all have questions for you, and I would ask that we 
recess and come back to ask you the questions. In the meantime, 
I want to say that your full statements will be printed in the 
record. Are there any further comments before we recess?
    [No response.]
    Senator Akaka. The Subcommittee recesses.
    [Recess.]
    Senator Akaka. The Subcommittee will be in order.
    I want to thank you again for your testimony. I am 
impressed with the work you have accomplished on 
nonproliferation issues.
    Let me begin with some questions for Dr. Moodie, and you 
mentioned this, so I am asking the question about this. I agree 
that the threat of agriculture terrorism has been given little 
attention, as you mentioned. Do you believe that USDA has 
access to the intelligence reports and information required to 
perform a full risk assessment of American agriculture?
    Mr. Moodie. Mr. Chairman, I do not know the inner workings 
of the Department of Agriculture to be able to say exactly 
whether they have access to that material or not. I do think 
that the appreciation of the agricultural dimension of this 
problem was slow in developing, and therefore, the Department 
of Agriculture as a player in the development of our response 
was slow to come to the table. As a consequence, I think they 
are still trying to establish the kind of relationships among 
the other players, probably including the intelligence 
community, that they need to do the job that they have to do.
    So while I cannot be specific, my hunch would be that they 
probably need to improve their access, not just in terms of 
looking at the information or the intelligence, but dealing 
with the intelligence community on an ongoing basis so that 
they have an ongoing, evolving appreciation of the nature of 
the challenge that they confront.
    Senator Akaka. You suggest that smallpox is unlikely to be 
a threat, if you would mention something about that again. 
Which kinds of chemical and biological threats do you see as 
more likely at this time?
    Mr. Moodie. Well, first, Mr. Chairman, with respect to the 
smallpox threat, I would put smallpox into that category within 
the threat assessment that I talked about of contingencies 
against which we have to hedge. Certainly, the consequences of 
a smallpox attack are potentially so great that we have to have 
taken some measure of preparation. But you can have a smallpox 
scenario that either is--that is so horrific that it either 
causes policy paralysis because it is too hard to do or that 
you put so much money against it that you never have enough.
    And I think that for those of you who are responsible for 
allocating limited resources, this kind of open-ended 
vulnerability assessment that has huge consequences is not the 
best scenario on which to do your planning and to make the 
kinds of decisions with respect to limited resources that you 
have to make. Having said that, as I mentioned, I do think you 
have to get a hedge against that possibility.
    I think, though, that we have not necessarily, in our focus 
on smallpox on anthrax, necessarily examined the full range of 
other biological agents that have traditionally been examined 
as potential biological weapons, including hemorrhagic fevers, 
plague, tularemia, and things of that kind.
    I also do not think that we have necessarily looked, 
especially on the chemical side, looked at some of the low-tech 
threats. We have been fascinated by the higher-end, VX, sarin, 
the nerve gases, when, in fact, a contingency or a couple of 
contingencies that we have not really looked at in as much 
detail as perhaps we should are simple things like somebody 
hijacking a chlorine tanker and blowing it up outside Wall 
Street or somebody trying on a deliberate basis to produce the 
kind of consequence at a chemical production facility that we 
saw in Bhopal, essentially a deliberate Bhopal that caused 
enormous loss of life. Those do not involve sophisticated or 
exotic agents, but they are the use of chemicals to create mass 
disruption and potentially mass casualties.
    Senator Akaka. Dr. Tucker, in your testimony, you mentioned 
that many developing countries have obtained or might develop 
chemical and biological weapons capabilities as a result of 
foreign investment by chemical and biotechnology industries. 
Just as we have laws against bribery by American companies in 
the Foreign Corrupt Practices Act, should we be considering 
restrictions on American companies investing in certain 
countries?
    Mr. Tucker. I think we should with respect to countries of 
proliferation concern, though it may be difficult. If we do not 
invest in such a country, it is very likely that our 
competitors will do so. So the problem with unilateral U.S. 
action in this area is that we can be very easily undercut by 
other countries, not only our allies, but also countries that 
are not friendly to the United States but that are increasingly 
investing in the developing world.
    So that is why I view the utility of U.S. export controls 
with some skepticism. I think this is a threat that has to be 
dealt with in a multilateral context. We have the Australia 
Group, but it encompasses only 33 like-minded countries that 
export chemical or biological-relevant materials and equipment. 
But there are other countries that are now in a position to 
provide equipment and materials to countries of proliferation 
concern, so it is a broader problem that we need to look at in 
a multilateral framework.
    Senator Akaka. You mentioned the Bush Administration 
several times in your testimony. The Bush Administration has 
recently made proposals to enhance the enforcement of the 
Biological Weapons Convention. You recently stated that these 
efforts are insufficient, since they would not be part of a 
treaty with rights and obligations. What other measures would 
you recommend the administration take in this area or in regard 
to other unilateral actions?
    Mr. Tucker. Well, I should say that the proposals by the 
Bush Administration would be useful. I do not criticize them. I 
just do not think they go far enough. For example, the idea of 
urging countries to pass uniform domestic laws that would 
regulate access to dangerous pathogens to make sure that these 
materials are only accessible to legitimate scientists and not 
terrorists or people who would misuse these materials to make 
weapons, I think that is a very desirable goal and should be 
encouraged.
    But as you know, the United States withdrew in July from a 
6\1/2\-year effort to negotiate a formal treaty that would 
provide measures to enhance compliance and deter violations of 
the Biological Weapons Convention. I do not think that the 
alternative U.S. proposals, at least as far as we know, will be 
effective. The details of these measures have not been released 
yet, but from the press release that the White House released 
last week, it appears that these measures are all voluntary, 
they are not legally binding, and, hence, they really depend on 
the good will of the participating countries.
    My concern is, for example, if we set up a mechanism to 
investigate alleged use of biological weapons or suspicious 
outbreaks of disease and if this is done, let us say, within 
the context of the United Nations but not in a treaty context, 
then any country that is accused could simply refuse access to 
the investigation team. It would have no legally binding 
obligation to grant access to the inspectors or investigators 
to determine that it is, in fact, in compliance or 
noncompliance with the Biological Weapons Convention.
    So my concern about the Bush Administration approach is 
that it is too weak, and clearly, we are facing a real threat. 
These anthrax attacks have made it very clear that this is not 
a hypothetical threat, that this is a real threat. The actual 
use of anthrax against civilians is challenging the norm that 
has existed for many, many years and we must reinforce that 
norm. If we do not, then I think a growing number of states and 
terrorist groups will be attracted to these weapons and we will 
face a much more serious proliferation problem in the future.
    Senator Akaka. Thank you. Ms. Gottemoeller, you mentioned 
the danger of a terrorist developing a so-called dirty bomb 
using nuclear waste. There are about 440 nuclear reactors in 
the world and countless facilities with other types of nuclear 
materials. What should we be doing now to secure those plants 
or to monitor their use so terrorists cannot take them? Do we 
need a new international agency or a new agreement?
    Ms. Gottemoeller. Sir, I think the International Atomic 
Energy Agency already has responsibility for many related types 
of missions and the Director General of the IAEA, Mr. el 
Baradei, called last week for enhanced funding for surveillance 
of nuclear sites around the world, nuclear reactor and research 
sites, related industrial sites, as you have stated. So I think 
for certain missions, certainly, there is already an 
international agency well experienced in this arena. I do not 
think we need to create anything new.
    I do think that we need to set some priorities. I mentioned 
that the IAEA would like to enhance its capability for 
surveillance of threats around plants. I think we also need to 
pay attention to those research reactors, for example, where 
the highest level of nuclear material is currently stored. Few 
people know, for example, that there is a research reactor at 
Belgrade where not so long ago U.S. bombs were dropping in the 
vicinity, and at that site is stored a significant amount of 
highly enriched uranium to fuel that reactor.
    So I think it is important to look at some of the higher-
priority sites in order to get that material out of there. I 
would urge for Soviet-built research reactors in Eastern 
Europe, for example, that such materials be moved back to 
Russia and down-blended so they no longer pose such a 
proliferation threat in the future.
    And then in regard to the radiological threats that I 
mentioned, again, you do point to a good fact, sir, and that is 
there is an enormous number of sites around the world where 
such materials might be stored or used in one way or another. 
So it does require some prioritization, as well, but I think 
particularly with regard to training of facility operators and 
some other perhaps lower-cost options, there are ways to 
proceed that would not cost an enormous amount but could 
overall increase and improve the security at these sites.
    Senator Akaka. Thank you. Senator Carper is here. I would 
yield to the Senator for any statement or questions.
    Senator Carper. I have no statement, but a question or two, 
if I could, Mr. Chairman.
    Welcome one and all. I am glad you are here and thank you. 
Obviously, I have missed your statements, and I would just ask, 
if I could, for each of you just to maybe take a minute and 
share with me, with respect to the issues that are before us 
today, what should the Congress be doing? What is our 
appropriate role? Dr. Moodie, we will start with you, if you 
will.
    Mr. Moodie. How much time do you have, Senator?
    Senator Carper. Well, I have about 5 minutes. The Chairman 
is in a good mood.
    Mr. Moodie. I think, first of all, conceptually, we have to 
recognize that the problems we are dealing with with respect to 
chemical, biological, radiological, and nuclear weapons are a 
single problem now. It is not the state problem on one hand and 
the terrorists on the other. They are two sides of the same 
coin, and to begin from that point.
    Second, I think we have to focus on a strategic response 
that ensures that, first of all, all the tools we have in our 
toolbox--intelligence, diplomacy, defenses, military options, 
arms control, and export controls--each individual tool is as 
strong as it can be, but at the same time that our strategy is 
one in which we allow those tools to work together to achieve 
the same objective, not at cross purposes, and that is not 
always an easy task.
    Third, I think the Congress in terms of its own 
organization should look at where it is. The Congress suffers 
from the same problem the administration does in terms of the 
vast number of people who are stakeholders in this and who have 
responsibility for doing it, and just as the administration is 
being called on to streamline their decision making processes 
with respect to some of these issues, that Congress may take a 
look and streamline how it does its business in this area, as 
well.
    Senator Carper. Good. Thanks very much. Dr. Tucker.
    Mr. Tucker. Yes. I would endorse everything that my 
colleague, Michael Moodie, has said, and I would add that the 
United States really cannot go it alone in the field of 
nonproliferation.
    Senator Carper. You said can or cannot?
    Mr. Tucker. Cannot go it alone in the field of 
nonproliferation. I mean, we can enhance our defenses. We can 
improve our intelligence, develop better consequence management 
in case we are attacked, but if we are going to try to attack 
this problem at the roots, we need to do it through 
multilateral instruments and mechanisms, including existing 
treaties that are in force, the Chemical Weapons Convention and 
the Biological Weapons Convention, that are potentially useful 
tools but have been underutilized by the United States.
    For example, they have been underfunded. We have 
instruments such as the opportunity to request challenge 
inspections of countries that we believe are violating the 
convention and we have not used those instruments. And as a 
result, they----
    Senator Carper. Could I ask, why do you think that is?
    Mr. Tucker. I think there are a number of reasons, concern 
that, for example, there might be a retaliatory challenge. If 
we challenge Iran, which we have openly accused of violating 
the Chemical Weapons Convention, they might challenge us back, 
and I think there has been some concern about a harassing type 
inspection.
    But I think we should be able to deal with that 
contingency--there are mechanisms within the Chemical Weapons 
Convention to manage access and to protect legitimate national 
security information and proprietary information, and there is 
a provision under the treaty for a three-quarter majority of 
the Executive Council to block a frivolous or abusive 
inspection request. If we make a compelling argument that a 
retaliatory challenge is, in fact, frivolous and abusive, then 
it could be blocked.
    I also think that there are some concerns that if we 
challenge a country and the inspectorate does not come up with 
a ``smoking gun,'' or very compelling evidence of a violation, 
then we will create a false sense of security that country is 
in compliance. So I think we have to lower the bar of 
expectation about what can be accomplished through challenge 
inspection.
    But I still think it is a very powerful mechanism. Even if 
it does not find a smoking gun, I think it can find a pattern 
of evidence that is indicative of a treaty violation and it is 
probably the most powerful instrument within the Chemical 
Weapons Convention verification regime. If we do not make use 
of it, it will atrophy, lose its credibility, and any deterrent 
effect it might have on would-be violators.
    Senator Carper. Thank you, sir. Ms. Gottemoeller.
    Ms. Gottemoeller. Senator, I believe that the Congress now 
has both an opportunity and a responsibility to draw together 
the struggle against international terrorism with regard to 
weapons of mass destruction and are already establishing 
cooperation with Russia and the countries of the former Soviet 
Union to address what we commonly call the ``loose nukes'' 
problem, but it also refers to loose biological agents, and 
loose chemical agents, as well.
    And I think up to this point, quite frankly, there has not 
been sufficient attention to placing new resources to the 
service of this particular fight against terrorism, that is, 
ensuring that all of these weapons of mass destruction 
resources are safely and securely held in facilities where they 
can be responsibly guarded by the countries that currently own 
them or hold them in one way or the other.
    I want to underscore, I believe that, in general, Russia is 
a responsible custodian, for example, of nuclear materials, but 
they are short on resources to ensure that those materials do 
not go walking out of those facilities and into the hands of 
those who might use them as instruments of terror.
    So I think the Congress really has an important role to 
play in drawing together the counterterrorism struggle with our 
struggle to ensure threat reduction in the nuclear, chemical, 
and biological arena.
    Senator Carper. Great. Thank you. Thanks to each of you. 
Mr. Chairman, thank you.
    Senator Akaka. Thank you very much for your questions.
    I have further questions. Dr. Moodie, we have been talking 
about multilateral arms control and you mentioned that classic 
multilateral arms control such as the Chemical Weapons 
Convention is unlikely to yield significant results. So my 
question to you is, how would you strengthen the CWC, and just 
as importantly, what would you propose in terms of new 
multilateral approaches?
    Mr. Moodie. Mr. Chairman, my comment really was to the 
biological side, and to me, the Chemical Weapons Convention is 
classical arms control and I think it is appropriate for 
dealing with the chemical weapons problem. I had the good 
fortune, I guess it is, to have worked on negotiating the 
Chemical Weapons Convention during the administration of the 
former President Bush and I think that we accomplished 
something in that.
    But I think to take the same approach in the biological 
area is not going to accomplish what we were able to do in the 
chemical area because I think the chemical problem and the 
biological problem are quite different and the politics and the 
science and technology and the language of the treaty that 
surround the biological side, to me are so complex that classic 
arms control is not the way to go forward.
    I think what we have to do is redefine the problem and 
redefine the environment within which solutions can be found, 
and what I mean by that is to take it out of being a classic 
security arms control problem, but define the biological 
weapons as part of a broader challenge that has to do with the 
appropriate use of the life sciences to serve the public safety 
and security and to create an environment in which the misuse 
of that science is diminished to the point that you can manage. 
It includes not just biological weapons but other kinds of 
challenges that we have in looking at where the incredibly 
rapid advances in the life sciences are going to be going in 
the next two decades.
    I think that if we approach the problem from that 
redefinition, that we will, in fact, find more acceptable 
mechanisms for dealing with the problem. One of the issues, for 
example, in the arms control approach and the protocol 
negotiations that was mentioned earlier was a difficult 
relationship between industry and the negotiators and the role 
of industry in this. I think if we set the problem on a 
different footing, we will have a different basis in which to 
engage industry to ensure that their contribution in this area, 
because they are such a driver of the science and technology at 
this point, that if we redefine the problem in that way, we 
will have a better basis for engaging industry in looking at 
solutions.
    So I think some of the measures that the Bush 
Administration has proposed to strengthen the Biological 
Weapons Convention move in this direction. I think they provide 
a basis for moving forward. They are not the total answer. They 
are not where we want to go or should go. But I think they give 
us a starting point for that kind of redefinition of the 
problem that will yield some more creative solutions.
    Senator Akaka. Thank you so much for that. There is a need 
to review these and come out with other solutions.
    Dr. Tucker, you just stated that export controls buy time 
for diplomacy but do not offer a long-term solution. Are there 
any changes to our current export control policies you would 
advocate?
    Mr. Tucker. Well, I think some of the controls probably 
could be made more targeted on technologies that are really 
critical, that provide bottlenecks to the acquisition of 
chemical and biological weapons. Increasingly, of course, these 
technologies are becoming widely available as they diffuse to 
more and more countries in the developing world. So we have to 
identify those really key critical technologies that are not 
widely available that are really still a monopoly of the 
highly-advanced countries and which by withholding, we will 
place significant impediments in the path of proliferators.
    So it may be a form of ``smart'' export controls or more 
targeted export controls, which I think will be welcomed by 
industry because they will be less affected by more targeted 
controls. That will require quite a bit of thought, because it 
is the conventional wisdom that this technology is all dual-
use. That is not strictly true. There are some specialized 
technologies and certain types of pathogens, for example, 
weaponized pathogens, whose access should be very tightly 
restricted. So I think there is a need to rethink export 
controls in a way to make them more targeted and, hence, more 
effective.
    Senator Akaka. Thank you.
    Ms. Gottemoeller, in your written testimony, I think you 
raised a good point on the priorities we should take to prevent 
further proliferation of nuclear material from the former 
Soviet Union. Many are also concerned about the proliferation 
of nuclear expertise and know how. We are familiar with 
examples of nuclear scientists being offered substantial sums 
of money either to train others or to develop nuclear weapons.
    The Subcommittee is going to hold a hearing on this subject 
next week, but some would suggest that it is already too late. 
For example, there is no doubt Iran's nuclear program being 
developed with Russian assistance has a weapons component or 
potential. What should we be doing to ensure that Iran complies 
with its Nuclear Nonproliferation Treaty obligations?
    Ms. Gottemoeller. Sir, I hesitate to say what the future 
will bring, but I would say the first step, if U.S. relations 
improve with Iran, as there have been some hints recently in 
Washington they may improve, I think the first step we should 
undertake is to take up these issues directly with Tehran.
    We have been working this issue through and with Moscow. It 
has been a difficult issue. Apparently, President Putin in an 
interview that will appear this evening on television has 
denied pretty firmly that there is any official Russian 
government involvement in nuclear technology trade with Iran. 
Well, I think we have long felt that it is not a matter of an 
official Russian government policy, but that there are some 
organizations in Russia that are perhaps not paying the 
attention to export control laws that they should be paying 
attention to, first of all. And second of all, I believe there 
is also disagreement among some Russian experts about the 
danger inherent in particular dual-use technologies, and so 
there is a disagreement and discussion between the United 
States and Russia in that regard.
    I believe we should continue very vigorously to pursue 
these issues with Russia and I hope that we will do so at the 
upcoming Washington Crawford Summit. But I believe in addition 
to that that should our relationship improve with Iran, this is 
something we need to take up directly with the Iranians, as 
well.
    Senator Akaka. Thank you. Senator Carper do you have any 
further questions?
    Senator Carper. No, I do not.
    Senator Akaka. Thank you very much. Thank you, Dr. Moodie, 
Dr. Tucker, and Ms. Gottemoeller. Thank you for all of your 
testimony and for your cooperation, also. Some of what you said 
will certainly be helpful to us in what we are trying to do 
here. So thank you again and you may be excused.
    Mr. Moodie. Thank you, Mr. Chairman.
    Mr. Tucker. Thank you.
    Ms. Gottemoeller. Thank you, sir.
    Senator Akaka. Thank you. I just received a call that there 
is another vote on, but I want to prepare for the second panel 
and ask the second panel to come forward, please.
    The Subcommittee will be in recess.
    [Recess.]
    Senator Akaka. The Subcommittee will be in order.
    Thank you, Mr. Christoff, Dr. Cupitt, Dr. Lewis, and Dr. 
Milhollin for being part of our second panel, and at this time, 
I invite you to make any statement or comments you wish, 
beginning with Mr. Christoff.

 TESTIMONY OF JOSEPH A. CHRISTOFF,\1\ DIRECTOR, INTERNATIONAL 
       AFFAIRS AND TRADE, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Christoff. Mr. Chairman, thank you. I am pleased to be 
here today to discuss the efforts of the United States and the 
international community to stem the spread of weapons of mass 
destruction.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Christoff with attachments 
appears in the Appendix on page 178.
---------------------------------------------------------------------------
    Historically, the United States has used four important 
tools to combat WMD proliferation: International treaties, 
multilateral export control arrangements, U.S. export control 
laws, and security assistance to other countries. My bottom 
line is that each tool is important to U.S. nonproliferation 
policy, but each tool has limitations, and I would like to 
briefly describe and comment on each of these tools.
    First, the international community has established treaties 
to eliminate chemical and biological weapons and prohibit the 
spread of nuclear weapons. Three treaties are of particular 
importance, the Nuclear Nonproliferation Treaty, the Chemical 
Weapons Convention, and the Biological Weapons and Toxins 
Convention. These treaties share similar objectives. They are 
legally binding and they include most countries. However, their 
effectiveness depends on the mechanisms for verifying and 
enforcing them and the integrity of those countries party to 
them. For example, the Biological Weapons Conventions lacks the 
inspection and enforcement provisions that might have detected 
the Soviet Union's massive biological weapons program in the 
1970's and the 1980's.
    Limitations in membership also constrain the effectiveness 
of these treaties. Key states remain outside the treaties. For 
example, India, Israel, and Pakistan are not party to the 
Nuclear Nonproliferation Treaty, while Iraq and Syria have not 
signed the Chemical Weapons Convention.
    The second tool for controlling sensitive technologies is 
multilateral export control arrangements. Both the Executive 
and Legislative Branches have affirmed support for 
strengthening these arrangements. However, their effectiveness 
has been challenged in recent years.
    As part of GAO's ongoing work on these arrangements, we are 
examining the following important questions. Does the voluntary 
nature of these arrangements and the dependence on member 
nations to impose export control limits affect their 
effectiveness? Do member nations abide by their commitments to 
refrain from exporting items other members have denied? How do 
member nations share information about their export decisions? 
And how do the arrangements ensure that non-member nations do 
not transfer sensitive technologies to countries of concern?
    The third tool is U.S. export control policy, which is 
intended to constrain the transfers of WMD technology. In GAO's 
past work, we have identified problems with U.S. policy. First, 
the Executive Branch has not assessed national security risks 
for important dual-use items, such as high-performance 
computers and semi-conductor technologies.
    Second, the government does not adequately screen proposed 
recipients of sensitive U.S. technologies. For example, the 
government does not always have complete intelligence 
information on license applicants who may serve as fronts for 
proliferators or terrorists.
    And third, the government cannot always ensure that 
recipients of sensitive technologies comply with the conditions 
of the license. This is most important in countries of concern, 
such as China, which restrict U.S. officials' access to 
facilities that house U.S. technologies.
    And finally, the fourth tool is the security assistance to 
other countries that we provide, most importantly to the former 
Soviet Union. At the time of its collapse, the Soviet Union 
had, by some estimates, 30,000 nuclear weapons, 40,000 tons of 
chemical weapons, and an extensive biological weapons program. 
The collapse also left 30,000 to 75,000 Soviet weapons 
scientists without full-time employment.
    Since 1991, the United States has helped Russia eliminate 
and secure weapons of mass destruction and provide part-time 
employment to former Soviet scientists. U.S. efforts have 
helped make large quantities of WMD-related materials more 
secure and they have supplemented the incomes of several 
thousand former Soviet scientists.
    However, it has been difficult to assess the effectiveness 
of these programs, which have cost about $5.5 billion since 
1991. Russian officials continue to limit U.S. access to 
certain WMD facilities. In addition, the part-time employment 
provided by the United States may not necessarily deter Russian 
scientists from selling their weapons knowledge to rogue states 
or terrorists.
    So in conclusion, Mr. Chairman, the events of the past 2 
months provide the impetus for reexamining all these tools that 
are used to restrict the spread of weapons of mass destruction. 
Ten years ago, the international community made major changes 
in its controls over nuclear technology after revelations about 
the Iraqi nuclear weapons program. We may be at a similar point 
today. We need to reassess the adequacy of our current policy 
tools to address the vulnerabilities and the changed 
perceptions of the threat that we currently face.
    That concludes my statement, Mr. Chairman. Thank you.
    Senator Akaka. Thank you very much, Mr. Christoff. Dr. 
Cupitt, please?

 TESTIMONY OF RICHARD T. CUPITT,\1\ ASSOCIATE DIRECTOR, CENTER 
              FOR INTERNATIONAL TRADE AND SECURITY

    Mr. Cupitt. Thank you very much, Mr. Chairman. I appreciate 
you calling and organizing this hearing on what I think is a 
very important topic. I have submitted some additional remarks 
that represent my personal views on several of the broader 
export control questions raised by the Subcommittee staff, so I 
would like to focus this testimony on some problems the U.S. 
Government will face in coordinating nonproliferation anti-
terrorism export controls with its allies and on some possible 
steps to address these difficulties.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cupitt appears in the Appendix on 
page 196.
---------------------------------------------------------------------------
    Senator Akaka. At this time, may I say that all of your 
full statements will be made part of the record.
    Mr. Cupitt. Thank you, Mr. Chairman. The tragic events of 
the last 2 months not only emphasize the need to reform the 
multilateral export control system, they have shaken the 
international community sufficiently, I believe, that reform 
initiatives may actually succeed. So this is a moment of 
opportunity for us, because the importance of limiting the 
weapons of mass destruction capabilities of terrorists and 
states that support international terrorism has never been more 
clear.
    Nonetheless, many of the same problems that plagued efforts 
to improve multilateral coordination of proliferation-related 
export control systems in the late 1990's will hamper attempts 
to coordinate nonproliferation anti-terrorism export controls 
now. Let me mention five likely problem areas--and I will be 
happy to go into detail about them perhaps in the question and 
answer period--and then raise some possible responses to these 
problems.
    First and foremost, there is a very weak infrastructure for 
coordinating nonproliferation anti-terrorism export controls 
internationally. The Australia Group, the Missile Technology 
Control Regime, the Nuclear Suppliers Group, and the Wassenaar 
Arrangement, for example, have pretty primitive methods and 
mechanisms for gathering and sharing information, resolving 
disputes, and enforcing group norms.
    Second, the list of sensitive anti-terrorism items appears 
to be based mainly on delaying state-sponsored weapons of mass 
destruction programs and not with a view towards delaying or 
preventing the development of non-state weapons of mass 
destruction programs.
    Third, there are very divergent national nonproliferation 
anti-terrorism export control systems now, even among key U.S. 
allies.
    Fourth, there are divergent views on the targets of 
nonproliferation anti-terrorism export controls.
    And finally, there are very divergent approaches to 
industry-government cooperation on nonproliferation anti-
terrorism export controls.
    Based on these concerns, I would like to take the 
opportunity to recommend that the U.S. Government consider five 
steps in the near term to begin to address these problems.
    First, I think the U.S. Government should consider doing 
more extensive assessments of foreign export control policies 
related to nonproliferation anti-terrorism export controls, 
starting with the policies and programs of the G-8 and other 
key members of the supplier arrangements. Frankly, we simply do 
not know enough. A critical lack of information and analysis of 
these policies, as well as broader export control policies, 
exists. We need to do more.
    Second, the U.S. Government should consider providing more 
funding, technical assistance, and critical information to help 
U.S. partners implement and coordinate their intelligence, 
licensing, and enforcement activities related to 
nonproliferation anti-terrorism export controls. This includes 
an increase in efforts and support for U.S. export control 
outreach programs worldwide. We do have an extensive program 
through the Department of Commerce and also the Department of 
Energy to do work in the former Soviet Union and elsewhere and 
there has been some work now in China and India, but it needs 
to be much more extensive in order to succeed--and the United 
States has to take the lead on this.
    Third, the U.S. Government should consider creating 
priorities in its list of items of greatest nonproliferation 
anti-terrorism concern as a basis for international 
negotiations. It is not clear from our current list of, for 
instance, dual-use items, which items are more important than 
others to control for anti-terrorism purposes. There are very 
few items that are controlled for anti-terrorism purposes 
alone. For most of the others, it appears that if there is a 
requirement related to chemical, biological proliferation, 
nuclear nonproliferation, or missile proliferation, we just 
tack anti-terrorism on to that as well, and I am not sure that 
that is an appropriate way to address the problem. Some items 
may be more important to control than others, and if we do not 
see that, maybe some of our allies will.
    Fourth, the U.S. Government should also consider creating 
priorities for listed terrorists and terrorist organizations 
that pose the greatest weapons of mass destruction threat as a 
basis for negotiations. I think one might start by 
differentiating among those individuals and entities on the 
specially designated terrorist list or the foreign terrorist 
organizations list according to the weapons of mass destruction 
risk they present.
    Finally, I think the U.S. Government should consider 
creating new standards for industry export control compliance 
programs, including certification of the substantive knowledge 
of export administrators regarding nonproliferation anti-
terrorism controls. Export administrators in several of the 
national laboratories, for example, have expressed keen 
interest in certification as a means of ensuring the highest 
standards of compliance with nonproliferation export controls, 
and I think this would also hold true for related anti-
terrorism controls.
    Again, let me thank the Subcommittee both for holding the 
hearing and for allowing me to present my views. Thank you very 
much.
    Senator Akaka. Thank you for your statement. Mr. Lewis.

 TESTIMONY OF JAMES A. LEWIS,\1\ SENIOR FELLOW AND DIRECTOR OF 
   TECHNOLOGY POLICY, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Mr. Lewis. Let me thank you for the opportunity to testify 
on this important subject. I think that since September 11, we 
have an opportunity and a need for a new look at 
nonproliferation and controlling export of technology.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lewis appears in the Appendix on 
page 206.
---------------------------------------------------------------------------
    Changes in international security and the global economy 
have made export controls less effective in preventing 
technology transfer. In particular, technological change and 
economic integration pose real challenges for both 
nonproliferation and counterterrorism. This decline in 
effectiveness is less noticeable in the nonproliferation 
regimes because of their strength. The Missile Technology 
Control Regime, the Australia Group, and the Nuclear Suppliers 
Group have strong support from their members. They focus their 
efforts on key proliferation technologies and they have good 
mechanisms for information exchange.
    In contrast, there is another arrangement called the 
Wassenaar Arrangement. It is ineffective. There is little 
consensus. This would be a problem except for the fact that 
most of what Wassenaar controls is unimportant for 
nonproliferation purposes, and I think we would get more 
benefit if we paid less attention to Wassenaar and more 
attention to strengthening both our own national catch-all 
controls and helping foreign countries strengthen their catch-
all controls, as well.
    Another problem that we have with the export control debate 
in the United States, Mr. Chairman, is that we have not spent 
enough time perhaps looking at some of the larger problems. 
First, the rationale for nonproliferation export controls needs 
to be reexamined, and hearings like this are very helpful in 
advancing the thinking of the United States.
    Export controls were designed, as many of my colleagues 
have said, and it is amazing to me how, at least with the first 
panel and I think some of the others, I will be repeating many 
of the things they said, which is the problem for being last, 
but export controls for nonproliferation were designed to make 
programs more costly and to buy time for diplomacy. This worked 
very well for the last 10 years, but we are now facing a hard 
core of countries--Iraq, Iran, and North Korea--where export 
controls are going to be very less effective and we will need 
some new approach.
    In addition to that level of problem, we face new problems 
with non-state actors who seek to acquire weapons of mass 
destruction. They pose a serious challenge to current 
nonproliferation controls, which are aimed at countries and 
large government programs. Nonproliferation is now more than an 
arms control problem that can be approached in the traditional 
diplomatic and military context.
    Export licensing will be less important for dealing with 
terrorist organizations. Terrorists will not be applying for 
licenses and they may not even try to export materials. A more 
plausible scenario is that terrorists will attempt to acquire 
WMD-related materials in the country where they intend to use 
them, bypassing all of our current export control mechanisms.
    For example, many of the previous speakers have noted the 
dangers of radiological weapons. While all countries have good 
export controls on nuclear fuel, it is not clear that they have 
all taken the necessary steps to safeguard this fuel from 
theft, and this includes Western European countries. A 
terrorist organization could steal spent nuclear fuel and use 
it to build radiological weapons.
    Similarly, security measures at U.S. and foreign 
laboratories may not be adequate to prevent the theft of 
dangerous biological samples, and in this sense, internal 
security measures are important to nonproliferation as are 
export controls.
    Nonproliferation must become part of the larger system of 
homeland defense and the response to terrorism that the 
administration is building. Proliferation regimes can make an 
important contribution to this by identifying the key WMD-
related items that need additional safeguards and by 
coordinating effective security measures. Efforts to ensure 
that WMD does not fall into the hands of terrorists must become 
part of the multilateral defense against terrorism, and the 
support we have received since September 11 could be channeled 
into reinvigorating nonproliferation.
    Let me just touch on one of the issues that your staff 
raised, which is deemed exports. Making nonproliferation a part 
of the larger counterterrorism and homeland defense effort has 
implications for deemed exports. Students coming to the United 
States to study and do research have been a problem for 
proliferation here and in other countries for many years. The 
important thing to realize is that the benefits we receive from 
having these people in the United States probably outweighs the 
costs of any potential leak of technology, and when I say this, 
I am reiterating a conclusion that the Reagan Administration 
came to in its National Security Decision Directive 189.
    The answer to deemed exports may lie less in export 
controls, but thinking in terms of the larger approach to 
homeland security. Immigration control is one of the most 
serious vulnerabilities revealed by September 11. All of the 
terrorists were able to enter the United States, passing 
through multiple checkpoints both here and in allied countries. 
Some sort of improved screening for people coming to the United 
States that included some nonproliferation criteria would 
probably be more useful than export licensing.
    In conclusion, Mr. Chairman, I think export controls can 
still play a role in nonproliferation and national security, 
but this role is shrinking. In looking at where we might want 
to move ahead, it would help to reexamine the fundamental 
approach to nonproliferation export controls. It would be good 
to find ways to use the strengths of the three nonproliferation 
regimes to support homeland defense and counterterrorism. 
Deemed exports would probably be better treated as part of a 
broader solution to screening immigrants. And finally, when we 
move ahead with building export controls, picking up on what 
Dr. Moodie and Dr. Tucker said, we probably should start with 
the lists and procedures of the regimes, the use of catch-all 
controls, and improved immigration procedures.
    I would like to thank you and I will be happy to take any 
questions.
    Senator Akaka. Thank you very much, Dr. Lewis. Dr. 
Milhollin.

TESTIMONY OF GARY MILHOLLIN,\1\ DIRECTOR, WISCONSIN PROJECT ON 
                      NUCLEAR ARMS CONTROL

    Mr. Milhollin. Thank you, Mr. Chairman. It is both an honor 
and a privilege to appear before this distinguished 
Subcommittee and testify on this important topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Milhollin with an attachment 
appears in the Appendix on page 212.
---------------------------------------------------------------------------
    I would like to address my remarks to four points: First, 
whether export controls are succeeding in protecting our 
security; second, whether they are now being weakened; third, 
whether violations are being punished; and fourth, what could 
be done to make export controls stronger.
    First, it is very important to realize that export controls 
can work if they are given a chance. There are success stories 
in the world that export controls can claim. Argentina and 
Brazil decided to give up nuclear weapons because, in large 
part, export controls were imposing great costs on the 
development of those countries. We know from U.N. inspections 
in Iraq that Saddam Hussein's nuclear weapon developers could 
not import certain parts. They had to reverse engineer them, 
which took time and it is not even clear that they worked. 
Also, export controls pretty much stopped Saddam Hussein's most 
ambitious rocket program.
    Today, export controls are slowing down India and Pakistan 
in their efforts to miniaturize their warheads and to build 
more effective long-range missiles. As long as we have export 
controls that work decently, that will be true in the future.
    However, despite clear successes, American export controls 
are now weaker than they have ever been in history. Since 1998, 
when Saddam Hussein was building his mass destruction arsenal, 
export controls in the United States have been cut about 90 
percent. Today, the Commerce Department is receiving about a 
tenth as many applications as it received in the late 1980's, 
and when the applications do come in, they are almost always 
approved. In the last fiscal year, only 4 percent of the 
applications were denied.
    This system imposes virtually no burden on industry and it 
is a system that seemed to please us quite well in peacetime. 
Now, however, we are not in peacetime and we know that there 
are terrorist organizations that want to do us harm and we know 
that weapons of mass destruction in their hands would threaten 
our way of life.
    I would just like to give you some examples of cases in 
which our export control system has allowed technology, 
American technology, to threaten American Armed Forces. Perhaps 
the most recent case is that of Huawei Technologies, a Chinese 
company that was caught earlier this year helping Iraq improve 
its air defense network. These air defenses are designed to 
shoot down our pilots.
    This Chinese firm helped Iraq in defiance of the 
international embargo against this kind of transaction. At the 
time the assistance was discovered, Motorola had an export 
license application pending at the Commerce Department to help 
this company improve its ability to build high-speed switching 
and routing equipment, which would be ideal for an air defense 
network.
    In the recent past, the Commerce Department has licensed a 
series of sensitive items to Huawei Technologies. Huawei was 
allowed to buy high-performance computers from Digital 
Equipment Corporation, IBM, and Hewlett Packard, and Sun 
Microsystems. In addition, Huawei got $500,000 worth of 
telecommunication equipment from Qualcomm. Other U.S. firms 
have helped Huawei by setting up joint operations. These 
include Lucent Technologies, AT&T, Motorola, and IBM.
    As a result of all this American assistance, Huawei's sales 
are projected to reach $5 billion in 2001. This company began 
as a $1,000 start-up in 1988, so the result is that U.S. 
technology, some of which is controlled for export but 
licensed, and other technology going through joint operations, 
has built out of virtually nothing a Chinese company that now 
is able to help Iraq improve its air defenses and put the lives 
of U.S. servicemen and women at risk. These exports no doubt 
made money for American companies, but at a cost of threatening 
our pilots.
    Huawei, unfortunately, is not an isolated case. There are 
two others mentioned in my testimony. One is a situation in 
which the Commerce Department approved exports to a company in 
China that supplied anti-ship missiles to Iran and was 
sanctioned for missile proliferation. We, the United States, 
sold that company computer equipment for simulating wind 
effects. If you are building anti-ship missiles, a computer to 
simulate wind effects is quite useful.
    Also, only last month, the Washington Times reported that 
Iran was installing another large JY-14 radar near its border 
with Afghanistan. This radar is a very aggressive and powerful 
air defense radar. It was sold to Iran by a Chinese company 
called China National Electronics Import-Export Corporation. 
Before that sale occurred, the U.S. Government approved a 
series of exports to that company that would be very useful for 
making that very radar. So again, we are facing a situation 
where our pilots, if we ever get in a fight with Iran, will 
have to face equipment probably made with our own technology.
    The second point I would like to make is that export 
controls are now being weakened. In response to the attacks on 
September 11, the U.S. Government dropped export control 
sanctions on a series of Indian and Pakistani companies. In my 
testimony, I provided descriptions and photographs of some of 
the companies that were dropped from the control list.
    One of them is Hindustan Aeronautics. It makes major 
components for India's largest rockets. In my testimony, there 
is a photograph of nose cones made by that company.
    Another company is Godrej and Boyce. It also makes 
components for India's largest rockets. It makes a rather 
powerful liquid fuel rocket engine, which is depicted in a 
photograph in my testimony.
    A third firm is India's National Aerospace Laboratory. It 
conducts missile research. In my testimony, I have a picture of 
a missile being tested in this company's wind tunnel.
    And fourth, there is Walchandnagar Industries. It produces 
major components for Indian nuclear reactors that are not 
inspected by the International Atomic Energy Agency. The 
absence of inspections means that the plutonium that those 
reactors make is free for use in atomic bombs. This company, 
too, was dropped from export control sanctions.
    So we have this serious situation where we have a terrorist 
attack on American soil, and in response to that attack, the 
U.S. Government drops export controls on companies in 
developing nations that are making weapons of mass destruction. 
It seems to me that this is a mistake. It is not the right way 
to respond to a terrorist attack.
    Also, I would like to draw the Subcommittee's attention to 
the problem of export enforcement. It is very rare for a big 
company that breaks export control laws in the United States to 
be punished. I have cited two cases.
    One involves the company Silicon Graphics. In 1996, it sold 
high-performance computers without the required export license 
to one of Russia's leading nuclear weapons laboratories. After 
the computers arrived, one of Russia's leading nuclear 
scientists announced that the Russians were going to start 
doing simulations like we did with computers instead of doing 
actual tests. This is a case where it is undisputed that the 
export needed a license. It was made without the license and 
nothing has happened. It went to a grand jury years ago and has 
simply disappeared.
    More recently, in 1999, the Cox Committee found that Hughes 
Electronics and Loral Space Communications--I am sure the 
Subcommittee is familiar with that case--the Cox Committee 
found that they deliberately acted without the legally required 
licenses and violated U.S. export control laws. That case has 
been in a grand jury for nearly 4 years without any results.
    Senator Akaka. Dr. Milhollin, there is a vote that has been 
in progress. How much more time do you need?
    Mr. Milhollin. I need about 1 minute, perhaps 2 minutes. 
Perhaps I can do it in 1 minute.
    Senator Akaka. Yes. I have questions, but go ahead.
    Mr. Milhollin. I think there are things we can do which 
would be very easy. In my testimony, I have indicated that we 
could list the dangerous companies abroad that are trying to 
make weapons of mass destruction. We know who they are. Their 
names are well known. I have attached to my testimony a list of 
50 Chinese companies that could easily be added to the Federal 
Register list of dangerous buyers. I recommend that be done as 
soon as possible. That concludes my testimony.
    Senator Akaka. Thank you very much, Dr. Milhollin.
    I am so sorry. We have a rash of votes going on, so let me 
ask this question of Mr. Christoff and GAO. Has GAO ever looked 
at which items are of greatest concern for WMD? Is it your 
experience that an industry compliance program, voluntary or 
obligatory, can work?
    Mr. Christoff. Mr. Chairman, let me just talk to you about 
what we have done in GAO. I think one of the important areas 
that we have addressed is how to balance the risk in 
determining what are the national security implications when 
you try to decontrol an item and balancing it against the 
market availability.
    The work that we did for this full Committee on high-
performance computers is a good example in the sense that 
Executive Branch agencies, I think, do a good job of 
determining that many of these high-performance computers are 
available elsewhere, but they do not look at the national 
security implications. As we said in the past, that is an 
important balancing act that oftentimes does not occur within 
the Executive Branch.
    Senator Akaka. Thank you.
    Let me ask a final question so I have a few minutes left to 
get to the floor. Dr. Cupitt, in your written testimony, you 
made a strong argument for a comprehensive study of the anti-
terrorist export control policies of key U.S. allies. Should we 
make changes in the way our current government agencies charged 
with dual-use export controls work? Do we need a new agency or 
new interagency process?
    Mr. Cupitt. As you may know, I think S. 149, for instance, 
was going to set up an Office of Technology Assessment that 
would have as part of its mandate a requirement to assess the 
export controls systems of other countries. I think that might 
be an example of one of the things that might be done.
    Even though we spend, I know at our Center, we spend a lot 
of time assessing other countries' export control systems, we 
are frequently asked, have you assessed country X, and we have 
to say, no, and we have to say, no one else has and, at least 
in a comprehensive or systematic way. And for us, I think, to 
make good policy decisions and good strategies in terms of 
building a coalition of partners that would have complementary 
export control systems, we need to know a lot more than what we 
currently do.
    Related to that, I want to mention that I think Dr. Lewis's 
point about catch-all systems, one of the successes that we 
have had in recent years is to promote catch-all as a means of 
addressing some of the items that may not be listed or may have 
moved off the list, not only here in the United States but in 
other countries, and that has been an important step. But even 
there, we do not know that much about who is implementing the 
catch-all control policies.
    Even very basic data like that, we do not really have a 
good idea, and I think that would be something that would be 
very useful. Again, I think that S. 149, setting up that Office 
of Technology Assessment in the Commerce Department, is an 
example of one of the ways that this might be achieved, that we 
might improve our data capabilities.
    Senator Akaka. Dr. Lewis, would you make any comments on 
the same question?
    Mr. Lewis. The question being, do we need a new export 
control agency? Was that the question?
    Senator Akaka. Yes, whether we need a new agency or new 
interagency process.
    Mr. Lewis. One thing that would help, Mr. Chairman, and 
thank you for the question, is that we could definitely use a 
new law. The law we have now dates from 1979, and so it is an 
interesting historical artifact, but it does not work very well 
and the system of export controls it sets up with national 
security regimes is complicated and ineffective. So that would 
be one area that I hope the Congress will be able to return to 
next year.
    We have looked in a couple of studies about whether or not 
there would be a benefit from having an individual agency that 
was responsible for export controls. I would agree with anyone 
who said that none of the agencies now do a particularly good 
job. It is very hard to get consensus on where you should move 
it. And a new agency may not have the power or the clout of an 
office that is linked to a cabinet member. So it probably would 
not hurt to shake up the system, but I am not sure we are ready 
to identify what the outcome would be.
    Senator Akaka. I have to go, but we have questions for you. 
We will send the questions to you for your responses. But I 
want to thank you so much for coming today and appearing as our 
second panel and for sharing your statements with us. There is 
no question, what you have said will help us do a better job 
here in the U.S. Senate. Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 4:59 p.m., the Subcommittee was adjourned.]


                   COMBATING PROLIFERATION OF WEAPONS



                     OF MASS DESTRUCTION (WMD) WITH



                       NONPROLIFERATION PROGRAMS:



                      NONPROLIFERATION ASSISTANCE



                        COORDINATION ACT OF 2001

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2001

                                   U.S. Senate,    
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Cleland, Domenici, and Cochran.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
The Subcommittee is here to discuss the threats we face from 
insecure critical equipment and discontented scientists from 
the former Soviet nuclear, chemical, and biological weapons 
complex.
    I want to thank our colleague, Senator Hagel, for joining 
us today. I also wish to thank our other witnesses for being 
here, Ms. Gary Jones, the Director of Nuclear Nonproliferation 
Issues at GAO; Ms. Laura Holgate, Vice President of the Russian 
Newly Independent States Program of the Nuclear Threat 
Initiative; and Mr. Leonard Spector, Deputy Director of the 
Monterey Institute of International Studies Center for 
Nonproliferation Studies.
    President Bush and President Putin yesterday announced 
historic cuts to the nuclear stockpiles in the United States 
and Russia. For the future of both our nations and the prospect 
of a more secure world, I hope they are successful in 
addressing another legacy of the Cold War, the materials, 
facilities, equipment, and people used to make these and other 
weapons in the former Soviet Union.
    We have faced a major national security problem since the 
1991 breakup of the Soviet Union. Control of chemical, 
biological, and nuclear weapon materials was suddenly spread 
out among a number of newly independent nations. We could no 
longer be assured of adequate control of these weapons or the 
people who had designed them.
    Prior to 1991, international nonproliferation policy 
stressed keeping weapons of mass destruction out of the hands 
of a few states. Since 1991, we have been faced with the 
possibility the information and materials which would have 
taken years to acquire to build a WMD weapon could be stolen in 
an instant.
    Since the terrorist attacks on September 11, the problem of 
preventing WMD proliferation has gained both a new urgency and 
a greater complexity. The FBI's assessment of the anthrax 
attacks which have plagued the Senate and the Nation's mail may 
have been perpetrated by a lone disgruntled scientist, 
demonstrates how a weapon that had only been in the hands of a 
state can now be wielded by a single terrorist. Weapons that we 
previously worried about being delivered by an intercontinental 
ballistic missile we now know can be infiltrated into our midst 
without any advance warning.
    We are faced with the prospect of spending billions of 
dollars to protect our homeland against multiple threats from 
multiple sources. Nonproliferation programs, the subject of 
today's hearing, are a critical means to prevent weapons, 
materials, equipment, and technology from falling into the 
wrong hands.
    I want to thank again our colleague, Senator Hagel, for 
being here to discuss this proposal to achieve a national 
strategy and improve coordination between the various 
nonproliferation programs. His legislation, the 
Nonproliferation Coordination Assistance Act, would establish a 
coordinating body to ensure that nonproliferation activities 
are efficient, effective, and further national interests.
    The Departments of State, Defense, and Energy have asked 
that their testimony be postponed until after President Bush's 
summit with President Putin. We have agreed to this and will 
reschedule their testimony in the near future.
    In our discussion of current and future nonproliferation 
plans and the ways to improve and better coordinate them, we 
must keep in mind two questions. First, how can we adapt to 
ever-changing WMD threats? And second, are our plans and 
policies making the world more secure? I look forward to 
hearing our witnesses' comments on these two questions.
    At this time, I would like to yield to my friend, Senator 
Domenici, for his statement.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman. 
Senator Hagel, I am pleased to be here adding some positive 
thrust to your legislation. I want to compliment you and the 
Chairman for holding this hearing. In addition, I want to 
compliment Senator Hagel for his proposed legislation. It has a 
very simple title but a very profound process is involved in 
this. It is called Nonproliferation Assistance Coordination Act 
of 2001.
    The importance of nonproliferation programs with the former 
Soviet Union should not be open to question. The collapse of 
the Soviet Union ended the Cold War, but it also tremendously 
increased the risk that materials and expertise for weapons of 
mass destruction could contribute to new threats to global 
stability. For a country which relied on guards and guns to 
protect secrets and material, it was a jolting transition to a 
new situation where it was not clear if the guards, that is, if 
they were even still present, were being paid.
    The current war on terrorism is critically dependent on 
minimizing the extent of the threat that terrorists can mount. 
Preventing their access to weapons of mass destruction must be 
one of our highest priorities.
    Many nonproliferation programs were created, all with the 
best of intentions. Each program has well-stated goals. But 
these programs frequently are intertwined and interrelated in 
various complex and difficult ways. There could be no question 
that better coordination among the programs would lead to 
enhanced effectiveness, as well as potential cost efficiencies.
    The Nunn-Lugar-Domenici legislation--it is also obviously 
in Nunn-Lugar, but this followed it by a few years, in 1996--
called for a nonproliferation coordinator for all these 
programs. The administration at that time chose to ignore that. 
After the legislation's call for a coordinator expired in 1999, 
I helped with further legislation for this coordinator in 
amendments to previous Defense Authorization Acts, again to no 
avail. There was nobody worried enough about it, and clearly 
the Executive Branch did not think it was a big enough or a 
powerful enough issue.
    Numerous committees have called for this coordination and 
have studied it. John Deutch chaired one of these committees. 
More recently, the superb effort from Senator Howard Baker and 
the Hon. Lloyd Cutler again called for this coordination. That 
is a current report, Mr. Chairman. For everybody on this staff 
that is interested in moving this issue along, that is ``must 
reading.'' It is very current and has many current evaluations 
and studies in it. My friend, Chuck Hagel, is totally familiar 
with it, I am sure.
    In an amendment to the current defense authorization bill, 
I called for tighter coordination. I was pleased to develop 
that amendment with Senator Hagel, he might recall, building on 
the same bill that you are discussing here today. In addition 
to Senator Hagel, Senators Lugar, Biden, Bingaman, and Landreau 
joined us in cosponsoring it. All I can say is that it was 
unfortunate, but no action was taken on that amendment due to 
confusion in the minutes before the Senate voted on the defense 
authorization bill.
    Now I understand that the Armed Services Committee is 
working in conference to incorporate the themes of that 
amendment. But I am very pleased that while that is stalemated 
somewhere, you are giving birth to the idea with your bill here 
today. I do hope it is given every consideration and I hope you 
pursue it with vigor. It is very, very important.
    We can't forget about this coordination as terrorism gets 
closer and closer on the television monitors of Americans. 
There is an awful lot of terrorism potential when you think 
about what can be put together with all of the leftover Soviet 
materials and all of the material that comes from dismantlement 
programs. Clearly there are risks that come with the Soviet 
Union's turning out to have a very different amalgamation of 
programs. Clearly they have a difficult time finding money to 
pay just the ordinary kinds of expenditures to maintain control 
over these materials and expertise to avoid it spreading all 
over the world.
    There can be many examples where we needed this improved 
coordination. One of the immediate concerns involves the very 
vital plutonium disposition programs, which require 
coordination between the United States and Russia. The recent 
suggestion from the National Security Council that this program 
might be modified, along with strong budget signals that we are 
wavering in our support for the program, has introduced some 
great uncertainties. Failure to coordinate this complex program 
has led to some very serious issues which threaten to derail 
the entire effort in terms of plutonium disposition with 
Russia.
    We are now seeing the Governor of South Carolina, 
incidentally, refusing to accept plutonium from Rocky Flats and 
a German company withdrawing their offer to assist Russia with 
the MOX program because the administration has injected some 
really serious uncertainty by saying the program did not work 
by not having one to take its place. We saw a collapse of the 
efforts to obtain international funding for the program in 
Russia. Coordination could have avoided all these problems.
    In conclusion, I strongly concur, Mr. Chairman, with 
Senator Hagel and many of our colleagues that a far better 
coordination is needed across the government for our 
nonproliferation programs with the former Soviet Union.
    I might say that I am privileged to serve on a board of 
directors of a nonprofit corporation that is called the Nuclear 
Threat Initiative. That was set up with a $50 million a year 
pledge, I do not know how many years, but it will be a number 
of years, perhaps 5 years, or $250 million. I note that one of 
those who are working with Sam Nunn is Laura Holgate, sitting 
in the front row. She is going to be on our next panel. It has 
been a pleasure working with Ted Turner, Senator Lugar, and 
former Senator Nunn, and some other distinguished people, and 
we are going to make some real headway in terms of getting the 
world moving with reference to nonproliferation.
    We commented at our last board meeting that does not mean 
that we do not need government's action. Quite to the contrary. 
The reason some of the things are being done by that nonprofit 
is because our government has failed and they have not done 
some things they ought to be doing. So this is one of them, to 
get started on coordinating our own programs.
    Thank you very much, Mr. Chairman. Thank you, Senator 
Hagel.
    Senator Akaka. Thank you very much, Senator Domenici. Thank 
you for your statement.
    Senator Cochran, may I yield to you if you have a 
statement.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Thank you very much. I ask unanimous 
consent that my prepared statement be placed in the record as 
if read.
    Senator Akaka. Without objection, it will be placed in the 
record.
    [The prepared opening statement of Senator Cochran 
follows:]
             PREPARED OPENING STATEMENT OF SENATOR COCHRAN
    Mr. Chairman, I am pleased to join you in welcoming Senator Hagel 
and our other witnesses to today's hearing on the United States' 
nonproliferation and threat reduction assistance programs in the former 
Soviet Union. I appreciate the fact that Senator Hagel is taking the 
time to be here with us despite the fact that he has another hearing to 
attend and so I will make just a brief statement.
    We have in place already several nonproliferation programs which 
are important tools that contribute to the effort to control the 
proliferation of weapons of mass destruction. But, I think we must do 
more to deal with this serious problem which threatens our nation and 
other nations as well.
    The bill before us today is designed to strengthen and improve the 
implementation of these programs by the U.S. Government. S. 673 would 
create a committee within the Executive Branch with the responsibility 
of monitoring and coordinating U.S. policies in the former Soviet 
Union.
    I commend Presidents Bush and Putin for their statements yesterday 
reiterating their strong commitments to cooperation in this area of 
concern. It is clear that the Bush Administration places a high 
priority on these programs and is working, as the White House press 
release stated, to ``ensure that existing efforts serve priority threat 
reduction and nonproliferation goals, as efficiently and effectively as 
possible. . . .''
    I look forward to today's testimony on this very important topic 
and to our future hearings on this subject.

    Senator Cochran. Mr. Chairman, let me just welcome my good 
friend and colleague from Nebraska. I appreciate the fact that 
he is here today to talk about his new initiative in the 
proliferation area, trying to control more effectively the 
spread of weapons of mass destruction. I cannot think of a more 
important subject for him to work on than that, and to looking 
at who is cosponsoring the legislation with him, it makes me 
realize that we need to take this very seriously. I am certain 
that it is a proposal that has been carefully reviewed and 
thought out and the Congress should pay close attention to this 
suggestion. We appreciate your taking time to come and testify 
before the Subcommittee.
    Senator Akaka. Thank you very much, Senator Cochran.
    Again, I want to welcome you, Senator Hagel, and I want to 
thank you for taking the time to be with us today to discuss S. 
673, the Nonproliferation Coordination Assistance Act of 2001. 
If you are ready for your statement, we will be glad to hear 
it.
    Senator Hagel. I am, Mr. Chairman.
    Senator Domenici. Mr. Chairman, could I become a cosponsor? 
Would you let me do that today and you note it in the record? 
Senator, I would like to be a cosponsor.
    Senator Hagel. Thank you.
    Senator Akaka. Fine.
    Senator Domenici. Thank you very much.

TESTIMONY OF HON. CHUCK HAGEL,\1\ A U.S. SENATOR FROM THE STATE 
                          OF NEBRASKA

    Senator Hagel. Mr. Chairman, thank you, and to my friends, 
Senator Cochran, and Senator Domenici, thank you. What I am 
going to present today, Mr. Chairman, is essentially an effort 
that has worked from and off of the leadership of Senators 
Domenici, Lugar, Nunn, and Cochran and so many of my senior 
colleagues who have been not just working on this general 
issue, but trying to frame it in a way to call attention to the 
relevancy and the real dynamic of the threat of terrorism. 
That, of course, as Senator Domenici noted, has now been moved 
from a threat to a reality as of September 11, and hence, the 
timeliness and the importance of these kinds of issues, most 
specifically nonproliferation, is beyond just urgent but it is 
now of necessity that the Congress of the United States deal 
with this.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hagel with an attachment 
appears in the appendix on page 219.
---------------------------------------------------------------------------
    What I have done in the bill that I put together a few 
months ago was essentially reframe much of the work of Senators 
Domenici, Lugar, Biden, Cochran, and others with their support, 
with their concurrence, and with their encouragement. And so I 
want to acknowledge them as I begin to lay out what my bill 
would do, Mr. Chairman, because essentially, it is because of 
their efforts and those who have gone before me that I have 
been able to do this.
    A few months ago, I introduced, as you noted, the 
Nonproliferation Assistance Coordination Act to address the 
coordination of nonproliferation efforts in Russia and the 
former Soviet Union. Senators Lugar and Biden were original 
cosponsors of this legislation and we will include, of course, 
Senator Domenici, as well.
    This legislation was divided into eight sections. Section 
four of this bill establishes a Committee on Nonproliferation 
Assistance at the assistant secretary level or higher, to be 
chaired by a senior representative of the National Security 
Council and comprised of representatives from the Departments 
of State, Defense, Commerce, and Energy.
    I would also note, Mr. Chairman, that I take no particular 
pride in my colleagues' or others' efforts to strengthen, 
improve, restate, and restructure what I have laid out here and 
I am certain that can be done. I introduced this bill not 
because of any territorial sense of prerogatives as to who 
chairs anything, but rather to try to bring some accountability 
to this issue, and you will hear from witnesses, especially GAO 
and other administration witnesses that you noted later on, 
that will have their own sense of this bill and will come 
forward, I am sure, with a more effective way to structure the 
bill.
    Section five sets out the duties of the Subcommittee. 
Section six relates to administrative support. Section seven 
protects confidentiality of information.
    Mr. Chairman, it has been 10 years since the Congress took 
the important step to help reduce the threat of nuclear chaos 
emerging from the disintegration of the Soviet Union. Under the 
foresight and leadership of Senators Nunn and Lugar, Congress 
established the Cooperative Threat Reduction Program, 
authorizing funding through the Department of Defense budget to 
assist with the safe and secure transportation, storage, and 
dismantlement of nuclear, chemical, and other weapons in the 
former Soviet Union.
    We are aware of that. It has been alluded to especially in 
the remarks of Senator Domenici. And upon that first important 
piece of legislation, we build the next stage of the Nunn-Lugar 
effort. And as Senator Domenici noted, the next stage of that 
came in 1996, when Senator Domenici joined with Senators Lugar 
and Nunn to further define and refine Nunn-Lugar.
    Thousands of nuclear warheads have been deactivated and 
missiles dismantled in Belarus, Ukraine, Kazakhstan, and 
Russia. In the past 10 years, the Nunn-Lugar initiative has 
grown into a multi-pronged effort by the Departments of 
Defense, State, and Energy to ensure that weapons of mass 
destruction, weapons-usable material and technology, and 
weapons-related knowledge in Russia and the Newly Independent 
States remain beyond the reach of terrorists and weapons 
proliferating states.
    The investments we have made in this area have yielded an 
impressive return. By assisting Russia in this area, we have 
reduced, not eliminated, nuclear threats we face in the United 
States and the world and have enhanced our national security. 
But just as the Nunn-Lugar initiative has changed over the last 
decade, so, too, has the world changed, especially since the 
terrorist attacks on this country on September 11.
    Nonproliferation is one of the key components of the war on 
terrorism. On November 6, President Bush stated, ``Al Qaeda 
operates in more than 60 nations, including some in Central and 
Eastern Europe. These terrorist groups seek to destabilize 
entire nations and regions. They are seeking chemical, 
biological, and nuclear weapons. Given the means, our enemies 
would be a threat to every Nation and eventually to 
civilization itself.''
    Last January, a bipartisan task force led by former Senator 
Baker and former White House Counselor Lloyd Cutler, which 
Senator Domenici mentioned, released a report calling for 
improved coordination within the U.S. Government on 
nonproliferation assistance to Russia. In particular, the 
report noted, ``Coordination within and among U.S. Government 
agencies is now insufficient and must be improved. Although the 
task force focused on the DOE nonproliferation programs, the 
members heard from many interlocutors that the programs would 
be improved and could be improved, as would the counterpart 
programs in other agencies, if there were more coordination at 
all levels among all U.S. Government programs.''
    That, Mr. Chairman, is what my legislation intends to do. 
President Bush recognized the need for greater coordination in 
our domestic security policy, as evidenced by the appointment 
of Governor Ridge as Director of the Office for Homeland 
Security. The Baker-Cutler report recommended establishing a 
new position for nonproliferation coordination within the 
National Security Council or creating a high-policy-level 
nonproliferation czar.
    My legislation does not impose such a mandate on the 
President, but instead calls for coordination of our 
nonproliferation programs through a senior level coordinating 
committee. And again, I would say that if there are 
suggestions, particular points that could improve and would 
improve the structure of this accountability, I certainly would 
welcome those.
    A second aspect of my legislation is the inclusion of 
efforts undertaken by private sector programs in this area, 
such as corporations and nongovernmental organizations, or 
NGOs. And again, Senator Domenici alluded to one of those 
organizations a few minutes ago.
    This Subcommittee will hear testimony today from the 
Nuclear Threat Initiative, a private organization founded by 
Ted Turner and former Senator Sam Nunn to reduce the threat 
from nuclear weapons. You will also hear from NGOs and their 
efforts through testimony from a representative of the Russian 
Newly Independent States Nonproliferation Program at the 
Monterey Institute. Currently, this private spending is small, 
but it is registering positive results. It will continue to 
increase. We should ensure that government and non-government 
spending on nonproliferation programs complement each other and 
are not duplicative.
    Our previous efforts have yielded significant results, but 
there is far more work yet to do. Yesterday, Senator Dodd and I 
wrote in the New York Times that Presidents Bush and Putin 
should use the current summit as an opportunity to discuss 
effective ways to ensure that weapons and materials of mass 
destruction in and around Russia remain safe, accounted for, 
and secure.
    In conclusion, Mr. Chairman, the discussions between 
Presidents Bush and Putin are already yielding agreement in 
this area. As you noted, yesterday afternoon, President Bush 
noted that the United States and Russia will strengthen our 
efforts to cut off every possible source of biological, 
chemical, and nuclear weapons, materials, and expertise. 
Presidents Bush and Putin also announced yesterday that they 
will dramatically reduce nuclear arsenals in both countries. 
This will probably require more spending from the United 
States.
    If we in Congress are asked to spend more of our budget on 
this effort, then we must ensure these funds are spent 
efficiently, effectively, and not on repetitive efforts. And 
again, Mr. Chairman, that is as much the focus of my 
legislation as any other part.
    I appreciate the Subcommittee's serious review of this 
timely and relevant issue and I would say, Mr. Chairman, that 
if there is anything I can do to further that effort, I look 
forward to working with you and the members of this 
Subcommittee. Thank you.
    Senator Akaka. Thank you very much, Senator Hagel. Thank 
you for your leadership in this area. I really appreciate what 
you have said. It will be helpful to the Subcommittee and with 
you, too, in looking for ways of preparing us to deal with 
whatever threats that might be coming, so I thank you very much 
again for your statement.
    Senator Hagel. Mr. Chairman, thank you. Now you will hear 
from the real pros.
    Senator Akaka. Thank you.
    At this time, I will call our next panel, Ms. Gary Jones 
from GAO, Ms. Laura Holgate from the Nuclear Threat Initiative, 
and Leonard Spector from the Center for Nonproliferation 
Studies. They have been asked to discuss current 
nonproliferation programs, how they are coordinated with 
Federal, private, and international efforts, and how S. 673, 
the Hagel bill, would make these programs and efforts more 
effective.
    Ms. Jones, please proceed with your statement at this time. 
I want all of you to know that your full written statements 
will be entered into the record.

   TESTIMONY OF MS. GARY L. JONES,\1\ DIRECTOR, NUCLEAR AND 
NONPROLIFERATION ISSUES, NATURAL RESOURCES AND THE ENVIRONMENT, 
                 U.S. GENERAL ACCOUNTING OFFICE

    Ms. Jones. Thank you, Mr. Chairman. We are pleased to be 
here today to discuss our recent work on U.S. nonproliferation 
programs and to comment on S. 673, a bill to establish an 
interagency committee to review and coordinate U.S. 
nonproliferation programs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jones appears in the appendix on 
page 223.
---------------------------------------------------------------------------
    As others have said, the events of September 11 have 
heightened the importance of these nonproliferation programs to 
our national security. Let me first briefly summarize the 
results of our work on several of the U.S. Government's 
nonproliferation programs. We have found that they have 
achieved some success, but more needs to be done to keep 
nuclear weapons, materials, and technologies out of the hands 
of terrorists and countries of concern.
    Successes include improved security systems, which have 
reduced the risk of theft of nuclear material in Russia; the 
purchase of weapons grade uranium that is equivalent to 4,000 
nuclear warheads that has been turned into fuel for commercial 
nuclear power reactors; and the creation of non-military jobs 
for some weapons scientists.
    But the task is far from over. Hundreds of metric tons of 
nuclear material remain at some risk because improved security 
measures have not yet been installed. This is because DOE's 
program to secure this material has experienced problems with 
access to sensitive Russian sites. Further, DOE does not know 
how much and for how long additional assistance will be needed 
to sustain the operation and maintain the new security 
equipment already involved.
    Two DOE programs and one at the State Department share the 
goal of employing Russia's weapons scientists in non-military 
work and thereby preventing them from selling their knowledge 
to terrorists or countries of concern. With hundreds employed 
by one program and several thousand employed part-time by 
another, these programs are a long way from reaching the 30,000 
to 75,000 senior nuclear, chemical, and biological weapons 
scientists without full-time employment.
    Even when jobs are created, these programs face difficulty 
in conclusively demonstrating that they are achieving their 
intended goal of preventing the spread of weapons-related 
knowledge and expertise. Our reports on these DOD 
nonproliferation programs made numerous recommendations to 
improve their overall management and DOE has addressed or is in 
the process of making changes to address these recommendations.
    Let me turn to the bill, S. 673, that the Subcommittee has 
under consideration. There is some debate among officials, both 
within and outside government, about the need for more 
coordination of U.S. nonproliferation programs. To prepare for 
this hearing, we spoke with representatives from the 
Departments of Defense, Energy, and State, and some private 
interest groups. They all believe that coordination among 
Federal agencies implementing nonproliferation programs is 
already taking place and the mechanism envisioned by the bill 
may not be needed.
    However, based on our work and the findings of two 
independent groups that recently examined these programs, the 
Deutch Commission and the Baker-Cutler Task Force, we believe 
that additional coordination would be helpful. For example, 
some officials told us that better coordination is needed 
between the United States and international programs, such as 
those implemented by the European Union. Further, program 
officials have also noted that although coordination does occur 
at some level, it is frequently informal and subject to changes 
in program personnel. We believe that greater coordination 
could minimize duplication, leverage resources, and focus 
programs more clearly on common goals and objectives.
    However, the legislation did not address a number of other 
problems that I have just talked about, such as limited access 
to sensitive Russian sites and various program management 
concerns. However, the coordinating body envisioned by the 
legislation could serve as a vehicle to share information and 
best practices for addressing these types of problems.
    We also believe the bill could be strengthened by mandating 
development of an overarching strategic plan that clearly 
identifies overall goals, time frames for meeting these goals, 
and ways to set priorities for allocating resources government-
wide to address nonproliferation concerns. Both the Deutch 
Commission and the Baker-Cutler Task Force believe that such a 
strategic plan was the missing element from the U.S. Government 
implementation of nonproliferation programs.
    Building on the individual programs' strategic plans, a 
government-wide plan could also address questions such as are 
the end dates for the completion of the various 
nonproliferation programs, such as securing nuclear materials 
in Russia, still viable? How can the security improvements made 
be sustained beyond the completion of the programs? And in 
light of September 11, do we continue to have the right mix of 
nonproliferation programs needed to address the varying 
security problems facing our Nation?
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Ms. Jones.
    At this time, I would like to yield to Senator Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. I would 
like to thank particularly our colleague, Senator Hagel, and 
the witnesses who appear here today to testify about this 
important subject.
    The threat posed by the weapons of mass destruction that 
are retained in the states comprising the former Soviet Union 
is actually mind boggling. I was struck by the fact that a 
bipartisan task force headed by Howard Baker and Lloyd Cutler 
has recently called this, ``the most urgent unmet national 
security threat to the United States,'' and called for a four-
fold funding increase for our threat reduction efforts.
    In the wake of September 11, we cannot hesitate to take 
strong action to implement this recommendation. We are indeed 
fortunate that 10 years ago, a group of distinguished Senators, 
including my friend and the former Senator from Georgia, Sam 
Nunn, put in place what has come to be known as the Nunn-Lugar 
Cooperative Threat Reduction Act. The programs that have been 
carried out under this legislation have, without a doubt, 
profoundly improved the security of the United States and may 
well have prevented a far worse catastrophe than what we have 
recently experienced. I reiterate my support for these programs 
and call for the enhanced funding recommended by the bipartisan 
task force mentioned previously.
    To the purpose of this hearing, I say that the proposed 
legislation is fully consistent with the requirement to provide 
additional resources for cooperative threat reduction and I 
support it. I also believe that the committee proposed by the 
Nonproliferation Assistance Coordination Act of 2001 will need 
a highly-placed advocate to ensure that its mandate is 
effectively carried out.
    To that end, I endorse Ms. Holgate's recommendation for the 
creation of a Deputy National Security Advisor committed 
exclusively to reducing the threats we face from weapons of 
mass destruction. This threat is far too grave to go without 
such an advocate. I am convinced that our national security 
depends upon the effective coordination and resourcing that 
this position will enable.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for your statement and 
your support.
    I would like to now call on Ms. Holgate for her testimony.

TESTIMONY OF LAURA S.H. HOLGATE,\1\ VICE PRESIDENT FOR RUSSIAN 
  NEWLY INDEPENDENT STATES PROGRAMS, NUCLEAR THREAT INITIATIVE

    Ms. Holgate. Thank you very much, Mr. Chairman and other 
Subcommittee Members for the opportunity to testify today about 
how the U.S. Government can strengthen its efforts to prevent 
the spread of nuclear, biological, and chemical weapons and 
keep them from falling into the hands of groups and states who 
would do us harm.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Holgate appears in the appendix 
on page 233.
---------------------------------------------------------------------------
    The Nation and the world discovered on September 11 that 
there are terrorist forces in the world who will stop at 
nothing in their efforts to take innocent lives. The work that 
the U.S. Government does to reduce the threat from nuclear, 
biological, and chemical weapons and materials is our first 
line of defense in keeping these weapons out of terrorist 
hands.
    Dismantling weapons, securing material, eliminating 
infrastructure, and directing know-how to peaceful pursuits, 
all of these play an essential role in fighting the spread of 
weapons of mass destruction. We have taken important steps 
towards these problems, but to protect the security of the 
American people, we need giant strides, so I would like to 
thank the Chairman and the Members of the Subcommittee for 
putting the spotlight on this issue and giving me and others a 
chance to contribute our ideas.
    President Bush clearly shares the concern that has been 
noted by Howard Baker, Lloyd Cutler, and many others in the 
introductory comments to this hearing. Two years ago at the 
Reagan Library, candidate Bush praised, ``the foresight and 
statesmanship of Senators Lugar and Nunn for their legislation 
to improve security at many Russian nuclear facilities,'' and 
then he added, ``A great deal of Russian nuclear material 
cannot be accounted for. The next President must press for an 
accurate inventory of all this material and we must do more. I 
will ask the Congress to increase substantially our assistance 
to dismantle as many of Russia's weapons as possible as quickly 
as possible.''
    Sadly, the administration's actions in the first months of 
its tenure fall short of the vision and purpose articulated by 
President Bush. Earlier this year, the administration announced 
a review of nonproliferation programs, then cut the program 
budgets back before it even began the review. The review itself 
stopped action in its tracks. Travel was halted. Work was 
postponed. Momentum was lost. And program managers felt they 
lacked the authority to go forward. The review was undertaken 
without even the courtesy of telling our partners in Russia. 
Now we are told the review is complete, but we have not seen 
its outcome.
    I strongly support a review of our nonproliferation 
programs. We have not had one since 1993. But it needs to be 
broad and it needs to be strategic. The review that was 
recently completed appeared to be aimed merely at finding 
inefficiencies in individual program activities. That is a 
worthy purpose in its own terms, but it is no substitute for 
strategic thinking about U.S. national security goals and how 
threat reduction programs can help achieve them.
    I worked for many years in many capacities, first at the 
Department of Defense in the Cooperative Threat Reduction 
Program, then at the Department of Energy, and now at the 
Nuclear Threat Initiative, to implement and advance these 
programs to prevent nuclear, biological, and chemical weapons 
from falling into the wrong hands. It is my view that these 
programs are critically important, largely effective, and 
because of the obvious urgency, more in need than ever of high-
level attention, increased funding, greater staffing, and 
continuous fresh thinking to help speed up the pace and widen 
the scope of these programs. If terrorists are racing to 
acquire weapons of mass destruction, we ought to be racing to 
stop them.
    Ten years after the passage of the landmark Nunn-Lugar Act 
to establish the legal basis of nonproliferation cooperation 
with Russia and other former Soviet States, U.S. Government 
activities in this area approach $1 billion annually and 
involve multiple agencies from Defense to Health and Human 
Services, myriad contractors, and over a dozen Congressional 
committees and subcommittees. This growth has been, by and 
large, organic, with each agency pursuing its own contacts and 
relationships in recipient countries, assembling and justifying 
its own budget, implementing programs based on its own culture 
and approaches, and interacting with its own Congressional 
oversight committees.
    This is a complex task. Some point to the involvement of so 
many agencies as evidence of poor management. It is not. It is 
evidence that such a program requires wide-ranging expertise 
and, therefore, will always be a challenge to administer, a 
challenge that can be fully met, in my view, only with high-
level leadership and coordination. This leadership and 
coordination has been hard to come by since the early days of 
these programs.
    Where it has worked well, it has been a consequence of 
personalities, committees, or commissions that are not enduring 
features of the organizational structure, either within the 
U.S. Government or in relations between the United States and 
states of the former Soviet Union. Coordination with 
nongovernmental organizations like mine also occurs primarily 
ad hoc, based on personal relationships and our own initiative. 
Relationships with other countries working in these areas tends 
to be intermittent and opportunistic.
    Despite the complexity of these nonproliferation 
cooperation activities, programmatic duplication has been 
remarkably low and program implementation is, in general, very 
effective. In spite of proceeding without a comprehensive and 
coordinated vision administered from the top, these programs 
taken collectively have massively improved U.S. national 
security. Improving the coordination and accountability of 
these programs should result in even greater improvements.
    What is missing in the process is a definitive statement of 
strategy and consistent advocacy of administration goals. This 
must include holding agencies accountable for financing and 
implementing programs that accomplish these goals. Without this 
clear high-level direction and the interagency process that 
creates and maintains it, agencies have set and articulated 
their own priorities, resources have not always been aligned 
with those priorities, even within agencies, and differences 
among agencies' rhetoric and programmatic actions have created 
perceptions of inefficiency and contradiction which are 
exploited by opponents of the programs and missions.
    To address these structural flaws, I recommend the creation 
of a Deputy National Security Advisor committed explicitly and 
exclusively to reducing the threats we face from weapons of 
mass destruction. This individual would be responsible for 
leading and enforcing interagency decisions and for creating a 
unified programmatic budget presentation.
    In whatever manner Congress and the Executive Branch decide 
to organize our programs, and there are many effective ways to 
do so, they must have high-level Presidential attention. Any 
organizational structure with high-level attention will be 
better than the best organizational structure with low-level 
attention.
    Thank you very much, and I look forward to your questions.
    Senator Akaka. Thank you very much for your testimony.
    Mr. Spector, you may proceed.

TESTIMONY OF LEONARD S. SPECTOR,\1\ DEPUTY DIRECTOR, CENTER FOR 
 NONPROLIFERATION STUDIES, MONTEREY INSTITUTE OF INTERNATIONAL 
                            STUDIES

    Mr. Spector. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify before the Subcommittee on improving the 
effective of U.S. nonproliferation programs in the successor 
states of the former Soviet Union.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Spector with attchments appears 
in the appendix on page 245.
---------------------------------------------------------------------------
    I want to try to emphasize three themes today. The first is 
that the indecision of the administration, and what I think has 
to be characterized to some degree as ``dithering,'' is 
damaging our efforts to control weapons of mass destruction 
material and expertise in the Newly Independent States, 
especially in Russia. I think this is an especially troubling 
situation given the new urgency that has emerged to deal with 
these matters, in light of the September 11 events.
    The second theme I want to emphasize is that the programs 
that are functioning could function much more efficiently and 
more effectively if they could be better integrated and if 
there were better planning among them and better oversight from 
above. I will support the current legislation in some of my 
comments in terms of its approach.
    And finally, I want to comment on the private-public 
partnerships and just note how important a role they have 
played historically in this area and how important a role they 
are playing today.
    The fundamental goal of the majority of the programs that 
are operating in Russia today and the other Newly Independent 
States, especially those whose purpose is to secure and 
eliminate fissile material and to provide employment for Soviet 
weapons of mass destruction scientists, is to prevent 
terrorists and states of proliferation concern from acquiring 
these materials and getting access to this expertise. As such, 
the programs are an integral and highly important component of 
U.S. counterterrorism efforts.
    Osama bin Laden, as we know, has been seeking weapons of 
mass destruction, and, of course, he recently claimed to 
possess chemical and nuclear weapons, although most observers, 
disbelieve that latter claim of possession of nuclear weapons. 
He is also known to have extensive links throughout the former 
Soviet Union.
    It is worth recalling the scale of the Soviet weapons of 
mass destruction legacy. The Department of Energy estimates 
that Russia possesses 603 tons of weapons-usable fissile 
materials, that is plutonium or highly enriched uranium, 
outside of weapons. That is enough for 41,000 nuclear arms. And 
to provide a benchmark, let us just consider what North Korea 
may have. It is said by the U.S. Government to possess enough 
plutonium for one or two nuclear weapons, and we all know how 
serious we take that national security threat.
    But one or two weapons is less than five-one-thousandths of 
a percent of the Russian stockpile of weapons-grade material 
that I described earlier. One shudders to imagine the mischief 
that Osama bin Laden or a terrorist of his ilk might cause, if 
he were to obtain a comparably minuscule fraction of the 
nuclear weapons material in Russia.
    Russia also possesses a vast arsenal of chemical weapons 
that are now currently awaiting destruction with U.S. 
assistance, if we can get the program moving, and they also 
possess the ability to manufacture the world's most potent 
biological weapons. The bulk of these various weapons-of-mass-
destruction materials are not subject to adequate security 
measures.
    Despite new evidence of terrorist interest in acquiring and 
using WMD, the Bush Administration has not acted to accelerate 
efforts to improve security over these materials and over WMD 
expertise in the former Soviet States. Indeed, nearly 10 months 
after taking office, as Ms. Holgate just noted, and really 
throughout an entire budget cycle, the administration is still 
``reviewing'' U.S. nonproliferation programs in Russia. It is 
apparently unable to decide whether and/or how to pursue a 
number of the critically important initiatives that are already 
underway.
    Inexplicably, the one point that the administration has 
decided upon is that the programs do not need additional 
funding, and that, accordingly, no monies from the $40 billion 
in anti-terrorist funds that will be made available by the 
Congress should be used for the purpose of helping secure 
weapons-grade materials and expertise in the former Soviet 
Union.
    Let me review with you a few of the programs. I have listed 
quite a few in my testimony. I will try to just summarize and 
only hit the highlights. Perhaps the most salient of the 
programs for dealing with the Soviet nuclear legacy, is the 
Material Protection Control and Accounting Program at the 
Department of Energy. As was pointed out earlier by the GAO, to 
date, this program has made great strides.
    It has, I believe, protected about 200 tons of weapons-
grade material. It is roughly a third of the 603 tons that now 
needs to be secured. The remaining material will not receive 
so-called ``rapid upgrades'' until 2007 and it will not be 
comprehensively secured until 2011.
    Surprisingly, the Bush Administration's fiscal year 2002 
budget reduced the funding for this program to a bit below the 
fiscal year 2001 levels, (although 2 weeks ago, Congress 
increased support for this effort above the administration's 
request, from $143 million up to $173 million). The events of 
September 11 call for additional funding.
    Now, I was at the Department of Energy when we put together 
the previous administration's budget in this field, and I know 
that there were other parts of this program that are not going 
to be addressed in the coming year because of these lower 
budget numbers. We all know that not every item on the wish 
list can be funded, but I know that we will not be doing some 
very important work because of the administration's hesitancy 
in moving forward.
    Now, one way that we can rapidly improve security over tons 
of material is to complete another one of these material 
security programs in Russia, and that is to complete the 
facility at Mayak, known as the Fissile Material Storage 
Facility. We have already spent $400 million on this facility, 
and it is supposed to be operational in the coming year, when 
it will secure 6 tons of weapons-grade material. They will load 
it at a rate of about 6 tons per year and eventually 25 tons of 
plutonium will be secured.
    What is holding up the operation of this facility is we 
cannot quite come to conclusion with the Russians on measures 
for having confidence about what goes into the facility and 
mechanisms for monitoring it. This has been a problem for a 
number of years, but it is not moving forward, in part because 
it is not getting high-level attention at the Pentagon, where 
this program sits. It is extremely important when you have a 
high-level official from the Pentagon here to ask what steps he 
is taking to make this $400 million investment good. We have to 
take advantage of this facility in the coming year, and I think 
the ball is very definitely in the court of the Pentagon.
    Another program which I think has been an unalloyed success 
and is widely applauded is the High Enriched Uranium Purchase 
Agreement. This is an agreement under which weapons-grade 
material is blended down to non-weapons-grade nuclear power 
plant fuel in Russia and then purchased by the United States 
and used to fuel U.S. nuclear power plants. This is where 110 
tons of material have indeed been removed from being a problem. 
This 110 tons is no longer usable for weapons, a very large 
quantities. But the program itself will last for many more 
years and needs to be accelerated.
    The intellectual father of the program, Thomas Neff of MIT, 
believes that with some ingenuity, we could double the rate of 
down-blending from 30 tons a year to 60 tons a year at a cost 
of roughly $150 million per year, but the bulk of this money 
will come back to us when that uranium would be sold on the 
open market some years from now.
    The President is looking into this, supposedly. I had an 
interview with Robert Joseph at the National Security Council, 
which is an on-the-record interview that we published recently 
in the Nonproliferation Review. He said that this program was 
``under review.'' The administration was trying to stabilize it 
in some fashion. But it was clear there was no impetus, no 
energy to try to make the program move at a faster pace and to 
try to introduce some new thinking as to how this might work.
    Other programs are also losing momentum, including one that 
Ms. Holgate used to run at the Department of Energy, is the 
Plutonium Disposition Program. This program desperately needs 
leadership and drive from high up in the administration because 
it requires the participation of foreign governments. Because 
of uncertainties about funding and the lack of such leadership, 
the program has lost a year, an entire year, in its efforts to 
eliminate and dispose of 34 metric tons of Russian weapons 
plutonium, which would basically be removed from a concern if 
we could get the program on track and moving forward. Again, 
the problem, I would say, lies with the administration in its 
slowness to come to a conclusion about the program and in its 
reluctance to champion it internationally.
    There are several other programs that are worthy of 
mention. The plutonium production reactor shutdown agreement 
would end production of new plutonium. Why do we want the 
Russians making more plutonium? We have a program to end this. 
Again, it is falling on hard times in the sense that it is not 
getting the leadership from the Pentagon that it needs: In 
particular, a solution was reached to actually get this program 
implemented during the last part of the Clinton Administration. 
It has not yet been embraced by the Bush Administration, but it 
is ready and, I think, a very thoughtful solution. This needs 
to be pried out of the bureaucracy and made to move forward.
    Let me only turn to one or two other points here in 
reviewing some of these programs. A program that I participated 
in while I was at the Department of Energy was to go around to 
small research reactors outside of Russia and try to bring 
weapons-grade material back into Russia to be consolidated and 
down-blended. The material is used as fuel at these facilities, 
and one facility of particular concern was in the former 
Yugoslavia. Now with the change of government there, the 
dangers are reduced, but it is a significant quantity of 
material and we need to get this program moving forward. We 
also need to try to move material out of Belarus and out of the 
Kharkiv reactor in the Ukraine.
    Tactical nuclear weapons, just to change focus a bit, are 
another area that has not gotten attention under this 
administration or the previous administration. There are 
thousands of them in Russia. We have done some work to secure 
them, but there is no work to eliminate these weapons or to 
provide transparency to ensure that Russia is complying with 
undertakings made in 1992. Urgent work is needed here, but 
there is no program of any kind in the administration's current 
initiatives to address this challenge.
    If I may, let me turn next to summarize a number of these 
points and basically say that in all of these cases, the issue 
really lies with the administration and its inability to decide 
where it wants to come out and to move emphatically forward 
with these efforts.
    Let me turn now, if I may, to a different part of the 
proliferation threat in the former Soviet Union, and this is 
one that is very germane to today's dangers. This is the threat 
of biological weapons. As we know, the Soviet Union, had the 
most advanced biological weapons program in the world. We have 
worked during the Clinton Administration and are continuing to 
work during the Bush Administration to try to hire as many of 
these scientists--this program was mentioned earlier--so that 
they do not go off and share their expertise with others. We 
have converted some of the biological weapons sites to non-
weapons use, but some of these sites remain completely unknown 
to us. We are not given any access, and we have not had any 
programs there. These are the programs that are in the Russian 
military. It is an important gap.
    But what came to mind most recently and what a colleague of 
mine, Sonia Benouaghram, has brought to my attention are the 
so-called ``museums.'' These are the collections of extremely 
potent biological weapon agents that remain at many of the 
sites. The work at the sites now, the ones that the United 
States has worked with no longer involves offensive biological 
weapons, but some of the material remains there.
    Last night on television, I am not sure how many may have 
seen this, Senator, but a broadcast showed the refrigerator in 
which some of these vials were sitting. They were barely 
labeled. There was very limited security. One only hopes that 
we can do our work at these sites--and it is underway--more 
rapidly than others may figure out how to defeat the 
rudimentary security systems that now exist. This is a major 
gap and we really need to move this forward dramatically.
    Let me turn if I may, now, to the issue of planning and 
coordination.
    Senator Akaka. Mr. Spector you have exceeded your time, but 
will you please summarize?
    Mr. Spector. Thank you. I would be happy to do that. 
Planning and coordination has been discussed here, and in my 
testimony and in the accompanying article, I have identified a 
number of areas where we simply do not have cross-program 
coordination the way we need it. The most clear-cut example is 
that the program to secure nuclear materials uses one number to 
describe the amount of material that needs to be addressed. 
Other programs, however, are reducing this quantity of material 
by moving it, destroying it, or eliminating it in various 
fashions, and we need a government-wide analysis of this 
problem, as well as a government-wide analysis of job creation, 
and of U.S. activities in other areas. If you had this, you 
could exploit synergies between the programs; you could avoid 
situations where programs interfere with each other 
inadvertently; and you could make much more thoughtful planning 
decisions.
    In the interview that Bob Joseph gave, he did indicate that 
the one element of the administration's review could be 
announced, and it was that there would be increased planning 
and that, indeed, the planning process would take place in an 
interagency group of the very kind recommended in the 
legislation before the Subcommittee. Now, if this is announced 
publicly in a more formal way, perhaps during your next 
hearing, it may mean that the need for legislation is less 
apparent because the administration, in effect, will have 
adopted this very strategy. However, I would recommend a number 
of studies be requested by the committee that would, in fact, 
push the planning process forward.
    Let me conclude just by mentioning the relationship between 
public and private activities. It really would be worthwhile 
spending a bit more time on this to appreciate the incredible 
history of participation by private organizations in this very 
area. The concept of the Nunn-Lugar program and cooperative 
threat reduction was first envisioned and described at Harvard 
by a group up there. My organization has done very important 
reviews of these programs, and has conducted extensive training 
programs to support them, to create a cadre of specialists in 
Kazakhstan and Ukraine and elsewhere. The Nuclear Threat 
Initiative, of course, will play a very important role, as 
well.
    This has been a very successful partnership and I think it 
is one that we certainly hope will continue. There is much more 
work to be done and many more contributions to be made by these 
private organizations.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Mr. Spector.
    I have some questions for each of you. I would just like to 
ask your opinion on some of the views of the administration.
    A number of critics have praised the administration for 
undertaking the first comprehensive assessment of our 
nonproliferation programs in decades. At the same time, they 
fault the administration for failing to develop a strategic 
plan for these programs. Do you agree with these views, and if 
so, what should our strategy be? Ms. Jones.
    Ms. Jones. Senator, I think part of our testimony today was 
basically to say that the legislation currently being 
considered could be improved by requiring a strategic plan and 
that strategic plan would talk about the overall goals that we 
are after government-wide for the nonproliferation program. It 
would enable us to measure progress, hold particular agencies 
accountable for meeting those goals, but it would also provide 
a forum to set relative priorities, particularly from a funding 
standpoint. So I would agree that a strategic plan is something 
that we should be looking for here.
    Senator Akaka. Ms. Holgate.
    Ms. Holgate. I would certainly associate myself with the 
views that you expressed, Mr. Chairman, in terms of the 
contrast between a review of existing programs and a strategy 
for how to move forward and match programs to goals. That 
strategy can only be created in the context of interagency 
coordination led by a firm hand at the White House and is 
desperately needed.
    Senator Akaka. Mr. Spector.
    Mr. Spector. I would agree because I, among others, have 
been urging such planning to take place. When you do such 
planning, certainly in the fissile material area, you look 
across a whole spectrum of challenges. I would say by the time 
the last administration left office, pretty much every 
challenge was addressed in some fashion, sometimes more 
successfully, sometimes less successfully. But you need to have 
that across-the-board approach which a senior-level review that 
attempted to examine this work strategically could achieve.
    So I would certainly support that, and I support the 
comments of Ms. Holgate that the administration has not done 
this. They have looked program by program at some of the policy 
issues, but not at the big picture.
    Senator Akaka. Ms. Jones, in terms of proliferation threats 
from Soviet chemical and biological weapons facilities, we are 
concerned with dual-use materials and equipment and expertise 
being sent to suspected proliferating nations. To what extent 
can these concerns be met by formal nonproliferation activities 
and how can such activities be coordinated with multilateral 
agreements and treaties?
    Ms. Jones. If we are talking about expertise going from 
weapons scientists in the Soviet Union possibly to other 
countries, I think that the programs that the Department of 
Energy has in place have been dealing with that, as well as the 
science center programs at the State Department. I think that a 
coordinating committee that we are talking about today in terms 
of this legislation could go a long way to bringing those 
programs together and possibly leverage the programs and we 
could be more efficient in terms of their delivery.
    Senator Akaka. Mr. Spector, there has been concern that too 
much of U.S. assistance was going to the nuclear weapons 
complex. Some have called for a new program dedicated to 
chemical weapon scientists and engineers. Do you believe that 
Federal programs have paid enough attention to chemical and 
biological weapon scientists?
    Mr. Spector. This was one of the occasions on which the 
programs worked extremely well together. There was a very 
specialized program during the previous administration, which I 
know is continuing, to try to address these biological weapons 
and chemical weapons scientists, institute by institute, and to 
take every job creation program we had--the Science Centers, 
DOD, DOE--and surge those programs in. Interagency teams were 
always used to make the visits implement the overall strategy.
    I would say that the job here is to keep these programs 
going. They have received adequate funding, I think, for the 
present year, and in this area, you had excellent planning. It 
is really a model for what you want to see elsewhere. So I 
think this is a job we have done very well--and with great 
caution, so that we were not supporting improper activities at 
these locations.
    I would also have to say I was very familiar with the 
danger of spending too much money in the United States, which I 
think was the early part of your question. I think most of the 
jobs creation programs now have ceilings on them limiting the 
proportion of funds that can be spent here, which though 
somewhat difficult to meet, are being met. As a result, the 
bulk of money is spent in the former Soviet Union, and I think 
these are good guidelines for us to have.
    Senator Akaka. Ms. Holgate, in Sunday's Washington Post, 
Russian President Putin is quoted as saying categorically that 
he denied that terrorists could obtain nuclear weapons 
originating in Russia or the former Soviet Union. He also 
stated that in the unlikely event that the terrorists in 
Afghanistan have weapons of mass destruction, ``they cannot be 
of Soviet or Russian origin. I am absolutely sure of that.''
    What do you think of President Putin's comments? Is he 
making a distinction between nuclear weapons and nuclear 
material, as some have suggested that nuclear material is 
missing from Russia?
    Ms. Holgate. It is an awkward position to criticize a head 
of state currently visiting in the United States, but I will 
say I have no basis myself to be as certain as he is. I think 
he is not in a position to say anything other than the 
statements that he made. I do not think he could possibly be 
seen to be admitting that there are challenges. So I think he 
made the statements you would expect a President to make.
    Based on what I know of the Russian inventory of their 
weapons, their materials, and the people that are involved with 
them, I cannot imagine how anyone can make a categorical 
statement that every gram of weapons-usable material is 
accounted for and every individual with knowledge is safe in 
their beds in Russia.
    Senator Akaka. Ms. Jones, Mr. Spector recommends that our 
Subcommittee use its oversight authority to request that the 
administration prepare three baseline studies to improve the 
planning and coordinating process. These studies would include 
an inventory of cross-program relationships, a year-by-year 
projection of the inventory of Russian nuclear material not in 
weapons, and a year-by-year projection of the employment impact 
of all U.S. nonproliferation programs. Would such an exercise 
improve planning and coordination, and how useful would this 
be?
    Ms. Jones. Senator, I believe that it would provide a 
baseline for the administration to begin setting goals. I think 
the kinds of things that Mr. Spector has pointed out here could 
be used as part of the goals for this overarching strategy that 
we are talking about and the administration could then be 
measured on an annual basis in terms of how effective the 
programs are in meeting those goals. So I would sign on to the 
fact that these studies might be useful.
    Senator Akaka. Thank you.
    Ms. Holgate, some U.S. nonproliferation goals have been 
hindered by Russia's strict secrecy standards. The GAO reported 
in May that U.S. officials had yet to gain access to 104 of 252 
nuclear site buildings requiring improved security. While we 
can appreciate Russia's concerns, access is required to ensure 
that U.S. tax dollars are being spent appropriately. In your 
opinion, how do we resolve this conflict?
    Ms. Holgate. This is a tough one that a lot of smart people 
have been working on for quite a while, Senator, and it is in 
some ways a measure of the success of the programs that we are 
encountering this challenge. The easy stuff has been, by and 
large, completed and we are getting into the more difficult 
areas where we are talking about the most sensitive facilities 
and the most sensitive materials in Russia. This has happened 
simultaneously with Putin's rise to power, which has given a 
boost to the security services within Russia, and at the very 
same time, our own national security labs have had their 
security posture raised in the wake of the Wen Ho Lee problems.
    The challenge here, therefore, is that even when there can 
be reciprocal visits, it can be almost more difficult for 
Russian scientists to visit our facilities for cooperative 
research than it is for our scientists and implementors to 
visit Russian facilities. So it is kind of an upward ratcheting 
process on both sides simultaneously with the increased calls 
and increased political attention for access.
    The first thing that is needed here is a clear statement 
from both Presidents--and Senator Nunn has called for this to 
come out of the summit, I do not know whether it will or not--
that the mutual monitoring of each country's weapons, excess 
materials and weapons and stocks, could assure the world that 
these are taken care of and that will give the Russian system 
an ability to have access to some of the U.S. systems that will 
help make it possible for U.S. officials to have access to 
Russian systems.
    So the first step is a presidential determination and 
enforcement through the bureaucracies that puts the onus on the 
security people to explain how to make transparency work as 
opposed to taking the easy way out about why it should not 
work.
    Senator Akaka. Mr. Spector, and I would like to have Ms. 
Jones also respond to this question, environmental and local 
public advocacy groups have gained influence in the former 
Soviet Union. What problems is this creating for American aid 
efforts and how can the United States resolve them?
    Mr. Spector. Well, I think this really varies program by 
program. In some cases, such as the material protection 
program, the environmental concerns are really nonexistent. 
There are no environmental impacts. This is just improving 
security.
    In other settings where you are moving around radioactive 
materials or you are proposing to irradiate materials in 
reactors and so forth, local opposition is very significant and 
it really must be taken into account. We are observing the 
Russians now adopting a licensing and environmental impact 
statement process somewhat like our own. So one program I was 
involved in--we were hoping to have results in 2 years. It was 
for storing spent fuel. We gradually were advised, ``well, that 
is not going to happen in 2 years.'' We are going to have to go 
by the book and make sure we have looked at all of these 
issues.
    I think virtually every program that I was associated with 
is very environmentally attuned and has not caused serious 
consequences, and I think we can make the case when we need to 
to local Russian groups or through Russian government officials 
make the case. But it is a factor that has to be weighed and I 
think we should be sensitive to it. We do not want to have a 
steamroller here that creates a backlash.
    Senator Akaka. Ms. Jones.
    Ms. Jones. Just one other point to add to what Mr. Spector 
had to say, and that is as these environmental groups are 
becoming more active, as he noted, it could delay certain 
activities that the United States might want to have happen, 
such as opening of a facility. And I think that as part of the 
strategic plan, and as part of the funding requirements, you 
have to look at the sequencing of these activities and whether 
or not the timing is going to be different now because of some 
of these environmental interactions. And again, let us make 
sure that we can spend the money effectively and efficiently, 
and if a schedule is going to be stretched out, then let us 
only put the money in that can be spent during the time frame.
    Senator Akaka. Ms. Holgate, Presidents Bush and Putin have 
agreed to significant reductions in nuclear weapons. One expert 
on nonproliferation issues, Kenneth Luongo, said that, 
``Despite the widespread belief that the United States is 
helping Russia to dismantle its nuclear weapons, it is not 
true. There is no dedicated program to assist Russia with wide 
dismantlement.'' Will you please share your thoughts on Mr. 
Luongo's statement?
    Ms. Holgate. His statement is technically accurate, Mr. 
Chairman. The challenge comes from the confusion in how we talk 
about these dangerous pieces of equipment. It is true that 
there is no dedicated program to deal with the warhead 
dismantlement itself, and sometimes people use the word 
``nuclear weapon'' to talk about the warhead. Sometimes they 
use it to talk about the entire delivery system, the missile, 
the silo, the submarine, or the bomber. And while there are 
massive programs underway in the Department of Defense aiming 
at the delivery systems, the Russians have so far refused 
offers of U.S. assistance to help actually dismantle the 
warhead.
    At the Defense Department, when I led the Cooperative 
Threat Reduction Program there, we orchestrated a package to 
offer the Russians to help them dismantle nuclear warheads and 
they were so concerned at that time about what kind of 
information and sensitive knowledge might be gained by the 
United States because of our access requirements that they knew 
would follow from that money, that they refused to accept our 
assistance to do that. I would expect that if you ask current 
Department of Defense officials whether that offer would either 
be reiterated or whether it is still on the table, you would 
find that it is, but it is not part of a budget and it is not 
part of a program at this time.
    Senator Akaka. I have a question for all of you. Prior to 
that, Senator Carnahan has asked me to place a statement into 
the record, and so without objection, Senator Carnahan's 
statement will be placed in the record.
    [The prepared statement of Senator Carnahan follows:]
                 PREPARED STATEMENT OF SENATOR CARNAHAN
    Thank you, Mr. Chairman. This hearing is especially important 
today, as the United States examines claims by Osama bin Laden that he 
has acquired chemical, biological, and nuclear weapons. The 
implications are quite serious--whether or not this claim is true. the 
United States must continue improving its efforts to counter the spread 
of weapons of mass destruction.
    Yesterday, the Washington Post reported that a chief Pakistani 
nuclear scientist had been holding talks with bin Laden's followers. 
Equally as disturbing are recent reports that nuclear materials may 
have been stolen from Russia in the last two years.
    The intelligence community has said that it is unlikely that bin 
Laden's al Quaeda group obtained sufficient resources to construct a 
nuclear bomb. The prospect of international terrorists and rogue 
nations obtaining such weapons is daunting.
    For the last decade, America's enemies have expressed a willingness 
to pay Soviet scientists for expertise to build weapons of mass 
destruction. The United States and its allies have tried to stop this 
so-called ``brain drain,'' by providing financial incentives to former 
Soviet scientists to discourage them from cooperating with rogue 
elements.
    In addition, the Defense Department's Nunn-Lugar Cooperative Threat 
Reduction program has worked with other governments to reduce former 
Soviet stockpiles. The results have been quite promising. Since 1997, 
Ukraine, Kazakhstan and Belarus have been free of nuclear weapons. And 
Russia continues to work with the United States to comply with the 
Strategic Arms Reduction Treaty (START). As a result, we have managed 
to cut nuclear stockpiles practically in half, with Russia maintaining 
only 8,000 active warheads to date. But much more remains to be done.
    I am pleased that President Bush and Russian President Putin are 
conducting their arms control talks today. Both nations appear 
committed to work closely together to reduce their nuclear arsenals to 
START II requirements. This is an important step forward. As we 
progress on the diplomatic front, we must also improve our internal 
efforts to re-shape our government to reinforce counter-proliferation 
policies.
    It is imperative that the United States remain proactive in 
suppressing the world-wide spread of nuclear, chemical, and biological 
weapons. This requires that we upgrade our intelligence capabilities, 
continue monitoring other nations' compliance with arms control 
treaties, provide adequate compensation to former Soviet weapons 
scientists, and continue accounting for the thousands of weapons 
produced by the Soviet Union.
    As of now, our government attempts to accomplish these objectives 
through several Federal agencies, spread out among three Cabinet 
Departments. These organizations do great work. But I do not believe 
that they have reached their maximum potential.
    Senator Hagel's proposal attempts to better coordinate America's 
WMD policies. I am hopeful that this hearing will shed light on this 
proposal, and provide additional recommendations for improving our 
counter-proliferation efforts.
    I look forward to hearing our panelists' testimony today, and 
working with Senator Hagel on this important issue. Thank you Mr. 
Chairman.

    Senator Akaka. To all of you, yesterday, President Bush 
said, ``Our highest priority is to keep terrorists from 
acquiring weapons of mass destruction and we will strengthen 
our efforts to cut off every possible source of biological, 
chemical, and nuclear weapons material and expertise.'' From 
this statement, what changes do you see with respect to U.S. 
nonproliferation programs in Russia? Ms. Jones.
    Ms. Jones. I think that statement calls even more for the 
kind of committee we are talking about to coordinate the 
efforts. I think it also underlies the importance of the 
strategic plan so that we can look at whether or not we have 
the right mix of nonproliferation programs? Are we providing 
the funds to those pieces or those programs that could tackle 
the highest risk? So I think the statement really underscores 
the need for the strategic plan and this coordinating 
committee.
    Senator Akaka. Ms. Holgate.
    Ms. Holgate. Mr. Senator, my fear is that the current 
efforts to deal with the specific challenge that the President 
referenced in that statement focus almost exclusively on the 
demand side of the problem and totally inadequately on the 
supply side. The current counterterrorism activities are trying 
to identify, locate, and root out terrorists where they 
currently are located, but it has no component that addresses 
how you protect the material that those terrorists might be 
trying to get access to.
    As Dr. Spector mentioned, the $40 billion emergency 
appropriation to address counterterror activities in the wake 
of September 11 contained absolutely no money to increase or 
accelerate these programs of cooperation with Russia designed 
specifically to get at the supply of the materials and the 
weapons that so concern us all.
    Senator Akaka. Mr. Spector.
    Mr. Spector. Well, I think that is right. I think there is 
a disconnect between the President's statement and the actual 
activities of the administration. We saw it in the way they 
handled the budget this year, where these programs tended to be 
trimmed rather than boosted up. We are seeing it now in this 
sort of ongoing review that never seems to end, so that some of 
these programs are just mired in uncertainty. Thus, I think 
there is, as I said, there is a gap, indeed a gulf, between 
what the President's aspirations are and what his 
administration is actually doing at this time. I think that is 
very unfortunate.
    Senator Akaka. Ms. Jones, in your testimony, you note that 
the Congress has authorized in excess of $5.5 billion for U.S. 
nonproliferation programs to Russia and the other Newly 
Independent States. How much of this money has been spent in 
Russia and the Newly Independent States? Also, would you share 
some success stories regarding the nonproliferation programs?
    Ms. Jones. Senator, I am not sure that I would have the 
numbers for you. I can certainly try to provide them for the 
record in terms of how much has been spent in Russia. For two 
of the programs that we have looked at, the Nuclear Cities 
Initiative and the Initiatives for Proliferation Prevention, as 
Dr. Spector mentioned, a great portion of the funding was 
initially spent at the weapons complex here in the United 
States. That has been changing and it is evolving so that more 
money will be going to Russia. But for the whole $5 billion, I 
am not sure that I have that breakdown for you.
    Senator Akaka. Ms. Holgate, are there routine joint U.S.-
Russian strategic planning meetings, and if so, how successful 
are these meetings?
    Ms. Holgate. At the current time, I am aware of no such 
meetings. In the history of the U.S.-Russian cooperation in 
this area, I would say that the bi-national commission 
established by Vice President Gore and Prime Minister 
Chernomyrdin offered one of the few venues in which cabinet-
level colleagues in the United States and Russia would interact 
every 6 months, and the preparation for that interaction, the 
attention that was brought from the Vice President and his 
office to delivering on commitments made at the previous 6-
month meeting, really did create a mechanism for senior-level 
interactions, whether it is Defense, Energy, State Department, 
or other departments involved. That interaction provided--
probably not what it was quite planned to do--but in this 
nonproliferation cooperation field, it did provide a good 
mechanism to be sure that senior people knew what was going on 
and to give impetus to bureaucracies that might get mired down 
in working-level concerns.
    Senator Akaka. Mr. Spector, you recommend that Congress 
should require that the President report on the status of its 
efforts to accelerate the highly-enriched uranium purchase 
agreement. Do you feel that the current focus on proliferation 
risks of nuclear material from Russia will accelerate the 
administration's review of the agreement?
    Mr. Spector. I wish I could say yes. But, I must say that 
that has not been my impression. My impression is that this 
review is a slow but steady effort, and it seems to be dragging 
on. When I interviewed the National Security Council official I 
mentioned earlier, I asked him in many different ways what was 
being done in this sphere in light of September 11. And in many 
different ways, he deflected me, in effect to say, we are still 
reviewing these programs. This high-enriched uranium program is 
one of them. But nothing was said with a sense of urgency and 
no statement was made suggesting that the administration was 
moving the process aggressively because it was so concerned 
about these matters. It was much the opposite, a sort of 
treadmill. They are just going to go about their business as 
usual.
    Senator Akaka. Ms. Jones, the Department of Defense is 
responsible for assisting former Soviet States with destroying 
their nuclear and chemical weapons stockpiles. Were biological 
agents stockpiled? If so, are there plans to destroy these 
stockpiles, as well? Which agency should take the lead for U.S. 
assistance?
    Ms. Jones. I am sorry, Senator, I do not have the 
information to be able to respond to that question.
    Senator Akaka. Ms. Holgate.
    Ms. Holgate. I can shed a little bit of light on that 
question, sir. There was very minimal stockpiling of actual 
delivery-scale biological agents in Russia in the Soviet time 
frame. They mainly depended on having massive production 
capability to allow for surge production in the case of an 
order given from Moscow. Tons of anthrax could be created, just 
as an example, within months of a direct order if a need was 
identified. So there were very little actual stocks in place.
    Many of those stocks were destroyed in the wake of 
President Gorbachev's announcement that, in fact, the Soviet 
Union had violated the Biological Weapons Convention and they 
were coming clean in the late 1980's and the Soviets then 
destroyed many of those stocks. Some of the way that they 
destroyed them was to bury them on the island called 
Resurrection Island in the Aral Sea in the territory of what is 
now Uzbekistan, and there is a project underway through the 
Department of Defense under the Cooperative Threat Reduction 
Program to go back and make sure that those stocks were 
actually permanently destroyed. There was concern that they 
were not fully destroyed.
    And so that is one of the few examples where stocks have 
been addressed. Mostly, the DOD activities have been focusing 
on eliminating the massive production capabilities.
    Senator Akaka. Can you answer the question about which 
agency should take the lead for U.S. assistance?
    Ms. Holgate. I would say the Department of Defense is 
already engaged in this area, has good relationships, and has 
the ability to get the funding when they are ready for it.
    Senator Akaka. Thank you.
    Ms. Holgate, cooperative threat reduction efforts have 
tended to experience mission creep in which funds are used for 
other activities, such as infrastructure and support costs. How 
have these tendencies affected the efficiency of these programs 
and could a coordinating body make these programs more 
efficient?
    Ms. Holgate. Sir, I certainly think a coordinating body can 
make the programs more efficient, but I would suggest that the 
inclusion of U.S. Government funds to support some of the 
infrastructure and supporting activities has actually increased 
the efficiency of these programs. Rather than representing 
mission creep, they represent a recognition of the total 
mission.
    The reason that many of these activities have been 
undertaken in Russia has to do with resource limitations within 
Russia, and what these program managers were finding was that 
they might have funding to do a very narrow slice, in some ways 
the most exciting slice of the project, but it was not moving 
forward because they had inability to provide funding for the 
support activities that would actually make the achievement of 
the nonproliferation goals possible. And so they began to 
incorporate into budget requests the supporting requirements to 
achieve the goals, and that has made the achievement of those 
goals much more efficient in the time since that has been done.
    Senator Akaka. Ms. Jones, the brain drain prevention 
programs within the Departments of State, Energy, and Defense 
have enabled former USSR weapons scientists to remain in their 
states without having to sell their weapons-related knowledge. 
To what extent can these programs be combined with weapons and 
material storage and disposal activities? Could former Soviet 
chemical weapons scientists be employed in the construction of 
Russian chemical weapons destruction facilities?
    Ms. Jones. I think that is, again, where a committee that 
would be coordinating the various activities of these programs 
could look for those kinds of synergies. Are there skills and 
abilities that weapons scientists have, whether they 
specialized in biological weapons or nuclear weapons, that 
could be used for some other program?
    Just as a simple example, DOE also runs a program to 
improve the safety of Soviet-designed reactors. When we looked 
at that program, there was a need for fire doors, metal doors 
rather than wooden doors in these particular facilities. Let us 
look at the brain drain programs. Are there people already in 
Russia that could help design and build those doors, again, 
looking for leveraging with the different programs? So I think 
there is room for that, Senator.
    Senator Akaka. I have a final question to all of you. As I 
said earlier, we will reschedule the administration's testimony 
after the Bush-Putin summit. As experts in this field, are 
there questions you would ask of our administration witnesses 
when they appear before this Subcommittee in a couple of weeks? 
That is my question to you. If you want to reserve that, please 
give us the questions and that might help us have better 
insight into some questions to them.
    Again, I want to thank all of you for being here, for your 
responses, for your testimonies, and I want to thank you, Ms. 
Jones, Ms. Holgate, and Dr. Spector, for being with us today.
    I believe that the Russian government wishes to be a 
responsible steward of its weapons of mass destruction. I also 
believe that President Bush recognizes the importance of threat 
reduction programs. However, I share our witnesses' concerns 
that the administration, even with new evidence of terrorists' 
interests in acquiring and using weapons of mass destruction, 
has not acted to accelerate efforts to improve security over 
critical materials and expertise in the former Soviet States.
    Indeed, coordination, management, and attention is needed 
from senior levels in the administration. Unless this attention 
is concentrated exclusively on nonproliferation and threat 
reduction objectives, the relationships between U.S. and 
Russian counterparts will continue to weaken and opportunities 
for cooperation in new areas will continue to be lost.
    Ms. Holgate recommends the appointment of a Deputy National 
Security Advisor devoted to addressing these programs. This is 
an interesting concept and I look forward to the 
administration's comments on your proposal, Ms. Holgate.
    The record will remain open for questions from Members of 
the Subcommittee for 1 week and we ask that the witnesses 
respond to any questions in a timely manner. I remind you 
again, if you have any questions that we can ask to the 
administration, we would certainly want to receive them.
    Again, I thank all of you very much and the hearing is 
adjourned.
    [Whereupon, at 3:57 p.m., the Subcommittee was adjourned.]


                   COMBATING PROLIFERATION OF WEAPONS



                     OF MASS DESTRUCTION (WMD) WITH



                       NONPROLIFERATION PROGRAMS:



                      NONPROLIFERATION ASSISTANCE



                        COORDINATION ACT OF 2001

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2001

                                   U.S. Senate,    
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Cleland, Cochran, and Carnahan.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will come to order.
    I want to thank our witnesses from the administration for 
being here with us today. We are joined by Vann Van Diepen, 
Deputy Assistant Secretary of State for Nonproliferation; 
Marshall Billingslea, Deputy Assistant Secretary of Defense for 
Negotiations; Kenneth Baker, Principal Assistant Deputy 
Administrator for Defense Nuclear Nonproliferation from the 
Department of Energy; and Matthew Borman, Deputy Assistant 
Secretary for Export Administration.
    I would like to reiterate that our Subcommittee rules 
require all testimony to be submitted 48 hours before the 
hearing. The Departments represented today were invited to 
testify at this hearing more than 2 weeks ago. In spite of this 
and repeated reminders as of yesterday afternoon, we had 
received only one statement. This was as of yesterday.
    I would like to apologize to the Members of the 
Subcommittee for the administration's inability to comply with 
the Subcommittee rules.
    This morning's hearing is a continuation of one we held on 
Wednesday, November 14. The reason I called these hearings is 
because I have been deeply concerned about potential 
proliferation of chemical, biological, and nuclear weapons from 
the former Soviet Union. Since September 11, I think this is an 
issue that we have to focus on with even greater intensity.
    President Bush came into office declaring that he would 
ask, ``the Congress to increase substantially our assistance to 
dismantle as many of Russia's weapons as possible as quickly as 
possible.'' He began his administration announcing a review of 
Russian nonproliferation programs. This was a welcome first 
step.
    One of the reasons for this hearing is to determine how we 
can focus our aid efforts more effectively. Unfortunately, the 
administration cut the budgets for these programs before 
completing its review. This approach does not seem to me to 
make sense, particularly in light of the events of September 11 
and the subsequent anthrax attacks.
    I hope today the administration will be able to brief us on 
the results of its review and indicate to us what its 
intentions are concerning funding for the future of these vital 
programs. If it still proposes to advocate cutting these 
programs, the administration needs to justify why these cuts 
increase our security.
    We have lost valuable time in figuring how to recork the 
bottles containing dangerous chemical, biological, and nuclear 
weapons. I hope the administration shares my sense of urgency, 
and if it does not, I would like to know why not.
    After the first day of the Bush-Putin summit, President 
Bush remarked that, ``Our highest priority is to keep 
terrorists from acquiring weapons of mass destruction . . . we 
will strengthen our efforts to cut off every possible source of 
biological, chemical, and nuclear weapons material and 
expertise.''
    Today's witnesses will discuss how the administration 
proposes to carry out that pledge. I hope we may learn how the 
various programs in the different agencies involved in 
nonproliferation and threat reduction work together, how these 
agencies include private sector and nongovernmental efforts in 
nonproliferation activities. We must make certain that 
government and non-government spending on nonproliferation 
programs complement each other so that resources are used 
effectively and efficiently.
    Let me again thank our witnesses again for being with us 
today. I look forward to your testimony on these important and 
timely questions.
    At this time, I would like to call on my colleague for his 
statement.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman.
    It has been clear to me for some time that nonproliferation 
is an absolutely critical element to our national security. I 
believe that we must expand and enhance our current 
nonproliferation programs to eliminate as quickly as possible 
the threat posed by inadequately controlled weapons of mass 
destruction in the former Soviet Union.
    A bipartisan task force led by Howard Baker and Lloyd 
Cutler recently concluded that the funding for these programs 
should be increased to four times the current level. As I 
stated at our previous hearing on this topic, the 
Nonproliferation Assistance Coordination Act of 2001 is a 
useful step to take in conjunction with the increased funding 
recommended by the Baker-Cutler task force.
    In their recent book, ``Plague Wars''--and I have a copy of 
it here--it is a fascinating book. Investigative journalist Tom 
Mangold and Jeff Goldberg provide a frightening glimpse of the 
biological weapons research that was conducted by the Soviet 
Union. They portray a bureaucracy run amuck with layers of 
secrecy that prevented effective oversight by any responsible 
agency.
    Furthermore, they cite Defense Intelligence Agency and CIA 
reports that as late as 3 years ago, we could not preclude the 
potential of ongoing biological warfare research in Russia. 
Some reports even suggest the Russian program has produced 
genetically engineered anthrax and other pathogens resistant to 
existing antibiotics and vaccines.
    The proliferation problem is two-dimensional. We must 
ensure that any existing stocks of biological agents are 
properly secured and destroyed as soon as possible. We must 
prevent Russian scientists with expertise in such weapons from 
selling their skills to rogue states or terrorists.
    In the face of this clear and present danger, we have 
disturbing evidence that our own capacity to respond to 
bioterrorist attacks is inadequate. Besides the difficulties in 
coordination revealed by the recent anthrax attacks, Department 
of Defense exercises over the past several years have 
highlighted problems in our preparedness. Even with this 
overwhelming evidence that more must be done quickly, my 
efforts to speed funding to improve the facilities at the CDC 
have met with opposition.
    The CDC is the arm of our government responsible for 
controlling outbreaks of disease. The almost accidental 
involvement of the CDC in the first anthrax mailing in Florida 
is all that stood between this country and a far higher 
casualty count from these anthrax attacks.
    The current facilities at the CDC that house these critical 
links in our ability to detect and respond to a biological 
attack are painfully and woefully inadequate. In the middle of 
the anthrax crisis, a broken cable line interrupting the CDC's 
testing of samples for 12 hours was found. With a finite window 
of opportunity to test, diagnose, and treat victims of a 
possible biological attack, every minute of testing counts. To 
lose half-a-day is an eternity for scientists and technicians. 
Yet, it has happened, and it will happen again if Congress does 
not act to upgrade these facilities quickly.
    That is why I introduced the Public Health Emergencies 
Accountability Act earlier this month. This act puts in place a 
procedure that allows clear assignment of responsibility in 
cases where the public health is threatened. It further 
mandates the exchange of information between institutions 
primarily responsible for public health, such as the CDC, and 
those primarily responsible for countering criminal and 
terrorist activities.
    We must resource the CDC to carry out its critical 
function. The CDC currently has a 10-year construction plan to 
make these necessary upgrades, but since September 11, it has 
been painfully obvious that we do not have 10 years to get the 
CDC ready for what we now know is a very possible bioterrorist 
attack.
    We need a 5-year plan at the very least. That means 
Congress needs to approve the $250 million in funding this 
year. The Senate has approved the full $250 million, and I 
helped to get $100 million here, added on in the Senate, over 
the $150 million the President proposed, but I am getting very 
concerned that the Members of the House do not want to act on 
this legislation.
    The Members of the House who are participating in the 
Labor/HHS/Appropriations Conference Committee are not willing 
to fund the CDC above the $175 million for construction which 
passed the House this fall. I do not know what else has to 
happen in this country to demonstrate to the Members of the 
House that this construction is not only important, but 
mandatory, to upgrade the CDC as soon as possible. And I call 
on them today to match the Senate's mark of $250 million in 
construction aid to the CDC.
    My friend, the former U.S. Senator Sam Nunn of Georgia, 
continues his tireless advocacy for the nonproliferation 
initiatives begun under his sponsorship 10 years ago. He has 
recently provided testimony before the Senate Armed Services 
Committee upon which I sit with a series of recommendations for 
enhancing our counter-proliferation programs as well as 
improving our ability to respond to a bioterrorist attack.
    These recommendations include increase funding for 
nonproliferation programs, including a program to actively 
engage the scientists of the Russian and former Soviet Union 
programs in our own defensive research. Such a program could 
enhance our ability to produce and stockpile needed vaccines 
while preventing the loss of dangerous skills to other parties.
    I am convinced that our national security depends upon the 
effective coordination and resourcing of our nonproliferation 
programs. I support both the Nonproliferation Assistance 
Coordination Act of 2001 of which I am a co-sponsor and the 
creation of a Deputy National Security Advisor committed 
exclusively to reducing the threats we face from weapons of 
mass destruction.
    We can no longer afford to under-resource nonproliferation. 
Many distinguished of both parties have cited the need for 
increasing nonproliferation funding. Our intelligence community 
continues to highlight the threat of improperly controlled 
weapons falling into the wrong hands. The time to act is now. I 
encourage the administration and my colleagues in Congress to 
support the full resourcing of required nonproliferation 
programs and our public health infrastructure. There is no 
higher national security priority.
    Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much for your statement, 
Senator Cleland.
    Now I would like to ask for the statements of our 
witnesses. Mr. Van Diepen, you may give your statement at this 
time.
    All the witnesses will have their full written statements 
entered into the record.
    You may begin, Mr. Van Diepen.

TESTIMONY OF VANN H. VAN DIEPEN,\1\ DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF NONPROLIFERATION, U.S. DEPARTMENT OF STATE

    Mr. Van Diepen. Thank you, Mr. Chairman, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Van Diepen appears in the 
Appendix on page 268.
---------------------------------------------------------------------------
    I am very pleased to be here to discuss nonproliferation 
assistance programs and coordination. The proliferation of 
nuclear, chemical, and biological weapons and the missiles 
capable of delivering them is a central security threat facing 
the United States, our allies, and our friends. Where we once 
faced thousands of nuclear weapons under centralized command of 
a rival great power, September 11 and the biological attacks 
since have shown how much more diverse and less predictable the 
threat has become.
    While we must be prepared to address the many avenues from 
which rogue countries and terrorists and their supporters may 
choose when seeking to advance their attack capabilities, we 
must also, as both of you have noted in your statements, 
address the Soviet legacy and its proliferation implications.
    The State Department has direct responsibility for several 
nonproliferation programs directed at or relevant to the 
countries of the former Soviet Union. In addition, the 
Department provides foreign policy guidance and diplomatic 
support for the programs of other agencies.
    When the Soviet Union collapsed, the new countries lacked 
the laws, expertise, and technical resources to implement 
effective export controls. State's Export Control Assistance 
Program was created to help establish or strengthen export 
controls in the new independent states of the former Soviet 
Union and in Eastern Europe. As funding increased and the 
program matured, the scope has expanded to include key 
countries through which weapons of mass destruction, materials, 
and technologies are likely to transit while continuing to 
support the development of more robust systems in potential 
supplier states. This program has grown from less than $5 
million per year in the mid-1990's to the President's request 
for $39 million for this fiscal year.
    State Department chairs an interagency working group on 
export control assistance which directs and coordinates the 
work of the various U.S. agencies that implement these programs 
in over 25 countries worldwide.
    Another concern was the threat posed by the thousands of 
Soviet weapon scientists who no longer would be supported after 
the Soviet Union's demise, and this is something that Senator 
Cleland made clear in his statement.
    The International Science and Technology Centers began 
their work to address this problem in Moscow in 1994 and in 
Kiev in 1995. As the program has matured, the focus has shifted 
from simply stemming brain drain to also redirecting scientists 
towards sustainable careers in peaceful, transparent, civilian 
endeavors in their home countries, be these commercial 
endeavors or scientific endeavors.
    The program now includes nations of particular interest to 
the U.S. war in Afghanistan: Uzbekistan, Kazakhstan, the Kyrgyz 
Republic, Armenia, and Georgia. Other key regional states, 
Tajikistan, Azerbaijan, and Moldova, are in the process of 
joining one of the science centers.
    For the past 4 years, the State Department has been an 
active participant in the U.S. effort to redirect former Soviet 
biological weapons scientists. The program provides incentives 
for scientists to refrain from cooperating with terrorist 
groups or states harboring them and focuses their expertise on 
critical public health needs such as HIV/AIDS, multi-drug 
resistant tuberculosis, and a number of plant and animal 
diseases. The solid collaborative research basis that we have 
developed through this effort will be a springboard for 
expanded work that will respond to the Bush-Putin initiative to 
counter bioterrorism.
    The Nonproliferation and Disarmament Fund, created to 
permit a rapid response to unanticipated requirements or 
opportunities, is a flexible responsive nonproliferation tool. 
Of particular relevance to the request of this Subcommittee is 
the NDF's work on Tracker, a stand-alone software package that 
permits a country to use modern computer tools to track export 
licensing and enforcement matters from a license application 
through the process, among central government agencies, and 
with the export control personnel at ports and border posts. 
This system is now deployed in eight countries with further 
applications in process.
    State Department also plays a key role in efforts 
concerning plutonium disposition, eliminating Russian plutonium 
production reactors, support of the International Atomic Energy 
Agency, and safeguarding nuclear materials worldwide and 
coordinating efforts to prevent nuclear smuggling.
    Another priority is making sure that our friends and allies 
shoulder their fair share of the burden. It is important to 
build a community committed to paying more than lip service, 
and we are not shy about letting our allies know when we think 
they should be providing more resources.
    On your question concerning how these programs are funded 
and how they are coordinated, all U.S. policy implementation 
and oversight of nonproliferation assistance to the states of 
the former Soviet Union is coordinated at senior levels by the 
Proliferation Strategy Policy Coordinating Committee, or PCC, 
chaired by a National Security Council senior director with 
Assistant Secretary-level representatives from the Departments 
of State, Defense, Energy, and other concerned agencies.
    This committee works to ensure that individual assistance 
programs are coordinated within and across agencies and that 
they serve nonproliferation threat reduction priorities 
effectively. The PCC has also been charged to develop the 
strategic plan to guide near- and farther-term nonproliferation 
and threat reduction cooperation with Russia and Eurasia.
    In addition, there are standing working groups to ensure 
close day-to-day coordination among programs so that the 
programs complement, not compete, with each other in addressing 
U.S. nonproliferation objectives. The work of these groups feed 
directly into the PCC. This structure works well and 
substantially addresses what is proposed in the 
Nonproliferation Assistance Coordination Act of 2001.
    As noted in several of the statements from the witnesses in 
your November 14 hearing, despite the number and complexity of 
nonproliferation assistance programs, effective implementation 
and senior-level coordination already exists.
    As you know, President Bush directed that a rigorous review 
be conducted of all U.S. nonproliferation and threat reduction 
assistance to Russia and the countries of the former Soviet 
Union. That review is now in the final stages.
    Without prejudicing the White House's final decision, we 
expect that the State Department's nonproliferation assistance 
programs will continue to play a critical role in combating the 
proliferation of weapons of mass destruction.
    In the post-September 11 world, we believe that stemming 
the flow of WMD materials, technologies, and expertise 
worldwide has to be among our highest national priorities and 
our programs must address that challenge.
    The private sector and nongovernmental organizations play 
several important roles in this endeavor. In our efforts to 
redirect former weapons scientists to peaceful civilian 
scientific and commercial research, U.S. industry is helping 
scientists and their institutes make a permanent transition to 
peaceful pursuits.
    The Science and Technology Centers' industry partner 
program, for example, now attracts over $20 million annually in 
corporate funding.
    In export controls, U.S. companies have a great deal of 
expertise in implementing export control regulations. They know 
the ins and outs of licensing systems, and they have a great 
deal of knowledge to share with countries and foreign companies 
that are new to this world. U.S. companies play an important 
role in our effort to inform and educate their foreign 
counterparts.
    During the past year, a new opportunity for public-private 
nonproliferation partnership emerged with the establishment of 
Ted Turner's Nuclear Threat Initiative. Its management and 
board of directors, which includes several members of Congress, 
have consulted actively with the administration on their 
program and have made a commitment to coordinate their 
activities with those of the government.
    I think it is clear that the Bush Administration fully 
shares the objectives that led Senator Hagel and the other 
sponsors of S. 673 to offer this legislation. I believe a close 
examination of how we are coordinating policy and 
implementation of these programs today will provide clear 
evidence that we are already doing what Congress would have us 
do in this regard. S. 673 is not needed, as the Bush 
Administration has already acted and has already taken the kind 
of steps this legislation calls for.
    We look forward to working with you and other committees 
and to keeping you fully informed on how we conduct these 
programs of U.S. nonproliferation assistance to the states of 
the former Soviet Union, on how we work with other concerned 
governments to increase their contribution and ensure that our 
respective assistance is complementary and not duplicative, and 
on how we seek to work with private-sector donors of assistance 
in these areas.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Mr. Van Diepen, for 
your statement.
    Mr. Billingslea, you may give your statement now.

    TESTIMONY OF MARSHALL S. BILLINGSLEA,\1\ ACTING DEPUTY 
  ASSISTANT SECRETARY OF DEFENSE FOR NEGOTIATION POLICY, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Billingslea. Mr. Chairman, I am pleased to appear 
before your Subcommittee this morning to discuss 
nonproliferation assistance programs to the republics of the 
former Soviet Union and the need for careful interagency 
coordination of these projects.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Billingslea appears in the 
Appendix on page 279.
---------------------------------------------------------------------------
    A key objective of this hearing, as I understand it, is to 
obtain administration views on S. 673. So I will address this 
legislation first and then will turn to a brief discussion of 
the Department of Defense's Cooperative Threat Reduction 
Program and our views on proliferation issues in general. And 
with your permission, I will simply summarize and highlight my 
testimony and submit the remainder for the record.
    The Department of Defense has reviewed S. 673, legislation 
that would establish an interagency committee within the 
Executive Branch to review and coordinate U.S. proliferation 
prevention efforts. We agree that interagency coordination of 
nonproliferation programs is crucial, but the Department of 
Defense believes that the Bush Administration is already doing 
precisely that.
    We believe that a legally mandated interagency committee 
could complicate the existing interagency coordinating process 
that is currently managed by the National Security Council. We 
must be careful not to preclude delegation of authority below 
the Assistant Secretary level since this would be inconsistent 
with the way the Executive Branch is currently doing business. 
A great deal of coordination and policy work is done at 
successive levels beginning with action officers proceeding 
through office directors and on to Deputy Assistant Secretaries 
of Defense and up.
    The strategy that the Executive Branch is pursuing is 
straightforward. First and foremost, we seek to destroy weapons 
of mass destruction and their means of delivery, if possible, 
at their existing location. If it is not possible to destroy 
such weapons, as is sometimes the case with pathogen stocks 
that might be needed for disease research, then we will seek to 
consolidate and secure them. Further, we seek to prevent 
weapons of mass destruction materials and knowledge from 
leaving the territory of the former Soviet Union.
    The Department of Defense has worked closely with the NSC 
and other Departments such as the Departments of State, Energy, 
and Commerce to ensure effective execution of these programs. 
We also work closely with other agencies to ensure that there 
is no duplication of effort.
    Finally, we must take great care to ensure that U.S. 
assistance to the former Soviet republics cannot be diverted, 
cannot contribute to offensive weapons programs or 
proliferation, or subsidize or otherwise offset other military 
activities.
    A good example of this coordination that is ongoing is 
found in the Department of Defense's efforts to prevent the 
proliferation of biological weapons. The Department of Defense 
is part of an interagency group that reviews all biological 
weapons proliferation prevention projects that are proposed 
through the Department of State's International Science and 
Technology Center. Based on those reviews, approved projects 
are matched to various departments' areas of expertise and 
authority.
    For our part, the Department of Defense is most concerned 
with the threat that is posed by dangerous pathogens, 
particularly the infectious diseases such as smallpox. Over the 
years, we have found that Russian scientists frequently have 
unique valuable insights into the pathogenesis of various 
biological agents. The Department of Defense engages in 
targeted biodefense research projects with Russia in these 
areas, as agreed to in the interagency process. These projects 
are designed to cooperatively exploit knowledge to enhance U.S. 
detection of, protection from, and treatment of these 
potentially deadly substances. I will return to the matter of 
biological weapons in a moment, but I use it here to illustrate 
that we do have a good process in place and that that process 
is working well.
    Let me turn now to an overview of the Cooperative Threat 
Reduction program and the areas of activity in the former 
Soviet Union. We believe that the CTR program is an important 
part of our national security strategy. We are privileged to 
have enjoyed sustained congressional support and robust funding 
since the inception of this program.
    The President's fiscal year 2002 budget request included 
$403 million for the DOD CTR program, $403 million, which was 
virtually the same amount budgeted by the previous 
administration. We appreciate the House Appropriations 
Committee's full funding of our request and are hopeful that 
the Senate Appropriations Committee will be equally supportive.
    The funds that we have asked for will be used in a variety 
of program areas that I can summarize. In the nuclear weapons 
and delivery systems area, we maintain a Strategic Offensive 
Arms Elimination program that is reducing Russia's strategic 
offensive arms by destroying strategic WMD delivery systems. I 
can give you a breakout of the numbers of nuclear submarines, 
launchers for submarine launch ballistic missiles and SLBMs. It 
is in my testimony.
    We also have a Weapons Transportation Security program with 
Russia that assists in the movement and consolidation of 
nuclear weapons from Russia's Ministry of Defense operational 
sites to Russia's Ministry of Atomic Energy nuclear weapons 
dismantlement facilities, and we are providing assistance to 
the Russian MOD to bolster their ability to respond to and to 
mitigate the effects of a nuclear weapons accident or an 
attempted theft.
    For instance, in fiscal year 2001, we funded 53 train 
shipments designed to carry nuclear weapons to dismantlement 
sites. We funded the maintenance of 79 railcars and contracted 
for special emergency response vehicles and equipment to be 
given to the MOD.
    We continue to be concerned, Mr. Chairman, with the 
potential for theft or diversion from Russia of nuclear 
weapons. Therefore, we have developed the Nuclear Weapons 
Storage Security program to make physical security upgrades to 
key sites, to install inventory control systems and practices 
to account for these weapons in the custody of the Russian 
Ministry of Defense.
    During fiscal year 2001, we completed testing and we 
finalized selection on an approved suite of sensors and 
equipment to be installed at Russian weapon storage sites. We 
shipped six sets of Quick Fix fences and sensors to various 
sites in northern Russia. We funded and verified installation 
of such kinds of equipment at numerous other sites, contracted 
for additional guard equipment, training, and facilities, and 
delivered certified computers to help in inventory management. 
We think that the installation of physical security measures, 
preferably those that can be provided without extensive 
training of guard forces, is a good interim solution pending 
the eventual dismantlement of nuclear weapons stocks, and we 
may look to do more of this kind of work.
    Because time is short, I will turn briefly to Ukraine and a 
few other countries. I am pleased to report that our Strategic 
Nuclear Arms Elimination program in Ukraine has eliminated all 
of the START-accountable nuclear delivery system launchers, and 
we are dismantling other WMD delivery systems and 
infrastructure.
    Similarly, we have completely eliminated all weapons of 
mass destruction from Kazakhstan.
    On the biological weapons front, we believe that it is 
important to continue cooperation with the biological weapons 
designers and engineers in the former Soviet Union. This 
practice is enabling us to identify many research institutes 
that house dangerous pathogens and production-capable 
facilities.
    The Biological Weapons Proliferation Prevention program of 
the CTR program is consolidating and securing dangerous 
pathogen collections. We are dismantling former Soviet BW 
research and production facilities, and as I described earlier, 
we are targeting research to enhance U.S. biodefense 
capabilities against dangerous pathogens, some of the work we 
actually are doing with the CDC and other research institutes.
    In our view, the Biological Weapons Proliferation 
Prevention aspect of the CTR program is of exceptional and 
increasing importance. We also attach great importance to the 
comparable programs maintained by other agencies such as the 
Department of State's ISTC program and the Department of 
Energy's programs.
    We have two objectives for the BWPP, the consolidation and 
elimination of pathogenic stocks, to prevent them from falling 
into the wrong hands, and collaborative research and 
development with foreign scientists who can assist the United 
States in better protecting the American people and the global 
community from these diseases. In this vein, the Department of 
Defense believes that the Joint Statement on Bioterrorism 
reached between President Bush and Russian President Putin 
creates an important opportunity for closer collaboration.
    On the chemical weapons front, we also are concerned with 
the threat of chemical weapons proliferation, and we are 
troubled by inadequate security and safety measures currently 
being maintained on stocks of chemical agent and we have a 
program that is addressing this concern.
    In Uzbekistan, we are dismantling the former Soviet 
chemical weapons research, development, and testing facilities, 
and there are numerous other activities that I could get in, 
time permitting, but I have already greatly exceeded my time, 
Mr. Chairman.
    So let me just summarize by saying that we believe the CTR 
program has played a crucial role in the Department of 
Defense's efforts and the U.S. Government's larger efforts to 
prevent proliferation. Belarus, Kazakhstan, and Ukraine have 
all acceded to the Nuclear Nonproliferation Treaty, and have 
rid themselves of their nuclear capability. The DOD portion of 
the CTR program was essential and instrumental in this respect.
    The Congress, the Executive Branch, and the American people 
can and should be proud of the Cooperative Threat Program's 
accomplishments to date, and I appreciate the opportunity to 
testify before this committee.
    Senator Akaka. Thank you very much, Mr. Billingslea, for 
your statement.
    Mr. Baker, you may give your statement at this time.

 TESTIMONY OF KENNETH E. BAKER,\1\ PRINCIPAL ASSISTANT DEPUTY 
 ADMINISTRATOR FOR DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL 
                NUCLEAR SECURITY ADMINISTRATION

    Mr. Baker. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to be here today to talk about 
the Department of Energy's nuclear nonproliferation programs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baker appears in the Appendix on 
page 290.
---------------------------------------------------------------------------
    With your permission, I will make a few opening comments 
and submit a longer one for the record.
    Senator Akaka. We would appreciate that.
    Mr. Baker. I want to thank the Subcommittee and, indeed, 
all the Members of the Senate for their strong interest and 
support of the U.S. nonproliferation programs. Congress' 
demonstrated commitment to these programs has sent a strong 
signal that it knows the mission is critical and enduring and 
has helped the National Nuclear Security Administration to plan 
effectively and to work even harder after September 11.
    In the aftermath of September 11, the attacks against the 
United States, the work of the National Nuclear Security 
Administration within the Department of Energy has taken on 
higher visibility and greater importance. Almost a year ago, in 
January 2001, the bipartisan report by Baker-Cutler mentioned 
by Senator Cleland concluded the most urgent unmet national 
security threat to the United States today. This is the danger 
of weapons of mass destruction and weapons-usable materials 
falling in the hands of terrorists or hostile states and used 
against American citizens at home.
    All of us have seen the reports that Osama bin Laden has 
attempted to acquire weapons of mass destruction, and that he 
has called the attainment of such weapons a religious duty. In 
a nutshell, that face of the threat is confronting us today. 
Let me assure you, all of the people in the National Nuclear 
Security Administration are committed to supporting with all 
available resources, this country's work, and accelerate our 
efforts to eliminate this threat from the face of the earth.
    If I may make a few general comments on the draft 
legislation and more later that you are considering. The NNSA 
wants to ensure to you that the interagency coordination is as 
good as it can be in programs, and they are effective against 
the nonproliferation agenda. We have already been successful in 
many of these areas, and I will discuss a few of these in my 
following testimony.
    Even before September 11, reducing the potential for 
diversion of Russian nuclear warheads and materials has been a 
critical priority for the United States. It is essential that 
such warheads and materials be kept out of the hands of the so-
called rogue states as well as terrorist organizations.
    The National Nuclear Security Administration is working 
with Russia to attack this problem on many fronts. For example, 
to improve security at sites that have weapons-usable 
materials, improve Russia's export control systems, and train 
Russian experts to take greater responsibility to ensuring 
security and protecting weapons of mass destruction materials.
    The United States has already completed rapid security 
upgrades for thousands of Russian Navy warheads, and security 
of over 220 metric tons of Russian fissile material has been 
secured, enough to make roughly 20,000 nuclear devices.
    Last year, Russia and the United States agreed to dispose 
of 68 metric tons of surplus weapons-grade plutonium, 34 metric 
tons in each country. The administration is currently examining 
alternatives to reduce the cost of this program and to make it 
more sustainable to Russia. A final decision is expected in 
about 2 months.
    And under the HEU purchase agreement, the United States has 
removed more than 130 metric tons of HEU from Russia's military 
programs. The United States is working with Russia to improve 
its ability to detect and interdict nuclear materials at border 
checkpoints and at airports. Some borders are thousands of 
miles long and pose difficult challenges, but we are tackling 
that problem.
    The NNSA is working intensively to reduce the risk of 
Russia's highly trained nuclear scientists and engineers 
already mentioned, also, the ones that are unemployed or under-
employed and would be tempted to sell their expertise to the 
highest bidder. The United States is taking steps to help 
Russia transform its closed nuclear cities by developing 
civilian employment opportunities for displaced workers. These 
objectives are pursued principally through what we call the 
National Nuclear Security Administration's Russia Transition 
Assistance Efforts, which encompass the initiatives for 
proliferation prevention in a program called Nuclear Cities 
Initiatives.
    To give you a couple examples of what the initiatives for 
proliferation prevention system has done, we work very closely 
with State Department to make sure that we secure jobs for 
Russians in basic technology work. Currently, programs in 
particular on the IPP have been effectively demonstrated. We 
have private and public partnerships in pursuing the 
nonproliferation objectives. IPP has developed partnerships 
with former weapons scientists and technicians in over 160 
institutions in the former Soviet Union.
    While IPP had only $24.5 million to invest in projects 
during the past year, it also has required commercial partners 
at least to match IPP's investment projects. These matching 
funds requirement assisted IPP and Russian partners in 
identification of technologies that offer the greatest 
commercial promise by requiring U.S. industry to make financial 
commitments to development of technology at the project's 
initiation.
    The NNSA believes that the formula that we have developed 
for converting former weapons scientists to commercial 
enterprises have been successful.
    A few examples. Several energy-related technologies have 
been commercialized, including what we call a borehole radar 
intended to enhance coal and oil recovery. This technology 
could result in revenues exceeding $2 billion in the next 10 
years.
    We are seeing the successful commercialization of a 
wheelchair seat cushion that will prevent pressure ulcers, 
responsible for causing tens of thousands of deaths in the 
United States every year, saving Medicare $3 billion in annual 
costs.
    The Nuclear Cities Initiative's first major commercial 
effort facilitates the production of kidney dialysis equipment 
by a joint venture established between Fresenius Medical Care 
Center of Lexington, Massachusetts, and the Avangard nuclear 
weapons assembly plant in Sarov, Russia. This has been a very 
successful program that will put a thousand people to work.
    A year ago, virtually no westerners has ever been allowed 
to set foot into the Avangard facility. Now they are part of 
the joint venture that will use resources, buildings, and 
personnel that previously produced nuclear weapons to 
manufacture life-saving medical devices. This is truly swords 
in the plowshares.
    Looking ahead, as we look ahead, the National Nuclear 
Security Administration considers new priorities. We are 
accelerating, an important word. The Secretary just said 
yesterday in Russia, we will accelerate these programs. There 
are on going efforts. The National Security Administration is 
taking advantage of a recently signed DOE Ministry of Atomic 
Energy access agreement and focusing on sites in Russia that 
hold large quantities of fissile materials. Working with the 
Russian Navy, we are securing approximately 4,000 nuclear 
weapons and have completed the Second Line of Defense program, 
and this now is being expanded into 12 sites. Today, the NNSA 
will work even harder to get the 12 up to even higher numbers.
    Research and development is critical to the National 
Security Administration's mission. NNSA works with numerous 
other government agencies to develop technologies that will 
help detect nuclear, chemical, and biological proliferation and 
terrorism, and, hence, the United States' ability to address 
nuclear smuggling and assist local responders to respond to 
terrorist threat.
    I would like to close by talking about the formal draft 
legislation. Although the administration has not taken formal 
position on draft legislation you are considering, NNSA 
respectively believes that it is not necessary. Too many layers 
of management can hurt, not help, effect the implementation of 
these programs.
    The NSC's Proliferation Strategy Policy Committee chaired 
by Dr. Robert Joseph, Assistant to the President, provides a 
vehicle for interagency coordination, as it cooperates and 
provides over sight over nonproliferation assistance programs 
to Russia and the other states of the former Soviet Union. 
Chaired by the NSC, the Committee consists of Assistant 
Secretaries of Defense, from State, from DOE, from 
intelligence, and from the Office of the Vice President and 
other agencies as appropriate for the issue.
    This group meets frequently to coordinate critical 
nonproliferation areas. Just yesterday, we had two meetings 
discussing nonproliferation issues.
    As you know, the NSC is completing a comprehensive review 
of all U.S. nonproliferation programs. I applaud this review, 
which I see as a viable road map to guide the program to follow 
on for the next few years, but the best way to improve 
communications and coordination is to make sure the people in 
place are committed to doing the best job possible to 
communicate and coordinate.
    The NNSA is committed to this, and I know my colleagues 
around this table and the other agencies share in this 
commitment.
    Mr. Chairman, thank you for letting me appear today to 
address this panel. I look forward to any questions that you 
may have.
    Senator Akaka. Thank you very much, Mr. Baker, for your 
statement.
    My friend and colleague, Ranking Member, Senator Cochran is 
here, and I would like to ask him for his statement.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Thank you very much, Mr. Chairman. I want 
to compliment you for convening this hearing on our efforts to 
deal with proliferation and the threat reduction programs that 
are designed to help make it less likely that there will be 
proliferation of mass destruction weapons systems from the 
former Soviet Union.
    The President has directed that these programs be reviewed, 
and I am pleased that the administration has moved forward with 
the review and has taken steps to ensure that we are getting 
good value for the funds we are spending. It is deceptive and 
misleading for some to suggest that funding has been reduced. 
It is more important to look at these efforts on a program-by-
program basis. Reviewed in this way, it is clear that the 
administration is increasing funds for programs that are 
contributing to our national security and to the security of 
others as well.
    For example, the program to eliminate strategic offensive 
arms in Ukraine has been increased by 77 percent in order to 
accelerate the elimination of SS-24 ICBMs, and unlike previous 
years, no funds were requested to eliminate silos because they 
have already been eliminated.
    So I am hopeful, Mr. Chairman, that the hearing will offer 
insight and suggestions that will be helpful to us in 
determining how we can put the emphasis where it ought to be 
put, so that we are getting good value for the dollars we are 
spending and that what we are spending is productive in the 
overall effort to reduce the threat and improve security for 
everyone.
    Senator Akaka. Thank you for your statement, Senator.
    I would like now to call on Mr. Borman for your statement, 
and following that, we will have questions for you.

TESTIMONY OF MATTHEW S. BORMAN,\1\ DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF EXPORT ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Borman. Good morning, Mr. Chairman, and thank you as 
well on behalf of the Department of Commerce for the 
opportunity to testify at this hearing on this important 
subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Borman appears in the Appendix on 
page 296.
---------------------------------------------------------------------------
    Over the years, I have been involved in a supporting role 
in several hearings that Senator Cochran had chaired on export 
control-related matters. So it is a pleasure to be here now at 
the table, as it were, to testify.
    As with my colleagues, I have a longer statement which I 
would appreciate being put in the record, and I will summarize 
it orally.
    For several years, the Department of Commerce has played a 
significant role in the U.S. Government's international 
nonproliferation programs in the former Soviet Union. My 
testimony will give a brief overview of Commerce's role and 
then address the questions you had in your invitation letter.
    Since the end of the Soviet Union, Commerce has 
participated in the U.S. Government's nonproliferation programs 
in the former Soviet Union. Commerce has worked closely with 
the Departments of State, Defense, Energy, and the Customs 
Service of the Department of Treasury to carry out the export 
control cooperation programs designed to enhance and, in some 
cases, establish export control systems in these various 
countries.
    Commerce strongly believes that bilateral and multilateral 
export control cooperation is an important part of the U.S. 
Government's effort to stem the proliferation of weapons of 
mass destruction and conventional arms. Experience has shown 
that export controls are most effective when producing, 
consuming, and transit countries all cooperate and maintain 
similar export controls.
    The overarching objective of the U.S. export control 
cooperation program, whether in the former Soviet Union or 
other countries, is to: (1), assist countries in controlling 
the export, reexport, and transit of all items on the various 
multilateral export control regime lists; that is, the 
Wassenaar Arrangement, Nuclear Suppliers Group, Australia 
Group, and Missile Technology Control Regime; (2), also have 
these countries implement some kind of catch-all controls to 
catch lower-level items that could be used for weapons of mass 
destruction, but are not on the regime list; and then, (3), 
also to control the activities of persons subject to these 
countries' jurisdiction if these activities could facilitate 
weapons of mass destruction program, brokering, financing, and 
technical support.
    Commerce's export control cooperation, which is done 
primarily through funding from the State Department, consists 
primarily of bilateral technical workshops on specific export 
control issues, some multilateral conferences to encourage 
regional cooperation on export controls, and seminars that are 
targeted specifically at defense enterprises in the former 
Soviet Union countries, particularly Russia and Ukraine.
    Over the past several years, Commerce has conducted, in 
conjunction with the agencies represented here and others, over 
200 workshops and seminars with both government officials and 
industry officials in the former Soviet Union States.
    There have been several notable accomplishments as a result 
of this program. They include comprehensive export control laws 
enacted in over half of the former Soviet Union countries with 
most of the remaining countries likely to enact such laws 
within the next year, significant progress on a regional 
transit agreement between the countries in Central Asia and the 
caucuses to reduce the likelihood that items will be diverted 
when transiting through these countries, Kazakhstan 
promulgating a national control list that really mirrors the 
multilateral control list that the United States and the 
European Union have. Kazakhstan is the first former Soviet 
Union country to do so.
    We have also received some leads on possible violations of 
U.S. export control laws from the context we have developed, 
our law enforcement officials have developed in the course of 
doing these cooperation programs.
    Over 900 defense enterprises and other exporters in Russia 
and Ukraine have received detailed training and software to 
enable them to establish their own internal company control 
programs, so that they can control properly the sophisticated 
dual-use items and technology that they have.
    Finally, we have also distributed software to train foreign 
export control licensing officers in 9 of the 12 former Soviet 
Union countries.
    In addition, the enforcement arm of the Bureau of Export 
Administration, Department of Commerce, has an export control 
attache in Moscow now, and this attache essentially has two 
functions. One is to really work with Russian export control 
enforcement officials to get them to enhance their enforcement 
of Russia's export control law and also to help ensure that 
U.S. items that are exported into Russia are not diverted to 
improper uses.
    Let me now briefly address the questions that you had posed 
in your invitation letter, Mr. Chairman; first, how does the 
Department of Commerce participate in the nonproliferation 
activities with Federal partners using multilateral export 
control regimes. The Department of Commerce, as you know, 
Bureau of Export Administration, is responsible for 
implementing the dual-use controls of the various multilateral 
export control regimes, and, of course, we do that in concert 
with the Departments of State, Energy, and Defense. We both 
make proposals to State Department to advance the regimes in 
terms of changing controls and also provide input to the 
Department of State when other countries make proposals to 
change regime controls or policy. In connection with that, 
whenever the regimes, for example, the missile technology 
control regime, have outreach efforts to non-members like 
transit states, the Commerce Department also participated in 
that with the other departments mentioned here.
    Your second question, how well do Federal nonproliferation 
programs interact with U.S. commercial interests, from our 
point of view, in export control cooperation, there is quite 
good interaction. As Mr. Van Diepen has already mentioned, 
whenever we have bilateral exchanges, we always have the 
foreign delegations meet with representatives of U.S. exporting 
companies, and we think this is crucial for them to understand 
why U.S. companies spend time and money to comply with our 
export controls and also how important it is for any government 
to talk to its industry about controlling and consulting on 
export controls.
    In fact, just to give you a concrete example, a few weeks 
ago, we had a delegation from Ukraine here. The delegation 
consisted of some government officials, as well as some members 
of the Ukrainian parliament, and in addition to meeting with 
Commerce, Energy, State, Defense, and the Customs Service, they 
also had a meeting with a U.S. exporting company and they came 
up here and actually had meetings with some members as well.
    We also work with the various agencies represented here and 
any contractors they use on these various nonproliferation 
assistance programs that you have already heard mentioned to 
make sure that any delivery of goods or technologies from the 
United States to Russia or other countries complies with U.S. 
export control laws. So that is another way we interact with 
U.S. commercial interests in doing our programs.
    That really concludes my summary. Once again, I thank you 
for the opportunity to testify on this important subject, and I 
am happy to answer whatever questions you or other Members 
have.
    Senator Akaka. Thank you very much, Mr. Borman, for your 
statement.
    I would like to call on my colleague, Senator Carnahan, for 
your statement.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Thank you. Thank you, Mr. Chairman. I 
want to thank you for holding this very important hearing 
today.
    The testimony that we will hear today is especially 
important as the evidence mounts up that Osama bin Laden and 
the Al-Qaeda network were actively taking steps to acquire 
weapons of mass destruction.
    Although these revelations are disturbing, the threat of 
proliferation has been a concern for some time. Over 11 months 
ago, Howard Baker and Lloyd Cutler presented a report on 
nonproliferation programs to the President, and those findings 
were startling. They found that 10 years after the collapse of 
the Soviet Union, nuclear weapons remained scattered throughout 
Russia in more than 100 poorly guarded depots. These weapons 
are not appropriately accounted for or secured. These 
conditions make it possible for rogue nations or terrorists to 
steal or to buy nuclear materials and to smuggle them out of 
Russia.
    In fact, 3 weeks ago, the Washington Post reported that 
nuclear scientists had been holding talks with bin Laden's 
followers. In this same article, it was reported that nuclear 
material may have been stolen from Russia over the last 2 
years.
    The Baker-Cutler report suggests that the only way to stop 
this situation is to expand the United States' nonproliferation 
programs. This will require sizeable investments, including a 
$30 million 10-year budget for these programs overseen by the 
Departments of Energy, Defense, and State. I believe that this 
would be an important first step.
    Today, I hope that we can use this hearing to evaluate the 
findings of this report in light of the Nation's new war on 
terrorism. It is imperative that the United States remain 
proactive in suppressing the worldwide spread of nuclear, 
chemical, and biological weapons. To accomplish this goal, I 
feel we need to upgrade our intelligence capability, more 
closely monitor other nations for compliance with arms control 
treaties, provide better compensation to former Soviet weapons 
scientists, and provide accounting for the thousands of weapons 
produced by the Soviet Union.
    Currently, our government attempts to accomplish these 
objectives through several Federal agencies spread out among 
four Cabinet Departments. These organizations do find work, but 
there is room for improvement.
    Coordinating the nonproliferation activities of these 
agencies, as suggested by Senator Hagel's legislation, is an 
idea worthy of examination. Funding these nonproliferation 
programs needs to be one of our highest national security 
priorities, and I look forward to hearing from the panelists 
today about that.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for your statement, 
Senator Carnahan.
    Now we would like to ask you questions. My first question 
is for all of the witnesses here today. We have talked about 
the National Security Council and about what they have been 
doing. Has the extended National Security Council review of our 
nonproliferation programs affected the activities of any of our 
current programs? In other words, has it delayed implementation 
of any programs or the fulfillment of their objectives?
    Let me start with Mr. Van Diepen.
    Mr. Van Diepen. Thank you, Mr. Chairman.
    As I indicated in my statement that review is in its final 
stages, but, certainly, as a general matter, we have not been 
holding back from doing necessary work while the review has 
been ongoing. The review is basically going to be an effort to 
try and prioritize and give us guidance on, as Senator Cochran 
said, trying to get the best bang for the buck on these 
programs, but we certainly have not been holding back from 
doing necessary work while the review has been proceeding.
    Senator Akaka. Mr. Billingslea.
    Mr. Billingslea. Mr. Chairman, the review is ongoing, but 
it has not affected the important work that needs to be done 
through the CTR program.
    Senator Akaka. Mr. Baker.
    Mr. Baker. Mr. Chairman, as I said, I applaud the review. I 
think it is badly needed.
    Our programs are continuing, the ones of securing nuclear 
materials. We are working night and day. As a matter of fact, 
just today I got 12 different teams throughout Russia securing 
the stuff, just today.
    What has changed a little bit is our plutonium disposition 
because we are looking at a plutonium disposition program and 
coming up with alternatives on plutonium disposition in 
accordance with the treaty, and we will have options. The 
Secretary of Energy has got the pin on this, and we will get 
back to the White House in 2 months. A decision will be made 
before the next budget cycle on what option we should pursue 
with plutonium dispositions.
    The Russians are on board on this. We met the Russians the 
week before last, and we have come up with options to make this 
program successful and to make it cheaper if that is possible.
    Senator Akaka. Mr. Borman.
    Mr. Borman. The export control cooperation programs that 
the Department of Commerce is involved in have not been 
affected in any way by the ongoing review. We have continued 
with our efforts.
    Senator Akaka. Let me ask Mr. Billingslea in relation to 
what we just talked about. Has DOD's chemical demilitarization 
program been affected?
    Mr. Billingslea. The chemical weapons destruction facility 
program is part of the ongoing review. Decisions on that 
particular program have not been reached yet, and I would not 
want to prejudge the outcome of that review.
    But as I did mention in my testimony, one of the other 
important areas relating to chemical weapons is the large 
numbers of stockpiles of chemical agent throughout Russia, 
which we believe are not subjected to the best possible 
physical security measures. So we have been aggressively 
pursuing the installation of physical security around those 
stocks to prevent their diversion.
    I am also told that the design of the facility is ongoing, 
the chemical weapons destruction facility, although any final 
determination on that facility is still going to be made at the 
Cabinet level.
    Senator Akaka. Thank you.
    Mr. Van Diepen, in your testimony, you observe that several 
statements from our November 14 hearing note that effective 
implementation and senior-level coordination already exists. 
While our witnesses say that nonproliferation programs have 
been effective, they unanimously agreed that senior-level 
coordination is lacking.
    In fact, Laura Holgate of the Nuclear Threat Initiative 
recommended the creation of a Deputy National Security Advisor 
to ensure high-level attention and agency cooperation.
    Who is in charge of overseeing all of our nonproliferation 
programs right now?
    Mr. Van Diepen. At one level, Mr. Chairman, the President 
is, of course, but at the more operational level, as we have 
indicated in all of our statements, the Policy Coordinating 
Committee on Proliferation Strategy is the sort of operational 
place at the assistant secretary level where this kind of 
coordination is done.
    Senator Akaka. Mr. Baker, basic physical security upgrades 
such as securing doors, installing alarms, and hardening guard 
posts are not scheduled to be completed on all nuclear 
facilities until, I think, 2007. The question immediately is: 
Why is it taking so long?
    In light of the events of September 11, how can we wait 
until 2007, knowing that terrorists are actively trying to 
obtain nuclear material?
    Along that same line, are sites with the completed security 
systems subject to periodic vulnerability testing?
    Mr. Baker. Mr. Chairman, I have been on both sides of the 
house. I used to write the black book for the President during 
the cold war and knew every target we had from Russia. When the 
Cold War was over, I saw personally firsthand that these 
nuclear materials were all over Russia, they did not know how 
many they had. Their accounting system was not there, and we 
are working night and day to get this secured. It is something 
that you can't get done overnight.
    During the Cold War, of course, they had guns, gates, and 
guards, and all of that went away after the Cold War. I will 
tell you, I walked into Kurchatov 1 day with a guard half 
asleep and walked in myself and the deputy secretary and opened 
up a locker like a bicycle locker and I found 75 KGs of highly 
enriched uranium laying in a locker. So this is what we faced 
back in 1993.
    We have secured all of the Russian Navy facilities that we 
know about that had warheads. We did triage immediately. We 
have done quick upgrades. Yes, there has got to be 
comprehensive upgrades, but to make sure these things are 
secure, we have done that.
    The other facilities, at the Ministry of Atomic Energy, we 
are working on it as fast as we can. Like I say, I have got 12 
teams in there now. One thing that slowed us down was an access 
agreement with the Russians; that now we are seeing things that 
we have never seen before; that they are letting us into 
facilities that no American citizen has ever been in. So now we 
have got an access agreement. Now we are into the biggest 
facilities in Russia where there is tons and tons of the stuff, 
securing this, and we are going to work as fast as we can to 
get this done.
    Senator Akaka. I will ask for any questions from my Ranking 
Member.
    Senator Cochran. Mr. Chairman, thank you.
    In my opening statement, I mentioned that the 
administration had increased its funding request for work in 
Ukraine in connection with eliminating strategic arms. I wonder 
if there are other examples that you can tell us about.
    I know, for example, that there has been an increase in the 
program that is designed to provide employment opportunities 
for former Soviet weapons scientists. Now, that is a program I 
think the State Department is involved in.
    Mr. Van Diepen, can you tell us about that program and 
whether or not that is correct, that there has been a new 
emphasis on trying to increase the opportunities for Russian 
weapons scientists or former Soviet weapons scientists?
    Mr. Van Diepen. Certainly, Senator. That is one of the key 
programs that we have at the State Department. Through the 
International Science and Technology Center in Moscow and the 
Science and Technology Center in Ukraine, our programs have 
engaged with 40,000 former Soviet WMD and missile scientists to 
try and give them peaceful civilian employment in-country and 
thereby reduce the incentives that they may have to sell their 
wares to countries like North Korea or Iran. This has been a 
very effective program.
    We have also been partnering with industry in trying to 
leverage some of their resources to increase the impact that we 
have on the problem, but, of course, there are many weapons 
scientists in the former Soviet Union, and we continue to try 
and do our best to prioritize and work where things could be 
more effective, for example, increasing our outreach in the 
biological area, which is of obvious relevance in the post-
September 11 environment.
    Mr. Baker. Senator Cochran, we have one, also.
    Senator Cochran. This is the Department of Energy?
    Mr. Baker. Department of Energy, yes, sir.
    We have what we call an Initiative for Proliferation 
Prevention which is putting Russia's scientists to work with 
commercial companies. We have over 160 commercial companies 
right now involved. The commercial companies have put more than 
$50 million into these programs right now.
    As I was mentioning before you arrived, sir, things like 
wheelchair, it was voted this year as the medical science 
breakthrough of the year, which has a cushion that moves that 
prevents people in nursing homes from getting pressure sores. 
Many people have died. It will save Medicare, they say, $3 
billion a year. It came out of this IPP program, Russian 
scientists and our scientists working together. That is one 
example.
    Then we worked very closely with the State Department on 
their ISTC program. Again, it is an example of coordination 
between the agencies.
    Senator Cochran. Are there any other examples, Mr. 
Billingslea?
    Mr. Billingslea. Yes, sir. I think it is important to 
stress that the CTR program's funding is done on an ebb and 
flow of business. We budget according to what can realistically 
be achieved in the coming fiscal year.
    Senator Cochran. What does the CTR mean? What is that 
acronym?
    Mr. Billingslea. I am sorry, sir. It is the Nunn-Lugar 
program, the Cooperative Threat Reduction program.
    The fiscal year 2002 budget actually had about $100 million 
in new or expanded projects that included things like $15 
million was for dismantlement of a chemical weapons production 
facility in Russia. There was an additional $10 million put in 
to expand our defense and military contacts programs through 
the CTR program. We put $5 million additionally into biological 
weapons proliferation prevention and so on and so forth.
    Now, there were also funds that we did not need as we began 
winding up various projects or it became apparent that the 
Russians were not going to provide access to do certain things. 
So we have engaged in several new starts and other old starts 
are beginning to wind up, and it is just an ongoing review 
process.
    Senator Cochran. Let me ask you something about the 
coordination of all of these activities. Mr. Van Diepen talked 
about the fact that there is a committee at the assistant 
secretary level that has the responsibility for coordinating 
what all the departments and agencies are doing in this 
connection and trying to make sure that there is no overlap. I 
guess that is to ensure that we are not doing something twice, 
and that there is nothing falling through the cracks.
    What would your assessment be of the effectiveness of this 
committee? I understand the National Security Council has a 
chairman who serves as a coordinating chairman or an 
organizational chairman. How is that working?
    Mr. Van Diepen. Yes, Senator. It is chaired by a senior 
director at the National Security Council and has all of the 
relevant agencies involved. Obviously, any group can do its 
work better, but what strikes me is how similar the functions 
of the current PCC are to the functions that are envisaged in 
the proposed legislation. Basically, this group is already 
doing the kinds of things that the legislation calls for.
    I think it is doing its work reasonably well. Again, it can 
always do its work better, and one of the things we hope to 
come out of the administration's review of these programs are 
ways that we can do this job better and make sure that we are 
getting the best value for the dollar and that we are 
complementing each other as effectively as possible.
    Senator Cochran. In connection with the cooperation of 
Russia in particular, with the new spirit of cooperation and 
the commitment to work together on a number of different issue 
areas and problems confronting both of our countries, it seems 
to me that the climate has improved. The relationship has 
changed. Is this proving to be the case in fact in the day-to-
day operation of these programs we are talking about? What 
would your assessment be?
    Mr. Baker.
    Mr. Baker. My assessment would be, yes, sir, they are 
improving. In my opinion, they are better than they ever have 
been since I came to the Department of Energy in 1993. I think 
doors are opening that have not been opened. They are letting 
us into facilities to help them. I think the relationship that 
the two presidents have now is a great relationship.
    I know just right now my boss, Secretary Abraham, is over 
there meeting with the head of MinAtom. Minister Rumyantsev, I 
just talked to him yesterday. He said that it is going great. 
He has never seen better relationships. They want to accelerate 
these programs. They want to work together. They want to work 
hand in glove, and the Secretary was really happy.
    As a matter of fact, he is on his way to Vienna today to 
tell the chairman of the International Atomic Energy Agency, 
Mohamed ElBaradei, how well it went in Russia. So I think after 
September 11, things have really come together, and I think it 
is going to even get better, and we are going to make this 
thing work.
    Like Baker-Cutler says, we have got to work faster, and we 
are going to work faster and we are going to get this job done.
    Senator Cochran. Mr. Chairman, I noticed that the second 
bells have rung on a vote over on the Senate floor. We might 
talk ourselves out of a vote here if we are not careful.
    Senator Akaka. That is correct. We have a vote on now.
    I would like to ask Senator Carnahan if there are a couple 
of questions you want to ask.
    Senator Carnahan. Thank you, Mr. Chairman. I will confine 
myself to just one question since the vote is underway.
    Mr. Baker, as I discussed in my opening statement, the 
Baker-Cutler report describes some very dire conditions in 
Russia, with the tons of nuclear weapon material, much of it 
unaccounted for and scattered throughout Russia in 100 
different poorly guarded depots.
    Some of the critics of the Energy Department programs have 
indicated that DOE puts too much emphasis on quick fixes, just 
putting bars on windows or securing doors or checking 
inventories. Certainly, these are important initiatives, but I 
think it is also important that we consider some long-term 
solutions as well, such as installing fences or advanced 
security systems, barcoding equipment, and training workers.
    Would you describe the Energy Department's long-term plans 
to enhance security at the Russian nuclear depots?
    Mr. Baker. Yes, ma'am. We are doing exactly what you just 
said. We are now. We did put up fences and gates and everything 
you could think of, but we are barcoding. We have got a 
complete inventory of what they have. We are barcoding all of 
their stuff. We are working a sustainability program because, 
some day when all of this is fixed, we have got to get out. We 
cannot stay forever. So we are showing them how to sustain this 
equipment and how to make sure it is secure in the future. So 
we are working the long-term things right now, ma'am.
    I was with Senator Baker and Mr. Cutler when we went to 
Russia, and as a matter of fact, Senator Baker and I found out 
we are related to each other from Tennessee and Kentucky, long 
cousins, but he is a man that saw that we are for doing long-
term things and we are doing the barcoding. We are doing the 
things that you just mentioned. That is going on right now. So 
we are taking long-term issues to make sure these places are as 
secure as you can make it.
    Senator Carnahan. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for your questions.
    The Subcommittee will take a recess now. There is a vote 
on, and we will return to the questions. We stand in recess.
    [Recess.]
    Senator Akaka. The hearing will be in order.
    Again, I want to thank the witnesses for your statements 
and your responses to the questions. My question now is to Mr. 
Borman.
    Commerce is responsible for deemed export control issues, 
as you mention in your statement. Does Russia have similar 
concerns? Have we discussed this with them in light of our 
concerns, of our concerns about foreign students and scientists 
who work in American universities and laboratories?
    Mr. Borman. Yes, we have. I guess I can answer that or 
address that in a couple of aspects, Mr. Chairman. When foreign 
nationals come into the United States, whether they are from 
Russia or another country and whether they are here for work or 
other purposes, there is a certain set of regulations that 
apply to them. And to simplify it, it is if they will have 
access to technology that would require a license to be 
exported to their home country, they need a license to get it 
in the United States. That is why we call it the deemed export. 
It most typically comes up with foreign nationals being 
employed at U.S. companies.
    Certainly, when we talk to Russia or any other country 
about their own export control program, we also emphasize that 
this is an element that we think they need to incorporate into 
their own systems, so that if foreign students, for example, 
from one country into Russia to study or to work, that the same 
types of restrictions apply to them and their access to 
Russian-origin technology. This is a harder concept for other 
countries to get their arms around because it is kind of a 
complicated concept, but I think that they are becoming more 
and more sensitive to that and are really designing their 
export control systems to account for that as well as the more 
traditional export, the machine tool leaving the country.
    Senator Akaka. You mentioned in your statement that there 
is an attache----
    Mr. Borman. Yes.
    Senator Akaka [continuing]. Now in Russia, and that attache 
is to carry out the programs and also to--and if I may use the 
word--enforce some of our policies there. How long has the 
attache been there in Russia?
    Mr. Borman. He started there at the beginning of this year.
    Senator Akaka. Oh.
    Mr. Borman. This is the first time we have had funding for 
such a position.
    Senator Akaka. Mr. Billingslea, some have suggested that 
U.S. taxpayer funds are going to Russian scientists who 
continue to work on poison gas, biological agents, and nuclear 
weapons designs for the Russian Government. Is this true, and 
if so, what is being done to prevent it?
    Mr. Billingslea. Mr. Chairman, we continue to have concerns 
regarding Russia's compliance with the chemical and the 
biological weapons conventions to which they are a party. We 
could discuss that a little more fully in closed session. 
However, as I indicated in my opening statement, the Department 
of Defense is very concerned to know and to make sure that 
funds are not diverted, that funds do not contribute to 
offensive weapons programs, whether on the chemical or 
biological side or even to offensive nuclear modernization or 
missile modernization.
    In order to guard against this, we have a very rigorous 
audit and examination process that the Department of Defense 
follows.
    Further, no project, no research project that the 
Department of Defense undertakes, is approved or undertaken 
until it is subjected to a rigorous interagency review.
    Speaking only for the Department of Defense's projects, I 
do not believe on the basis of my review of the CTR program 
that we are contributing in any way to Russian WMD programs, 
but it is something that we must be very wary of. As we look to 
improve our collaboration on biological defense activities with 
the Russian Government, we must be very wary and must factor 
this into consideration.
    Senator Akaka. Mr. Baker, the International Atomic Energy 
Agency has recently listed radiological dispersion weapons, or 
dirty bombs as they call it, as their top priority. What is the 
United States doing to address this proliferation threat?
    Mr. Baker. Right now, sir, it is a concern. What it would 
do if a dirty bomb was built, it may kill a few people very 
close to it, but the big problem would be the radiation that 
would be spread over an area like Chernobyl or that Chernobyl 
had a problem, that long-term illnesses could occur.
    What are we doing about it? Well, right now, we are looking 
at how we can expand our materials protection control and 
accounting program to do things that we have not done before, 
like secure spent fuel.
    There are areas that we have looked before the September 11 
situation. We were securing weapons materials, things that were 
enriched above 20 percent. Now you have to worry some about 
below 20 percent. So we are concerned about this.
    We are looking into what we can do. There is so much person 
power one has and so many things you can do and negotiations 
you have to make, but it is a concern and we are looking very 
hard into that for the last 2 months.
    Senator Akaka. Mr. Billingslea, witnesses in a previous 
hearing stated that there is no dedicated program to assist 
Russia in warhead dismantlement, and that plans for this are 
not part of the budget at this time. Why is this the case, and 
are there plans for including this type of assistance at a 
later date?
    Mr. Billingslea. Well, Mr. Chairman, I believe it is 
important to clarify that the Department of Defense is not 
involved in the actual dismantlement of any Russian nuclear 
weapons.
    We are constructing a fissile material storage facility 
that will provide centralized, safe, and ecologically sound 
storage for up to 50 metric tons of weapons-grade plutonium and 
200 metric tons of highly enriched uranium removed from nuclear 
weapons. This is the Mayak facility. The Russians have, I 
believe, a dismantlement site in proximity to that facility.
    The physical construction of the storage facility and all 
of the support structures is 80 percent complete, although 
equipping the facility is only 60 percent complete at this 
stage.
    We have been under a cost cap for that facility, Mr. 
Chairman, but the total cost is going to be about $40 million 
less than that cap, I am pleased to report. About $370 million 
it will cost to establish this facility.
    We anticipate that the storage site will be completed next 
year and that we will be able to begin loading it with fissile 
material from the warhead dismantlement process, although I 
think that we need to be clear that Russia has indicated that 
it does not want or need U.S. Government assistance in 
preparing the plutonium and the HEU from dismantled warheads 
that is to be stored at this site.
    Senator Akaka. I recall in your statement, I think, that it 
is the intent of our country to dismantle at these sites as 
much as we can.
    Mr. Billingslea. We, together with the Department of Energy 
and the other U.S. Government agencies, are very concerned with 
the large numbers, large stockpiles of fissile material 
throughout Russia, including stocks of warheads and would 
obviously believe that dismantlement of warheads by the Russian 
Government is a positive development.
    It is important to maintain physical security on not only 
the warheads, but the fissile materials stocks themselves which 
is why the agreement that DOE has recently signed that Mr. 
Baker referenced is so important. It begins to open the doors 
for the U.S. Government to move in and provide the kinds of 
physical protection that need to be provided.
    With the Department of Defense programs, we continue to 
have difficulty in obtaining access to key sites, and the 
Russian Government is going to need to give us access to these 
sites to perform surveys and assessments and then to install 
equipment, and most importantly to verify after the 
installation that it was done correctly and that we are, in 
effect, getting what we are paying for, which is a key test.
    Senator Akaka. Mr. Baker, at the end of September 2001, a 
new agreement to provide U.S. officials with expanded access to 
Russian nuclear sites and facilities was announced. What sites 
are not covered by this agreement? How much nuclear material is 
housed at the facilities covered by the agreement, and how long 
will this agreement stay in force?
    Mr. Baker. The agreement, sir, is with the Ministry of 
Atomic Energy. It does not cover the work we are doing with the 
Russian Navy. We have another agreement with the Russian Navy 
already, and we have had no problems securing weapons with the 
Russian Navy at all. We have had complete access.
    This access agreement will cover all MinAtom facilities, 
about 90 facilities.
    It is about 600 metric tons that this access agreement will 
cover. So, with that agreement, we can almost get into--well, 
we can. With the Russian Navy, we have got complete access 
right now so far, and with the Ministry of Atomic Energy, we 
will have the other access now, which we have, to get into the 
big sites like Tomsk. Chelyabinsk-70, it used to be called. 
This is where a lot of material is that we never could get in 
before. Now we are in.
    Senator Akaka. Mr. Borman, what are the other problems with 
Russian export controls? What is the Department of Commerce 
doing to help Russia correct these problems and strengthen 
their export controls?
    Mr. Borman. Well, Russia's export control system is 
evolving. Obviously, under the Communist system, they had 
probably a very tight export control system. With the breakup 
of the Soviet Union, obviously a lot of resources are lost, and 
our principal focus right now with Russia's export control 
system is on their defense enterprises.
    As I mentioned earlier, we have a very, I think, aggressive 
program to go to individual defense enterprises with Russian 
Government officials. The Russian Government officials explain 
Russia's export control system to these enterprises, and then 
we bring U.S. company officials along to explain their own 
internal company control programs and try to help the Russian 
enterprises understand that it is in their business interest to 
comply with Russia's export control system. We even have a 
software tool that helps these companies set up their own 
internal control program so they know what of their goods and 
technologies are subject to export controls and which are not, 
and that is an ongoing effort. We have done it in dozens of 
defense enterprises, but these defense enterprise which, of 
course, used to be very tightly controlled by the government 
are now players in the free market and they don't have that 
much exposure to even their own government's export control 
system, let alone how the market operates. So that is one area 
of our focus.
    Another area of our focus, now that Russia has a 
comprehensive export control law, is to work with them more on 
enforcement techniques that are particular to export controls. 
I think one view of export controls is you have to have tight 
border security, and certainly that is true, but obviously a 
lot of enforcement is done upstream. Enforcement officials have 
to know what are the enterprises that are producing items of 
concern, go out and talk to them and monitor them and make sure 
that they are complying with the law. And that is another area 
of our focus that we are going to be stepping up.
    Senator Akaka. Mr. Billingslea, how should DOD's 
Cooperative Threat Reduction programs be expanded to 
accommodate the reduction in strategic nuclear weapons 
agreement reached between President Bush and Russian President 
Putin, 2 weeks ago? Do you expect increased funding, or will 
other assistance activities need to be scaled back?
    Mr. Billingslea. The potential, which has now been realized 
in the agreement, for the deep reductions has already been 
factored into our budget request. There may be substantial new 
opportunities in the CTR program, but that may be more in the 
chemical and biological side of the house where, again, as I 
mentioned, the bioterrorism agreement that was reached, if this 
leads to a greater opening in access and collaborative 
research, then that would be an area of active consideration, 
but on the nuclear side and the delivery platform side, this is 
already factored within the budget.
    Further, I do point out that since we have already 
essentially begun to wind up the destruction of platforms in 
places like Kazakhstan and Ukraine, there will be a natural and 
inevitable tapering down of some parts of that program and a 
ramping up in other parts. It is just depending on the 
opportunities we are given.
    Senator Akaka. Mr. Baker, nuclear accounting requires that 
facilities undertake a physical inventory of their nuclear 
material. To what extent have individual former Soviet sites 
completed their physical inventory. Has a national inventory 
system been established to account for nuclear material 
movements from site to site?
    Mr. Baker. When we first started doing this program back in 
1993, it was not a good accounting systems where these 
materials were located. We found this.
    We have been on the ground over there, and we have got a 
good accounting system. We have, sir, a system that we are 
teaching the Russians how to count, and some of it, like 
barcode, this equipment. We are monitoring when it goes from 
site to site with help of other agencies. So we do have a 
fairly decent--we think what you do not know, you do not know, 
but we think we have a very accurate count of what they have in 
Russia in terms of nuclear material. We have that ourselves, 
and they, of course, also have it now.
    Senator Akaka. Mr. Billingslea, what has DOD done to 
destroy any biological weapons stockpiles or dismantle the 
surge production capabilities developed within former Soviet 
biological weapon facilities?
    Mr. Billingslea. In fiscal year 2001, Mr. Chairman, we 
continued--there were six ongoing projects--to make security 
enhancements at various sites, six of those. We initiated 
efforts at six additional sites in fiscal year 2001.
    We also continued six ongoing collaborative projects and 
initiated seven new collaborative projects, and we have been 
working on dismantlement and continued that in this past year 
of the former biological weapons production facility at 
Stepnogorsk, Kazakhstan.
    We also began developing dismantlement efforts at four 
Russian institutes, and we have recently completed an 
assessment of the former biological weapons test facility at 
Vozrozhdeniye Island in Uzbekistan and are looking at ways to 
engage in future dismantlement and pathogen elimination efforts 
on that island. So these are the ongoing programs that we have.
    Senator Akaka. Mr. Van Diepen, we have been talking about 
how relationships have improved between us and Russia. The 
Department of State coordinates the Defense, Energy, Health and 
Human Services, and Agriculture to engage Russian and other 
biologists in peaceful civilian collaboration with western 
experts and businesses. How has this coordination changed since 
September 11?
    Mr. Van Diepen. Mr. Chairman, I think what we are trying to 
do is intensify the effort. It is not so much changing the 
coordination, but increasing the throughput that is being 
coordinated to try and be more effective, reach out to more 
institutes, get our hands around more capability that could 
potentially find its way into the hands of terrorists.
    The bioredirect program, we think the coordination has been 
very effective on, and we are trying to use that coordination 
to leverage increased output and effectiveness from that 
program.
    Senator Akaka. Are there plans for joint U.S.-Russian 
planning meetings for nonproliferation? What are the formal 
mechanisms to coordinate with your Russian counterparts in 
that?
    Mr. Van Diepen. There are a variety of interactions that we 
have with the Russian Government on all different levels in the 
nonproliferation arena. At the Under Secretary or their Vice 
Foreign Minister level, it was agreed some time ago to have 
regular discussions on nonproliferation issues. Likewise, at 
the Assistant Secretary level, my boss, John Wolf, will be 
beginning a regular series of consultations with his Russian 
counterpart. Basically, this goes on down through the pyramid, 
and, of course, integral to all of these cooperative programs 
with Russia are ongoing interactions with the Russian 
Government.
    Senator Akaka. Mr. Baker, since the start of the Nunn-Lugar 
nonproliferation programs, Congress has authorized $5.5 billion 
for assistance to former Soviet States. How much of this money 
has been spent in Russia and the newly independent states?
    Mr. Baker. Sir, with all due respect, I think that can be 
better answered by the Department of Defense, being as they 
control the Nunn-Lugar money.
    Senator Akaka. Mr. Billingslea, would you have any comment 
on that?
    Mr. Billingslea. Yes, sir. We are doing the calculations 
for you right now. May I submit that for the record, so that we 
get it down to the precise dollar amount? \1\
---------------------------------------------------------------------------
    \1\ The information submitted for the record by Mr. Billingslea 
entitled ``Nuclear Non-Proliferation Treaty and the International 
Atomic Energy Agency,'' appears in the Appendix on page 355.
---------------------------------------------------------------------------
    Senator Akaka. All right.
    Mr. Baker and Mr. Van Diepen, the GAO has testified that 
the Departments of State and Energy programs to employ weapons 
scientists have not been able to demonstrate that they achieved 
these objectives. What are you doing to correct this problem?
    Mr. Van Diepen. Well, I will start, Mr. Chairman. I am not 
sure exactly what the assessment of GAO was, but a lot of 
nonproliferation is trying to keep dogs from barking, so to 
speak, and it is often difficult to demonstrate that a dog did 
not bark and it did not bark because of your program. But we 
are quite confident that the extensive engagement that we have 
had through these programs, engaging again with 40,000 former 
weapons scientists in the former Soviet Union, has had a 
substantial impact on trying to reduce the so-called brain-
drain problem.
    By definition, if a scientist did not go to North Korea 
because he is employed in our programs, it is difficult for us 
to know that he was going to go otherwise, except for our 
program. So it is not clear to me how these sort of classic 
accounting techniques could be used to measure the 
effectiveness of these programs. All we can say is based on the 
phenomena that we see in the intelligence, we are quite 
satisfied that these programs have had a substantial impact on 
addressing this problem.
    Mr. Baker. That question, sir, always comes up, how many 
people have you saved from going to a rogue state. As just 
stated, it is hard to, but I will tell you from a personal 
experience from talking to Russian scientists and asked them 
across the table, have they ever been recruited. I had one down 
in the Department of Energy just about a month ago, and he now 
works in Emergency Management. I asked him the question, ``You 
used to build Russian weapons. Why did you take an Emergency 
Management job?'' He said, ``To feed my family.'' I said, 
``Have you ever had a chance to get more money?'' He said, 
``Absolutely,'' and he said, ``My buddies have done the same 
thing.'' So, when the GAO makes that comment, I can tell you 
from personal experience in talking to them, many of them have 
been recruited by rogue states.
    Now, have they gone? We do not have a number. It is very 
hard to track if we have lost any, but I can tell you right 
now, it is happening. It is happening that people are being 
recruited.
    Senator Akaka. Mr. Billingslea, environmental and local 
public advocacy groups have gained influence in the former 
Soviet Union. What problems is this creating for American aid 
efforts, and how can we resolve those problems?
    Mr. Billingslea. Senator, I am not aware of any specific 
problems, at least in my short time within the Department of 
Defense, that have been brought to my attention as resulting 
from an environmental group's advocacy for one people or 
another.
    I am sure that Russia will encounter the same kinds of 
environmental considerations when they finally commence their 
chemical warfare destruction activities, as they are required 
to do under the Chemical Weapons Convention, but to date I am 
not sure that the CTR program that I would say we have been 
adversely affected by environmental groups. Let me give you a 
more fulsome assessment of that for the record.
    It would appear there may have been some time, additional 
time that was needed for us in establishing a facility to deal 
with solid propellant. So there may have been some 
environmental considerations there. Let me get you a 
description of that.
    Senator Akaka. All right. Thank you.
    I have some questions here for Senator Levin, and let me 
ask these questions for him. In your testimony, Mr. 
Billingslea, you state, ``We remain concerned that Russia 
continues to produce weapons-grade plutonium.'' You also state, 
``The best approach to achieving shutdown of these reactors, 
which we all agree is an important objective, is still under 
review by the administration.''
    At the time the DOD budget request was submitted to DOD, it 
was going to build a fossil-fuel coal plant at one site and 
upgrade an existing coal-fired plant at the other site. This 
would allow the reactors to shut down.
    The reactors produce plutonium, but also power for the 
local communities. Building these fossil-fuel plants is the 
cheapest and fastest way to shut down these reactors. Is DOD 
walking away from this plan? What is DOD considering instead? 
Will the alternatives cost less and be quicker to complete?
    My understanding of the situation is that the NSC prefers 
to pursue the fossil-fuel option, and here is a question. What 
is the process for resolving this difference of opinion, and 
when will it be resolved?
    Mr. Billingslea. Senator, the----
    Senator Akaka. Let me finish. There is just one more.
    Mr. Billingslea. Yes, sir.
    Senator Akaka. When can we expect a decision on how to shut 
down these reactors?
    Mr. Billingslea. Yes, sir. Mr. Chairman, my hope is that 
the administration will arrive at a final decision on the best 
approach for getting the plutonium production reactors, the 
three of them, shut down in the near term. I cannot put a 
precise date on it, but it is under active consideration by the 
administration in discussion at the Cabinet level.
    I would suggest, as I did in my testimony, that we very 
much do want to see the reactors shut down. That is an 
objective. However, as my testimony also states, the material 
in the fuel assemblies that are being irradiated by these 
reactors is of a less direct proliferation risk than the 
processed weapons-usable material that lies at countless sites 
that the Baker-Cutler Task Force talked about, unsafeguarded or 
very poor safeguards throughout Russia. So, certainly, getting 
physical security safeguards on that material is of a high 
priority.
    The Department of Defense has been looking at various ways 
to achieve shutdown of these reactors. Fossil-fuel plants was 
but one option. Other options have been considered, some put 
aside, some being further explored, perhaps reactors that could 
burn plutonium.
    The House of Representatives and, in fact, the Congress has 
been very cool in the past towards the Department of Defense 
engaging in this effort, and, in fact, funds had been 
prohibited from being used in the past for establishment of 
fossil-fuel plants. I think the question is whether or not the 
Department of Defense is the right agency to be involved in 
building powerplants in Russia, but we look to have an 
administration decision shortly on that.
    Senator Akaka. I have another question from Senator Levin. 
Mr. Billingslea, in your testimony, you address the question of 
improving security of chemical weapons. What about destroying 
those weapons? The DOD requested funds to build a chemical 
weapons demilitarization facility. The Senate bill authorizing 
the Cooperative Threat Reduction program supports this effort. 
The House bill does not. Is DOD walking away from the U.S. 
commitment to destroy these weapons? It seems to me that the 
ultimate way to ensure they are secure is to destroy them.
    So I guess the question to you, Mr. Billingslea, is DOE 
walking away from the U.S. commitment to destroy these weapons?
    Mr. Billingslea. Mr. Chairman, as Senator Levin's question 
points out, the Congress is divided on the issue, which 
suggests that there are good arguments to be made on both 
sides. The administration is examining the merits of the case, 
and my hope is that we will have a decision on that shortly.
    Senator Akaka. Another question from Senator Levin to Mr. 
Van Diepen, the Department of State appears to be the 
appropriate agency to coordinate policy for these programs in 
the absence of any formal coordinator. Has the State Department 
sought additional funds for these programs from the $40 billion 
in additional emergency funds?
    We understand that, notwithstanding the recent evidence 
that bin Laden is seeking nuclear materials, no additional 
funds will be made available to secure these materials in 
Russia. My understanding is that the administration has taken 
the position that increased efforts to secure material is not a 
priority. The question is: Is this true?
    The final question is: Is securing these weapons-grade 
materials not a priority and will additional funds be 
forthcoming?
    Mr. Van Diepen. Thank you, Mr. Chairman. In terms of 
securing weapons-usable materials, I think it is clear from the 
testimonies that you have heard that that is and remains a key 
priority. I am not sure it is my place to talk about the 
programs that are not State Department programs. We don't do 
securing weapons-usable materials.
    On the question of resources from the supplemental, one 
example is we were able to get, I believe it is, $42 million to 
improve export controls and border security in Central Asia 
that came out of the supplemental. So we definitely have been 
weighing in and trying to use that to help improve our 
nonproliferation efforts.
    Senator Akaka. Mr. Billingslea, would you want to make any 
comment on those questions?
    Mr. Billingslea. Thank you, Mr. Chairman. On the nuclear 
side, we are pressing the Russian Ministry of Defense very 
aggressively to finalize procedures for access. We have for our 
part done all of our work that we need to do, testing various 
components, and looking at the different integration measures 
that are needed to put a comprehensive security upgrade in 
place at facilities once we gain access.
    As I mention, we have also been engaging in the more 
interim kinds of physical security measures, things like truck 
barriers and very simple kinds of physical security that can be 
provided on a quick basis that don't need a lot of training 
involved.
    This is a costly program. We are going to have to have 
access to ensure that the upgrades that we are paying for are 
actually installed and installed correctly.
    On the biological side, we still have not been able to get 
the Russian Government to designate an executive agent that the 
Department of Defense can work with directly, and as a result, 
we are working through the ISTC program that the Department of 
State manages to address those kinds of issues.
    Senator Akaka. Well, I want to say thank you to all of you 
for your statements and your responses. This will certainly 
help the Subcommittee.
    The events of September 11 have made the prospect of WMD 
terrorism a reality. It has certainly changed our lives here in 
our country.
    I am pleased that the administration today has stated that 
it shares my sense of urgency for nonproliferation activities. 
I hope its words will be matched by action with appropriate 
funds.
    On another issue, every witness today said that the 
statutory coordination mechanism for U.S. nonproliferation is 
unnecessary. Mr. Van Diepen suggests that it could even be 
counterproductive or intrusive. This view contradicts those of 
every one of our witnesses from our hearing on November 14.
    Each of the proliferation experts welcomed the prospect of 
additional senior-level coordination and even suggested how the 
provisions proposed by S. 673 should be expanded. In fact, they 
all stated that improved coordination was vital to an effective 
national nonproliferation strategy. I am just giving you some 
idea of what happened in the last hearing.
    There is agreement that we need a national strategy. I hope 
the administration's review will be completed soon so that this 
Subcommittee can be briefed on its conclusions.
    Senator Biden has asked to submit a statement for the 
record.
    [The prepared statement of Senator Biden follows:]

PREPARED STATEMENT OF SENATOR JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM 
                         THE STATE OF DELAWARE
    Mr. Chairman: I am pleased to submit written testimony to the 
Governmental Affairs Subcommittee on International Security, 
Proliferation, and Federal Services in support of S. 673, the 
Nonproliferation Assistance Coordination Act of 2001, of which I am an 
original co-sponsor. There are many important questions to consider on 
U.S. nonproliferation programs in the former Soviet Union, including 
the need to do far more than we do today.
    S. 673 would perform a narrower, but vital, function: To establish 
a high-level interagency committee within the Executive Branch to 
achieve better coordination of U.S. nonproliferation efforts in the 
former Soviet Union. In addition, this new committee could help 
coordinate official U.S. Government activities with those undertaken by 
private sector organizations, such as the Nuclear Threat Initiative, 
and by foreign governments.
    Senators Hagel, Lugar, and I decided to introduce this bill in 
April, shortly after the Foreign Relations Committee held a hearing on 
the results of the Baker-Cutler Task Force, a high-level advisory panel 
which reviewed the Department of Energy's nonproliferation programs in 
Russia. Former Senator Howard Baker and the former White House Counsel, 
Lloyd Cutler, the co-chairs of the Task Force, reiterated to the 
Committee the report's principal conclusion:

          The most urgent unmet national security threat to the United 
        States today is the danger that weapons of mass destruction or 
        weapons-usable material in Russia could be stolen and sold to 
        terrorists or hostile nation-states and used against American 
        troops abroad or citizens at home.

    The events of September 11 and the risks that U.S. forces face in 
Operation Enduring Freedom only reinforce this conclusion. Every day, 
we learn more details about Osama bin Laden's chilling quest for 
weapons of mass destruction, including efforts to enlist the Russian 
mafia in purchasing and/or stealing sensitive nuclear materials in the 
former Soviet Union.
    Over the past ten years, beginning with the Nunn-Lugar initiative, 
the United States has spent more than $5 billion to help the states in 
the former Soviet Union reduce the threat posed by poorly secured, 
excess stockpiles of weapons of mass destruction, related raw materials 
and the human expertise behind it all. While these efforts have 
contributed vital individuals to the security of the United States and 
every other nation in the world, the bottom line is that we have not 
done enough.
    One glaring concern is the lack of sufficient coordination inside 
the U.S. Government in planning and implementing various 
nonproliferation activities. Dozens of program offices in various 
Federal agencies and departments, ranging from the State Department to 
the Department of Agriculture, implement nonproliferation assistance 
with little or no overarching strategic guidance. According to the 
final report released by the Baker-Cutler Task Force:

          In particular, the urgent risk of proliferation of weapons of 
        mass destruction demands the attention of the highest level of 
        the U.S. Government. . . . Coordination within and among U.S. 
        Government agencies is insufficient and must be improved. 
        [Emphasis added.]

    Let me give you a sense of the costs of the lack of sufficient 
coordination within the U.S. Government on this issue. I'm not just 
talking about program duplication and overlapping efforts, although 
those are legitimate concerns which can be addressed by better 
coordination. More critically, the absence of an overarching strategic 
vision on U.S. nonproliferation efforts can result in missed 
opportunities to neutralize emerging threats. It can prompt a timid 
bureaucracy to ignore opportunities for enhanced cooperation with 
foreign governments. We cannot be satisfied with our efforts to date so 
long as some nuclear materials and chemical weapons storage sites and 
former biological weapons production plans in the former Soviet Union 
still have no more protection than padlocks or barbed wire fences.
    To ensure that the Executive Branch creates, implements, and 
manages nonproliferation activities in the former Soviet Union in a 
coordinated fashion, S. 673 will establish an interagency committee 
consisting of high-level representatives from the Departments of State, 
Defense, Energy, and Commerce and chaired by a National Security 
Council official. This committee shall prepare appropriate analyses and 
provide the needed guidance to ensure appropriate monitoring of U.S. 
nonproliferation activities in the former Soviet Union. I understand 
the administration has implemented an interagency process on these 
lines, but judging by the slow pace of its review of existing programs, 
a committee that is empowered to make decisions would be a most 
beneficial addition to the policy-making process. This bill would 
provide such a committee and not leave the policy process so dependent 
on individual personalities or temporary circumstances.
    I encourage the Governmental Affairs Committee to move quickly, 
therefore, on S. 673 and report this bill out for floor consideration. 
Two weeks ago, the Foreign Relations Committee incorporated a slightly 
revised text of S. 673 in marking up and passing the Security 
Assistance Act.
    Regardless of the specific legislative vehicle, it is my fervent 
hope that the Nonproliferation Assistance Coordination Act will become 
law in the near future. We cannot talk seriously about homeland defense 
or a war to deny terrorists access to weapons of mass destruction if we 
do not put in order our own efforts to work with the states of the 
former Soviet Union to secure, safeguard, and reduce its stockpiles of 
nuclear, biological, and chemical weapons and materials.

    Senator Akaka. And any Senator wishing to give a statement 
or offer questions for the witnesses may do so. The record will 
remain open for 1 week to do that.
    Again, I want to say thanks so much for your responses and 
your statements.
    The hearing is adjourned.
    [Whereupon, at 11:46 a.m., the Subcommittee was adjourned.]


                     MULTILATERAL NONPROLIFERATION



                  REGIMES, WEAPONS OF MASS DESTRUCTION



                 TECHNOLOGIES, AND THE WAR ON TERRORISM

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2002

                                     U.S. Senate,  
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Thompson, Stevens, and Cochran.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
I want to thank our witnesses, Ms. Elisa Harris of the Center 
for International and Security Studies at Maryland and Dr. Amy 
Smithson of the Stimson Center for being with us this morning. 
I want to also welcome Dr. Jim Walsh of the Belfer Center for 
Science and International Affairs and Dennis Gormley of the 
International Institute for Strategic Studies.
    Today's hearing about multilateral non-proliferation 
regimes is the fourth of a series of hearings this Subcommittee 
has held on the issue of weapons of mass destruction 
proliferation. Last November the Subcommittee held a hearing on 
current and future weapons of mass destruction and 
proliferation threats and a second on combating proliferation 
of weapons of mass destruction with non-proliferation programs.
    This Subcommittee has jurisdiction over intergovernmental 
relationships between the United States and international 
organizations of which the United States is a member. In 
holding today's hearing we will explore ways in which these 
organizations may be used more effectively to prevent the 
proliferation of nuclear, chemical, and biological weapons and 
the means to deliver them.
    Since September 11 we have all become aware of the dangers 
directly posed by these weapons. Attacks against the United 
States are no longer in the realm of science fiction or 
Hollywood. As technology evolves, these weapons threaten to 
become even more deadly and more difficult to detect and to 
prevent from being used. If we do not take September 11 as a 
wake-up call history may well repeat itself with even more 
terrible consequences. We must use every tool at our disposal 
to deter the development and use of these weapons.
    We know now that the al Qaeda network was busy trying to 
develop biological, chemical and so-called dirty nuclear 
weapons. These were not weapons that al Qaeda could develop on 
its own--they needed access to foreign technology and foreign 
scientists. Fortunately, so far it appears that they did not 
get enough information to perfect these weapon systems before 
we disrupted their efforts. This demonstrates why it is so 
important that we choke off the proliferation of WMD technology 
at its source--government labs and commercial enterprises. 
Terrorists can gain access to weapons of mass destruction or 
the technology to make them but they can only do so if foreign 
governments or foreign scientists or foreign companies 
willingly provide that information or technology to them.
    Multilateral agreements are one way to prevent terrorists 
from gaining weapons technology but multilateral regimes are 
worthless if they are not effective. China, for example, 
adheres to most of these agreements but as a recent 
unclassified report to the Congress by the CIA notes, China 
continues to provide missile-related technology to a variety of 
countries of proliferation concern. The CIA cannot rule out 
contacts by China with foreign nuclear weapons programs and 
Chinese firms continue to supply chemical weapons production 
equipment and technology to Iran.
    If we cannot get countries to abide by the international 
agreements they have adhered to, then our only alternative may 
be to take unilateral action to prevent the spread of weapons 
of mass destruction. This is not the preferred step but it may 
be our only choice if multilateral agreements do not work.
    I welcome our witnesses to today's hearing. I look forward 
to their suggestions as to what works and what does not work in 
our effort to control the spread of weapons of mass 
destruction.
    I want to welcome Senator Thompson this morning to this 
hearing and ask him for his statement.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman, and thank you 
for holding this hearing today. I think it is an extremely 
important one. We, of course, these days are very concerned 
about the terrorism problem, but it is really hand in hand with 
the proliferation problem. At least 25 countries now possess--
or are in the process of acquiring and developing--capabilities 
to inflict mass casualties and destruction--nuclear, biological 
or chemical weapons or the means to deliver them. The nexus 
between terrorism and proliferation is very disturbing.
    The possibility that a terrorist organization will acquire 
a weapon of mass destruction from one of the many countries 
developing weapons of mass destruction capabilities is 
increasing daily. According to a recent intelligence report, 
several of the 30 designated foreign terrorist organizations 
and other non-state actors worldwide have sought chemical, 
biological or nuclear weapons. Many of these terrorists are 
receiving assistance from countries of concern. Highlighting 
this danger is the fact that our troops recently uncovered 
rudimentary designs of a nuclear weapon in an al Qaeda facility 
in Afghanistan.
    The rapid spread of information and technology has greatly 
complicated our efforts to prevent the spread of weapons of 
mass destruction. The information on chemical, biological and 
even nuclear weapons is widely available on the Internet.
    Multilateral nonproliferation regimes are one of several 
tools that our country, and the global community at large, uses 
to stop the spread of weapons of mass destruction. Today we 
will be discussing the strengths and weaknesses of those 
regimes. These regimes are not perfect. Each has significant 
shortcomings. Collectively, though, they have apparently made a 
difference in slowing the proliferation of weapons of mass 
destruction.
    However, we should keep in mind that a multilateral 
nonproliferation regime is only as effective as the strength of 
each member's commitment to abide by the principles and rules 
of the regime. Unfortunately, some regimes have members with 
weak national export control systems that invariably permit 
elicit technology transfers.
    Despite being a member of all of the regimes that we will 
discuss today, Russia, for example, has yet to develop an 
effective national export control system. Russia's export 
controls are still apparently incapable of preventing the 
illicit transfer of WMD technologies.
    Other regimes have members that are covertly seeking 
weapons of mass destruction. Iran, for example, is a member of 
the Biological and Chemical Weapons Conventions, but has not 
honored the commitments to either regime. Intelligence reports 
tell us that Iran has manufactured and stockpiled chemical 
weapons and aggressively sought biotechnical materials and 
expertise for its offensive biological weapons program.
    Compounding these problems is the fact that some regimes 
have members that deliberately sell weapons of mass destruction 
technologies to countries of concern. These suppliers, though 
publicly supporting the aims of multilateral non-proliferation 
regimes, are covertly selling dangerous technologies to rogue 
states. The most flagrant example of this behavior is China's 
WMD assistance to Pakistan. Though a member of the Nuclear Non-
Proliferation Treaty and a proclaimed adherent to the Missile 
Technology Control Regime, China has armed Pakistan with 
nuclear bombs and ballistic missiles to deliver them.
    We must never assume that because a country is a member of 
a multilateral non-proliferation regime that it will abide by 
its commitments. To do so, would lead us to a false sense of 
security. We must be cautious and diligent. And we must be 
careful not to rely on those regimes as the sole means of 
stopping the spread of WMD information and technology.
    Moreover, it is critical that we effectively use our other 
foreign policy tools, as well. Sanctions, national export 
controls, foreign aid, and military force are just a few 
examples of tools that could be used to address the growing 
threat of WMD proliferation.
    I am pleased that we have such a distinguished panel of 
experts with us today to discuss these issues, Mr. Chairman. 
Thank you again.
    Senator Akaka. Thank you, Senator Thompson.
    I have some brief questions for you. Before I ask you the 
questions I would like to ask you for your statements. So will 
Miss Harris please begin?

 TESTIMONY OF ELISA D. HARRIS,\1\ RESEARCH FELLOW, CENTER FOR 
               INTERNATIONAL AND SECURITY STUDIES

    Ms. Harris. Thank you, Mr. Chairman. In my testimony this 
morning I would like to address three issues, consistent with 
your letter of invitation: First, the nature of the chemical 
and biological weapons threat to the United States; second, the 
impact of the Biological Weapons Convention and the Chemical 
Weapons Convention on this threat; and third, measures for 
enhancing the effectiveness of these multilateral treaties in 
preventing the acquisition of chemical and biological weapons 
by both national and subnational--in other words, terrorist--
groups. I will summarize my prepared statement but would 
request that the full text be included in the hearing record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harris appears in the Appendix on 
page 298.
---------------------------------------------------------------------------
    Senator Akaka. Without objection, it will be included.
    Ms. Harris. Thank you. Prior to September 11 and the 
subsequent anthrax attacks, the threat of national and 
terrorist acquisition of chemical and biological weapons were 
often seen as separate issues requiring separate solutions. 
Now, however, we must recognize that these two proliferation 
problems are closely linked in that assistance from national 
programs is likely to be critical to terrorist efforts to 
acquire and use chemical or biological weapons successfully.
    According to the U.S. Government, about a dozen countries 
are believed to have chemical weapons programs and at least 13 
are said to be pursuing biological weapons. These national 
programs pose a direct threat to U.S. military forces and to 
our friends and allies in the two regions where the weapons are 
proliferating--Northeast Asia and the Middle East. They also 
pose an indirect threat because of their potential to serve as 
a source of chemical and biological weapons expertise or 
materials to other national or terrorist programs.
    One cannot, of course, rule out the possibility that 
terrorists will acquire chemical or biological weapons on their 
own without assistance from a national program. But to date, 
the three most significant terrorist incidents involving 
chemical or biological weapons--the recent anthrax attacks 
here, the Aum Shinriko CBW attacks and the Rajneeshee 
salmonella attack--all suggest that assistance from national 
programs is likely to be crucial to terrorist efforts to 
acquire and use chemical or biological weapons successfully.
    Of course, the Biological and Toxin Weapons Convention and 
the Chemical Weapons Convention have had some impact on these 
national programs. But the 1972 BWC lacks enforcement 
provisions and has been violated by a number of countries, 
including the former Soviet Union, and more recently, Iraq. 
Unfortunately, the Bush Administration has opposed efforts to 
negotiate legally binding measures to strengthen enforcement 
with the Convention.
    The 1993 Chemical Weapons Convention, by comparison, 
contains the most extensive enforcement provisions ever 
negotiated in the arms control area. But it, too, faces a 
number of challenges in these first years of its 
implementation.
    Clearly steps can and should be taken to enhance the 
effectiveness of and reinforce the prohibitions in each of 
these treaties. In the time that I have left, I would like to 
just mention a few of those steps.
    First, with respect to the Biological Weapons Convention, 
we should resume multilateral discussions on measures to 
strengthen the BWC. Specifically, the United States should 
abandon its opposition to multilateral discussions and agree at 
the November 2002 continuation of the BWC review conference on 
a process that will allow both U.S. proposals and other 
proposals for strengthening the Convention to be explored.
    Second, pending international agreement on legally binding 
measures to strengthen the Convention, the United States should 
support efforts to expand the U.N. Secretary General's 
authority to investigate allegations of the development, 
production or possession of biological weapons. Today the 
Secretary General can only investigate the use of these 
weapons. We should give him the power to investigate activities 
prior to use.
    Third, we should strengthen controls over dangerous 
pathogens. The United States should take the lead in securing 
tighter international controls on culture collections and other 
repositories of biological materials. We should also work with 
other countries to strengthen oversight of laboratories to 
prevent either deliberate or inadvertent misapplications of 
biotechnology research for destructive purposes.
    And fourth, we should enhance oversight of the U.S. 
biological defense program. Revelations that the United States 
has produced weapons-grade anthrax and replicated a Soviet era 
biological bomblet as part of its biological defense program 
have raised questions both here and abroad about the nature and 
scope of U.S. activities in this area. Today, there are no 
comprehensive review mechanisms in place for these secret 
biological defense activities. The U.S. Congress should hold 
oversight hearings on the biological defense program to ensure 
that its scientific, legal, and foreign policy impact is 
consistent with U.S. non-proliferation interests.
    With respect to the Chemical Weapons Convention, we should, 
first, make adherence to the CWC an explicit foreign policy 
goal. Libya's recent decision to join the Chemical Weapons 
Convention demonstrates that even in complicated regions like 
the Middle East there are opportunities for expanding 
membership in this treaty. It is not unimaginable that North 
Korea might agree to abandon its chemical weapons program and 
join the convention as part of a broader security arrangement 
on the Korean Peninsula. The United States should ensure that 
CWC adherence is a prominent issue in its foreign policy toward 
the key hold-out countries, including North Korea.
    Second, we should be prepared to use challenge inspections 
to address serious compliance concerns, especially in countries 
where bilateral consultations have been either unsuccessful or 
are not appropriate.
    Third, we should devote the resources necessary to meet the 
treaty's destruction deadlines. Both the United States and 
Russia have indicated to the treaty organization that they will 
be unable to meet the April 2007 deadline for destroying their 
chemical weapon stocks. We should work with Russia and ensure 
in our own case that adequate resources are devoted to meeting 
this important obligation.
    Fourth, we should rectify the budget problems in the treaty 
organization for the Chemical Weapons Convention. Because of a 
zero growth budget imposed on the OPCW over the past 5 years, 
we are beginning another year millions of dollars short for 
implementation. This has serious implications for the 
verification activities of the OPCW. The United States should 
work with the OPCW and other parties to ensure that there are 
sufficient funds to carry out all planned verification 
activities.
    And finally, we can strengthen both conventions, both the 
BWC and the CWC, by making it an international crime for 
individuals to develop, possess or use chemical and biological 
weapons. Both the BWC and the CWC impose legally binding 
obligations on governments but not on individuals. The United 
States should support the negotiation of a treaty that would 
make it a crime under international law for individuals to 
acquire or use chemical or biological weapons or to knowingly 
assist others in doing so. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much.
    At this time I would like to call on Senator Cochran for 
his statement.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to join you in this hearing this morning and I thank 
you for convening the hearing and assembling the witnesses that 
we will hear from today.
    This is a very interesting and troubling issue. I have been 
frustrated over a period of time that our efforts to control 
the proliferation of weapons of mass destruction and other 
items that threaten the security of the world have not been 
more successful. We have these international agreements, these 
so-called non-proliferation regimes, and it seems to me that in 
most of the serious cases of proliferation these agreements are 
ineffective to stop or even slow down the proliferation of 
weapons of mass destruction or the missile systems that could 
be used to deliver them over long ranges.
    So I am concerned if we continue to put our trust and faith 
in that process, in those regimes, whether we are really 
contributing to a false sense of security. I am curious to know 
what the witnesses might say about alternatives to the regimes 
and I just heard Ms. Harris, of course, point out a couple of 
things that she thinks could be considered to improve the 
effectiveness of the regimes.
    It is this kind of suggestion I think we are looking for 
this morning, not only observations and discussions of the 
regimes themselves and what our practices have been in the 
past. And if there have been successes, we need to think about 
those. We do tend to focus probably on the ineffectiveness 
rather than the good that the regimes may have done and that 
would be useful for us, in order to have a balanced view.
    So it is important and I do not know of any other issue 
more serious to us as a country at this time, certainly coming 
on the heels of the attacks that we have seen last year and the 
concerns we have for future terrorism attacks against the 
United States and our citizens.
    So it is very timely and we appreciate very much the 
cooperation of all of you to help make this hearing a success.
    [The prepared statement of Senator Cochran follows:]
             PREPARED OPENING STATEMENT OF SENATOR COCHRAN
    The proliferation of weapons of mass destruction is one of the 
greatest threats our nation faces today, and will continue to face in 
coming years. Countering that threat in order to ensure the security of 
our citizens and deployed forces requires a variety of means, ranging 
from diplomacy to intelligence to active and passive defenses, and even 
to military action when necessary.
    Nonproliferation regimes are important tools in this fight against 
the spread of chemical, biological and nuclear weapons and their 
delivery means. Unfortunately, despite the existence of regimes 
covering all types of weapons of mass destruction, the spread of these 
weapons to nations and even terrorist groups continues, as the CIA has 
documented in its recent Unclassified Report to Congress on the 
Acquisition of Technology Relating to Weapons of Mass Destruction. 
Consider Iran, for example. According to the CIA's report, despite 
being a signatory to the Chemical Weapons Convention, Iran has 
manufactured and stockpiled several thousand tons of chemical weapons, 
comparable in size to Iraq's stockpile before the Gulf War. And the 
Director of Central Intelligence told the Senate just last week that 
Iran, despite being a signatory to the Nuclear Non-Proliferation 
Treaty, is at work now on a nuclear weapons and may succeed in 
developing one in just a few years.
    The extent to which these nonproliferation regimes can stop or slow 
the proliferation of WMD remains to be seen. I look forward to hearing 
our witnesses' views on how the effectiveness of these regimes can be 
improved, and I commend the Chairman for calling this hearing to 
examine this important issue.

    Senator Akaka. Thank you very much, Senator Cochran.
    I would like to then call on a statement from Dr. Smithson.

TESTIMONY OF AMY E. SMITHSON, Ph.D.,\1\ DIRECTOR, CHEMICAL AND 
 BIOLOGICAL WEAPONS NONPROLIFERATION PROJECT, HENRY L. STIMSON 
                             CENTER

    Ms. Smithson. Thank you. Adjusting policies and programs to 
address the threat of terrorism is not easy. I would like to 
thank this Subcommittee for looking beyond the obvious, for 
holding a hearing that examines the utility of international 
treaties in helping to assure this Nation's well-being.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Smithson appears in the Appendix 
on page 304.
---------------------------------------------------------------------------
    Arms control critics often deride treaties as weak 
mechanisms that can be broken with impunity, yet these same 
critics would hardly advocate scrapping U.S. laws against 
murder even if those laws are broken with disturbing frequency. 
Rather, they would call for better enforcement of the laws. 
Even a good law is only as effective as its enforcement. Member 
governments are the custodians of these treaties. As the 
world's most powerful nation, the United States has a special 
responsibility to lead efforts to enforce them.
    Despite what you might have heard, terrorists are likely to 
have difficulty overcoming the technical hurdles associated 
with acquiring a capability to inflict mass casualties with 
chemical and biological weapons. Therefore one key to keeping 
such weapons out of their hands is to tackle the proliferation 
problem at the national level. Treaties such as the Biological 
and Toxin Weapons Convention and the Chemical Weapons 
Convention are intended to compel governments to abandon their 
weapons programs.
    Moreover, full and effective implementation of these 
treaties applies to the subnational actor security threat in 
three important ways. First, the fewer governments that 
maintain chemical or biological weapons programs, the fewer 
places terrorists can turn to for help with weapons materials 
and expertise.
    Second, the CWC, but not at present the BWC, requires 
states to outlaw offensive weapons activities domestically. The 
CWC approaches its fifth anniversary with 145 members, all now 
obligated to have enacted penal laws that hold individuals 
accountable.
    Third, treaties can block weapons proliferation via the 
incorporation of export controls. Three years after the CWC was 
activated, treaty members were barred from trading so-called 
Schedule II chemicals with countries that had not joined. 
Should the CWC's members decide this fall to apply export 
controls to the more widely traded Schedule III chemicals, 
states that remain outside of this treaty would incur 
tremendous economic hardship. Moreover, the CWC would have 
significantly amplified the practice of multilateral export 
controls by having almost five times the number of countries in 
the Australia Group enforce export controls on hundreds of 
chemicals.
    As you know, midway through 2001 the Bush Administration 
rejected the draft BWC monitoring protocol, a decision with 
which I agree. My agreement is based on the advice of 35 
technical experts, top-notch experts from the U.S. 
pharmaceutical and biotechnology industries, research 
institutes, universities, defense contractors, and veterans of 
the two U.S. trial inspections to see how the BWC could be 
monitored. There are a number of reasons why this protocol 
should have been rejected, which I will be delighted to 
elaborate on in Q and A.
    In November of this past year the Bush Administration 
proposed several alternatives to monitor the BWC, some of which 
are downright puzzling. For example, putting investigations of 
suspicious disease outbreaks and alleged biowarfare incidents 
in the hands of the U.N. Secretary General suffers the same 
handicap as the current structure; namely, the possible 
politicization and delay of challenge inspections.
    Another baffling proposal involves voluntary nonchallenge 
visits. Not to mince words, but why would a BWC violator invite 
inspectors into its midst unless it had taken extreme care to 
clean up all evidence of cheating prior to issuing the 
invitation?
    The Bush Administration also advanced proposals with 
significant merit, as Mrs. Harris has described, to strengthen 
the security of access to pathogenic microorganisms, to have 
governments oversee high-risk experiments with pathogens, to 
establish professional scientific codes of conduct, to improve 
disease surveillance, and to require BWC members to pass 
legislation criminalizing offensive bioweapons activities. The 
common downfall of these proposals is that the Bush 
Administration would leave it to each of the BWC's 141 members 
to set their own domestic standard; to wit, country A could 
enact a criminalization law with slap-on-the-wrist penalties 
while country B puts in place a stiff penal code.
    As for the CWC, which has enjoyed a relatively strong 
launch in its first 5 years, this treaty clearly could be 
working better. One need only ask a U.S. official or discretely 
circulate among the treaty's cognoscenti to hear whispers of 
compliance problems, yet no challenge inspections have been 
requested to address these concerns. The reasons for these 
circumstances lie largely in how the United States has 
implemented this treaty.
    When the Senate gave its advice and consent to the CWC's 
ratification and Congress passed the treaty's implementing 
legislation, the bills were spiked with exemptions that 
deprived the inspectors of their two strongest tools; namely, 
challenge inspections and laboratory analysis of samples. 
Officials from other nations, including Russia and China, have 
privately told me that their countries would not hesitate to 
cite the U.S. exemptions to hold inspectors at bay.
    In this day and age it would be foolhardy to neglect any 
viable mechanism that can reduce the threat of weapons of mass 
destruction. I will conclude with a few recommendations to 
improve the performance of these treaties.
    I would ask that Congress and the Bush Administration waste 
no time in taking the appropriate steps to see that the CWC is 
fully implemented and that all reasonable efforts are made to 
strengthen the BWC with a panoply of monitoring tools. U.S. 
policymakers must push this year to add Schedule III chemicals 
to the export control list and also overturn the aforementioned 
exemptions, restoring full power to the CWC's inspectors. 
Please give these inspectors a fighting chance to catch treaty 
violators. Otherwise the United States will have no one to 
blame but itself for this treaty's weakened condition.
    Second, Congress should insist that the Bush Administration 
fulfil Public Law 106-113 and conduct BWC monitoring trials at 
various sites. Should such trials show that meaningful 
monitoring results can be achieved at a tolerable cost, then 
regular or random nonchallenge inspections would be far 
preferable to the proposed voluntary visits. Moreover, to have 
a chance of being effective, challenge inspections must be as 
automatic and as distanced as possible from politics.
    Finally, to make the other BWC monitoring proposals more 
effective, the United States should add tough standards that 
make the desired changes reasonably uniform, not hit or miss. 
Thank you.
    Senator Akaka. Thank you very much, Dr. Smithson.
    Dr. Walsh, your statement, please.

   TESTIMONY OF JIM WALSH, Ph.D.,\1\ RESEARCH FELLOW, BELFER 
 CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY 
            SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Dr. Walsh. Mr. Chairman and Members of the Subcommittee, 
thank you so much for giving me the opportunity to speak to you 
today about an issue that I think is of singular importance to 
U.S. national security, and that is nuclear terrorism. What I 
would like to do in my brief remarks is focus on three of the 
questions that I raise in my written testimony. Those questions 
are: First, are multilateral nuclear treaties effective? 
Second, where do multilateral treaties fit in a broader 
strategy against nuclear terrorism? And finally third, what is 
the role for Congress?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walsh appears in the Appendix on 
page 313.
---------------------------------------------------------------------------
    Let us begin with the first question: Are multilateral 
nuclear regimes effective? Of course, multilateral nuclear 
institutions come in a variety of forms. Some are treaties, 
like the Nuclear Non-Proliferation Treaty, or NPT, and the 
Convention on the Physical Protection of Nuclear Materials. 
Others are informal multilateral groups like the Nuclear 
Suppliers Group, while still others, like UNSCOM and KEDO, are 
at hoc agencies that were developed in response to a particular 
crisis.
    Now, of course, creating a multilateral institution is one 
thing but having an effective multilateral institution is quite 
something else. Some multilateral institutions have been 
tremendous successes while others have been abject failures. 
How are we to judge the regime, the nuclear regime and the way 
it has performed? I would like to take just a minute and look 
in particular at the role of the Nuclear Non-Proliferation 
Treaty and related regime components and their effect on the 
spread of nuclear weapons around the world.
    After 50 years the most striking feature of the nuclear age 
is that there are so few nuclear weapon states, far fewer than 
predicted by virtually every expert and every policy-maker. As 
one observer noted, ``Almost all published predictions of the 
spread of nuclear weapons have turned out to be too 
pessimistic.'' Perhaps the most famous or infamous prediction 
of nuclear proliferation was offered by President John F. 
Kennedy. Kennedy warned that in 10 years--this was back in the 
early 1960's--that in 10 years an additional 21 countries might 
develop nuclear weapons. And published work at the time from 
universities, from think-tanks and defense intelligence 
estimates endorsed that prediction. As one commentator put it, 
``The belief was common that the nuclear spread has proceeded 
and would continue to proceed as fast as the technology would 
take it.'' The French military theorist Pierre Gallois observed 
that proliferation was as irreversible as the generalization of 
fire arms.
    Yet the results have been far different than those 
predictions. An overwhelming majority of nuclear-capable 
countries have opted to forego nuclear weapons and, over time, 
the rate of proliferation has actually declined. Let me repeat 
that, that the rate of proliferation has actually declined. 
After peaking in the 1960's the number of new nations joining 
the nuclear club each decade has gone steadily downhill and 
several nations that built or inherited nuclear weapons--South 
Africa, Ukraine, Belarus and Kazakhstan--chose to renounce 
their nuclear weapons.
    When in history, asked one scholar, have so many nations 
had the capability to produce a powerful weapon and chosen not 
to exercise it? Indeed, I would argue that the absence of 
widespread proliferation may be the greatest unheralded public 
policy success of the 20th Century.
    A key factor in the success was the establishment of the 
Nuclear Non-Proliferation Treaty. Archival documents, 
interviews with former country leaders and a general pattern of 
state behavior suggests that the NPT had a decisive impact on 
the spread of nuclear weapons.
    Now it should be emphasized that the nuclear non-
proliferation regime is not a magic bullet. Several factors in 
addition to the NPT have contributed to nuclear restraint and, 
like any policy instrument, the non-proliferation regime 
suffers from imperfections and trade-offs. The record suggests, 
however, that many of those earlier predictions of widespread 
proliferation would have come true in the absence of the 
nuclear non-proliferation regime.
    Let me turn to the second question. How can these 
multilateral instruments fit into a broader strategy to reduce 
the risk of nuclear terrorism? It seems to me that any strategy 
to reduce the threat of nuclear terrorism should recognize at 
least two principles. The first principle is that the United 
States is only as secure as the weakest link in international 
security. Applied to the issue of nuclear terrorism, what that 
means is that the security of nuclear materials and nuclear 
technology is determined not by the level of security at the 
most protected facilities but rather, by the level of security 
at the least protected facilities.
    The second principle, and I think it is self-evident, is 
that it is better to prevent terrorists from acquiring weapons 
of mass destruction than trying to stop them after they have 
already gotten them.
    Together these principles suggest that in the field of WMD 
terrorism, homeland security begins abroad. The United States 
has to improve its level of domestic security--I think that is 
obvious--particularly in the areas of aviation and infectious 
disease, but that will not be enough. We cannot wait for 
terrorists to acquire nuclear materials and then try to stop 
them once they are bound for America on their deadly mission.
    Instead, homeland defense abroad suggests five policy 
objectives. One, prevent and otherwise reduce the number of 
nuclear weapon states. Two, reduce the number of states with 
stockpiles of plutonium and highly enriched uranium. Three, 
secure all remaining nuclear weapons materials and facilities. 
Four, increase the number of area and interstate nuclear 
checkpoints. And five, develop the capacity to quickly identify 
and trace nuclear materials.
    All of these objectives lend themselves to multilateral 
regimes. These regimes provide a way to build the first line of 
defense against nuclear terrorism. Moreover, they do so in a 
way that is financially and politically prudent. The United 
States cannot singlehandedly improve the security of all the 
world's nuclear installations. Such a task is neither 
financially nor politically feasible. Working with other 
nations through multilateral nuclear regimes provides a 
practical alternative for reducing the threat of nuclear 
terrorism.
    Finally, let me turn to the third question: What is the 
role of Congress? And here I am going to talk about nuclear 
terrorism in particular and I can talk more generally about 
non-proliferation in the Q and A if there is interest there.
    There are a number of actions that Congress might take to 
reduce the risk of nuclear terrorism. These legislative 
responses fall generally into one of three categories: 
Oversight, appropriations, and policy innovation. Let me 
briefly touch on each of these.
    First, oversight. Congressional oversight can be a powerful 
tool for change. Hearings, annual reporting requirements and 
appropriations tied to certification can focus the attention of 
the executive, the bureaucracy and the public. Given the events 
of the last several months, there are a number of things 
Congress might do in this area and I will just name one here.
    Congress should insist on all available information about 
nuclear terrorism. Congress cannot fulfill its legislative 
responsibilities without such information and yet much of it is 
scattered or being withheld from the public domain. A variety 
of news organizations, including the Times of London and CNN, 
have their own cache of documents collected from al Qaeda 
safehouses and training facilities. Meanwhile, the Department 
of Defense and various executive agencies have their own set, a 
separate set of documents, as well as the results of prisoner 
interviews and the results of forensics tests. Most of this 
information can be made available without endangering sources 
and methods.
    This is a small but critical step in the fight against 
nuclear terrorism. The history of WMD terrorism suggests that 
it is self-defeating for the executive to maintain a monopoly 
over information. Most of the important nuclear initiatives of 
recent years have had their origins outside the executive--in 
Congress, for example, with cooperative threat reduction, in 
university research centers, and with nongovernmental 
organizations.
    If Congress is going to pursue new approaches to WMD 
terrorism and if scholars are going to provide independent 
assessments of the dangers and opportunities, then Congress has 
to take the lead in seeing that the relevant information is 
available.
    Second, appropriations. Progress against nuclear terrorism 
will not be possible without financial resources. 
Unfortunately, efforts to prevent nuclear terrorism have not 
been a funding priority. This year billions of dollars will be 
devoted to new weapon systems and other activities whose 
purpose is to respond to a terrorist attack and yet only a tiny 
fraction of this amount will be expended on efforts that would 
prevent WMD terrorism from taking place in the first place.
    In the past, Congress has used its power over the purse to 
ensure that funds were devoted to the problem of nuclear 
terrorism even in the face of executive and bureaucratic 
indifference. Today the need for Congressional leadership is 
stronger than ever before. With rising deficits and a long list 
of interests lining up for their share of the anti-terrorism 
funds, this will not be easy. But success in the fight against 
nuclear terrorism depends on continued leadership from 
Congress. Congress must find a way not only to fund efforts to 
prevent nuclear terrorism but fund them at a scale commensurate 
with the size of the problem--at a scale commensurate with the 
size of the problem.
    Finally and quickly, third, policy innovation. One of the 
most exciting areas where Congress can contribute to nuclear 
security is in the field of policy innovation. For reasons of 
time let me simply list some of these areas.
    One, internationalizing the concept of cooperative threat 
reduction beyond the Soviet Union. Cooperative threat reduction 
started out of the Congress, started out of the Senate, and it 
seems to me that this has been a successful innovative program, 
not without problems but nevertheless successful and 
innovative, that can be expanded beyond the former Soviet 
Union.
    Two, developing world-wide civil constituencies for nuclear 
security. During the Cold War, the United States pursued a 
variety of initiatives to promote democracy around the world 
and to defeat communism. It set up a special institute to 
support democratic institutions abroad, established Radio Free 
Europe, and funded a variety of programs whose purpose was to 
develop a constituency for democratic governance. Congress 
later used this tactic in support of a different objective when 
it established the private U.S. Institute for Peace. For its 
own part, the executive has established a series of special 
funds; for example, the special fund on AIDS in Africa.
    These same tactics can be applied to the new problem of 
nuclear security. Congress could, for example, establish a 
foundation or an institute for the prevention of WMD terrorism. 
Acting as a private entity, this institute could train and 
support the development of professional nuclear societies, 
journalists and locally-based environmental groups and others 
from other countries, from foreign nations, and then these 
people could go and monitor the state of nuclear security and 
press for improvements in their own country, much as we did the 
same thing in our fight against communism decades ago.
    Third, Congress might look at the establishment of 
legislator-to-legislator dialogue with legislators from other 
countries on this issue of nuclear terrorism and WMD terrorism.
    This list of initiatives is obviously not exhaustive. 
Instead, it is meant to illustrate how Congress might approach 
the question of policy innovation. Simply put, it makes sense 
for Congress to think about policy instruments it has used in 
other issue domains and how they might be creatively applied in 
the new context of nuclear terrorism.
    Mr. Chairman and Members of the Subcommittee, it has been a 
great honor to speak with you today. In my testimony I have 
suggested that multilateral regimes have proven to be effective 
and that they can be even more effective if considered as part 
of a broader strategy against nuclear and WMD terrorism. This 
strategy, premised on the notion that homeland security begins 
abroad, seeks to prevent terrorism at the source, to stop 
terrorists before they reach our shores.
    September 11 was a wake-up call, as the Chairman rightly 
said. It is history grabbing us by the collar and telling us to 
act now before it is too late. No institution has shown more 
vision, steadfastness or creativity on the problem of WMD 
terrorism than the U.S. Senate but recent events clearly 
demonstrate that additional action is required. My hope and 
expectation is that the Senate will respond to this challenge 
as it has responded to the challenges of the past and that 
America will be a stronger and more secure Nation as a result. 
Thank you.
    Senator Akaka. Thank you, Mr. Walsh.
    Before I ask for Mr. Gormley's statement I would like to 
ask Senator Stevens for his statement.
    Senator Stevens. I am sorry to be late, Mr. Chairman. I had 
another meeting. I have no opening statement.
    Senator Akaka. Thank you. Mr. Gormley, your statement, 
please.

TESTIMONY OF DENNIS M. GORMLEY,\1\ SENIOR FELLOW, INTERNATIONAL 
                INSTITUTE FOR STRATEGIC STUDIES

    Mr. Gormley. Thank you, Mr. Chairman, Members of the 
Subcommittee. It is a pleasure to appear before you today to 
offer my suggestions on ways to enhance the Missile Technology 
Control Regime to cope with the prospects of weapons of mass 
destruction in the hands of both state and nonstate actors.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gormley appears in the Appendix 
on page 322.
---------------------------------------------------------------------------
    I fear we have fallen short in adapting the MTCR to cope 
with rapid changes in the technologies underlying WMD delivery. 
The most egregious shortcoming is in the way the MTCR is ill 
prepared to deal with the next great missile proliferation 
threat, that of land attack cruise missiles. Concern about the 
spread of land attack cruise missiles is driven by two 
realities. First, the quantum leap in dual use technologies 
supporting cruise missile development, and these include 
satellite navigation and guidance, high resolution satellite 
imagery from a host of commercial vendors, unregulated flight 
management systems for converting manned aircraft into unmanned 
aerial vehicles, and digital mapping technologies for mission 
planning.
    And second, the fact that the 33-nation missile technology 
control regime is much less effective at controlling the spread 
of cruise missiles and unmanned aerial vehicles than ballistic 
missiles. To be sure, ballistic missiles receive top priority 
because they are already widely proliferated while land attack 
cruise missiles have only begun to emerge as a threat, but that 
is precisely the reason why improved controls on cruise 
missiles are so critical now. Were the gaping deficiencies in 
the way the current MTCR provisions handle cruise missile 
transfers eliminated, the MTCR could conceivably do as well 
with cruise missiles as it has with controlling the spread of 
highly sophisticated ballistic missiles.
    So far, ballistic missile technology that has spread is 
largely 50-year-old SCUD technology, a derivative of World War 
II German V-2 systems. Many of the weaknesses of this 
technology can be exploited by missile defenses.
    It is equally important to say what has not spread because 
of the MTCR--sophisticated Pershing-2 technology with terrain 
contour guidance and maneuvering reentry vehicles, as embodied 
in Argentina's and Iraq's forestalled Condor missile program, 
which would have greatly stressed today's missile defenses. My 
prepared statement goes into some detail on ways to repair the 
regime but let me offer just two stark examples of what might 
very well occur absent essential reforms.
    First, whereas today's MTCR has hindered advanced ballistic 
missile sales, ambiguities surrounding the ground rules for 
determining the true range and payload of cruise missiles 
threatens to open the floodgates of advanced cruise missile 
sales. This would be the equivalent of uncontrolled sales of 
Pershing-2 missiles to states outside the MTCR membership.
    Second, perhaps the gravest near-term terrorist threat of 
exploiting cruise missile technology lies in transforming 
manned kit airplanes into unmanned and armed weapons carriers. 
There is a dizzying array of kit airplanes in today's 
marketplace. A simple Internet search recently produced close 
to 100,000 copies of about 425 systems in a growing worldwide 
market.
    But the biggest challenge in transforming these kit 
airplanes into unmanned attack means involves the design and 
integration of a flight management system. At present, MTCR 
controls fail to deal with an emerging phenomenon of small 
aerospace firms getting into the business of selling flight 
management systems for transforming manned into unmanned air 
vehicles. The mind spins with scenarios of such unmanned 
systems, which are ideal means for disseminating biological 
agents threatening both domestic and overseas targets.
    Essential MTCR reform will be impossible without the 
determined leadership of senior Executive Branch 
decisionmakers, as well as a more rigorous and consistent 
management of the interagency process by the National Security 
Council. Leaders of key MTCR states, spurred by U.S. 
leadership, must come together to convince the broad 
partnership of the benefits of enhanced MTCR controls on cruise 
missile proliferation.
    It is important to recall President Reagan's original 
objective in announcing the MTCR in 1987, ``Hindering, not 
eliminating the spread of missiles capable of delivering mass 
destruction weapons.'' However imperfect the MTCR has been as a 
non-proliferation mechanism, it has hindered the spread of the 
most advanced and pernicious forms of ballistic missiles, 
making ballistic missile defenses more conceivable. It needs to 
do as well with cruise missiles. Letting cruise missiles 
proliferate will ultimately not only present its own set of 
unique demands from a cruise missile defense standpoint but 
will make effective ballistic missile defenses more costly and 
demanding, too. That is simply because in many respects they 
use the same interceptors. Patriot-3 is one good example.
    We need to spend far less time expanding MTCR membership 
and writing an international code of conduct, which shamelessly 
neglects to include cruise missiles in its language, and much 
more time reforming and adapting the regime to cope with 
technological change and new missile threats.
    Thank you, Mr. Chairman. I look forward to your questions.
    Senator Akaka. Thank you very much, Mr. Gormley. We do have 
questions.
    I would like to ask Ms. Harris, the first question. There 
has been an on-going debate on the question of mass attack with 
biological weapons. Before September 11 and the anthrax 
attacks, U.S. military and nongovernment experts agreed that 
for some time to come terrorist groups are unlikely to have 
sufficient expertise and resources to succeed in a mass attack 
with biological weapons. Do you believe this statement?
    Ms. Harris. Mr. Chairman, I think that assessment is still 
valid, with one caveat, and that is assuming terrorists do not 
get assistance from a national biological or chemical weapons 
program. The technical and operational hurdles to terrorists 
acquiring these capabilities on their own are really very 
substantial.
    The worrying thing, as both the President and Secretary 
Rumsfeld have emphasized in recent weeks, is the possibility of 
assistance from a national program to one of these terrorist 
groups. This nexus between proliferation and terrorism really 
is the issue that we should be focusing on--to prevent national 
programs from being a source of assistance to terrorists' 
chemical and biological acquisition efforts.
    Senator Akaka. Dr. Smithson, the administration has pointed 
to the failed UNSCOM inspections in Iraq as evidence of how 
even the most invasive inspections cannot stem biological 
weapon development and production. Do you agree?
    Ms. Smithson. No, sir, I do not agree with that position, 
the reason being that I have spent quite a bit of time in the 
company of those very UNSCOM inspectors. They have told me that 
virtually from the minute they walked into facilities, like Al 
Hakum and Salman Pak, they knew they were in the midst of an 
offensive biological weapons program. The same would hold true 
for the inspectors who first went over to the former Soviet 
facilities under what is known as the Trilateral Agreement. 
This also is the case with what U.S. pharmaceutical and 
biotechnology industry experts told me, and their views are 
presented in the Stimson Center report ``House of Cards.''
    So I think UNSCOM actually caught the Iraqi bioweapons 
program quickly, but did not come up with hard proof until very 
late in the game. So I would think there should be constructive 
measures that might be put in place to monitor the BWC.
    Senator Akaka. Thank you.
    Dr. Walsh, Iraq nearly completed building nuclear weapons 
despite IAEA inspections. There have been questions about 
IAEA's capabilities. Can current IAEA inspections detect 
clandestine nuclear programs?
    Dr. Walsh. It is an excellent question, Mr. Chairman, and I 
think when you look at the history of the non-proliferation 
regime what you see is, as in a lot of domains in life, 
something bad happens and then it is followed by something 
good. Something bad happens and it focuses attention, creates 
the political will, and then we have an improvement.
    When the NPT first came into force in 1970, it had no 
enforcement provisions, none. Subsequent to that we have had a 
series of arms control and other agreements that have become 
progressively more intrusive and therefore have given us 
greater transparency, a better look inside countries to see, in 
fact, if they are violating agreements.
    Now, in the case of Iraq, I think it is absolutely right 
that IAEA failed us, in part because they did not make use of 
the powers that they already possessed. They could have done 
more without having written an additional protocol but they 
failed to use those powers.
    Following Iraq, however, I think we have seen a reform of 
IAEA. There are still improvements to be made but you will 
remember that following Iraq we had the 93 Plus two protocol 
that would have established environmental monitoring and now 
there are a number of states who have joined that additional 
protocol.
    So, in response to Iraq, we developed new procedures and 
technologies to improve our ability to detect violations of the 
treaty. You also will have noticed that after Iraq, IAEA was 
much more aggressive and part of the reason why we knew about 
the North Korean problems, and were able to intervene to freeze 
that program, was because of the work of IAEA.
    I think also it would be unfair to say that IAEA was the 
only one responsible for negligence in the Iraqi case. 
Declassified documents indicate that a number of countries had 
suspicions about Iraq's nuclear behavior in the 1970's but for 
political reasons--animosity towards Iran after the hostage 
crisis, that sort of thing--many countries looked the other 
way. They knew what was going on but they looked the other way 
because they were more focused on Iran than Iraq. That was a 
decision that came back to haunt them.
    So in summary, it was more than IAEA that failed us in Iraq 
but since then there have been a number of administrative and 
technical steps that have bolstered and strengthened the 
regime.
    Senator Akaka. Thank you.
    Mr. Gormley, your testimony mentions the challenge of 
determining cruise missile range and payload and how the range 
of cruise missiles may be changed with little apparent 
modification to its air frame. The question is could these 
challenges be addressed through an inspection regime?
    Mr. Gormley. That is a very good question and one I had not 
much thought about but it seems to me that an inspection regime 
with sufficient scrutiny would certainly provide one with 
enough information about the sheer volume of the missile and 
the relationship between the true payload and the amount of 
space earmarked for fuel. Then the calculation of range is a 
relatively straightforward one, assuming various launch 
altitudes, which account for the difficulty with cruise 
missiles compared with ballistic missiles. A ballistic missile 
is a ground-to-ground system and it is a simple determination 
of maximum range trajectory. In the case of a cruise missile, 
it can be launched from the ground and fly at a low altitude 
but because it is an aerodynamic vehicle, it can also fly at 
higher altitudes where the fuel efficiency is much greater.
    So the calculation based on an inspection with some 
scrutiny would certainly allow you to provide enough 
information to determine the true range capability of a cruise 
missile.
    Senator Akaka. Thank you.
    I call on Senator Thompson.
    Senator Thompson. I will defer to Senator Cochran.
    Senator Cochran. I yield to you, Mr. Chairman.
    Senator Thompson. Thank you very much.
    Let me ask both Miss Harris and Miss Smithson for an 
interchange about the issues concerning the chemical and 
biological weapons conventions. I get the impression, Miss 
Harris, that you think the United States should have signed on 
to the recommendations of the November 2001 review conference.
    I get the impression, Miss Smithson, you really do not 
think that they should have and perhaps the United States is 
not going far enough in terms of the issues of verification.
    Here, as in other areas, it seems like we have a lot of 
nations who have signed on and a lot of nations who are in 
violation to the Chemical Weapons Convention. It seems we have 
a better system of verification apparently than we have with 
the Biological Weapons Convention. I would be interested in 
elaborating a little bit more about the distinction, why that 
distinction is extant, what you think about it, what we might 
do differently and, as I indicated, your view of the United 
States position with regard to the 2001 review conference. If 
either one of you would like to comment.
    Ms. Harris. Thank you, Senator. I think the key difference 
we have to start with between the Biological Weapons Convention 
and the Chemical Weapons Convention is that the BWC has no 
enforcement provisions and the Chemical Weapons Convention has 
extensive enforcement provisions--requirements for 
declarations, routine visits to facilities that are covered by 
the treaty and challenge inspections.
    Today, we have no ability to pursue concerns that another 
country is developing or producing or stockpiling biological 
weapons.
    Senator Thompson. If I could stop you there, how did that 
come about? That does not make any sense to the average person 
who is unfamiliar with the background. It might help for both 
or either of you to explain to people why an area that seems 
nowadays to be much more dangerous, and that is biological, why 
would anyone enter into an agreement that had absolutely no 
verification requirements at all.
    Ms. Harris. I think it is very unlikely that any country 
would enter into an agreement now that had no enforcement 
mechanisms, but we have to remember the BWC was negotiated in 
the late 1960's and early 1970's. When it was concluded in 
1972, it was the first treaty to outlaw an entire category of 
weapons. It was completed during the Cold War, at a time when 
arms control and the accompanying verification provisions were 
really in their infancy. To the extent that there were 
verification provisions being pursued, they were on the nuclear 
side, and relied primarily on national technical means.
    At the time, it was viewed as simply not feasible to 
consider anything more intrusive in terms of verification 
arrangements. It was also deemed to be technically quite 
difficult.
    So I think one needs to look at the BWC in the context of 
the time in which it was negotiated, these political 
environments and what was deemed to be possible, both 
technically and politically, in terms of verification.
    Senator Thompson. The question is, as it always is, whether 
or not it is better to enter into something that might give you 
a false sense of security rather than having nothing at all.
    Ms. Harris. I think the decision made by President Nixon in 
1969 was the right one, which was that biological weapons 
offered few military advantages to a major military power such 
as the United States, but if they were to spread to other 
countries, they could challenge and degrade our military 
capabilities. So despite the political and technical 
difficulties of verifying a BW ban, the Nixon Administration 
decided to go forward with this treaty.
    Senator Thompson. Would you move on to these other points, 
please, that we raised?
    Ms. Harris. Certainly. As I said a moment ago, today we 
have no ability to enforce compliance with the BWC. The whole 
point of the Biological Weapons Convention protocol was to try 
to put in place enforcement mechanisms that, while not 
providing high confidence ability to detect cheating, would 
nevertheless make it harder, more costly and more risky for 
countries to violate their obligations under this treaty.
    So the goal was not to catch every cheater but instead, to 
try to deter this illicit activity and to get information that 
could help inform our own decisions about biological defense 
activities, export controls, etc. Because the objective was 
more modest--deterrence rather than verification--the set of 
measures that were pursued in the negotiations were more modest 
than those in the Chemical Weapons Convention. This meant 
declarations of the facilities most likely to be misused for BW 
purposes rather than all relevant faculties, on-site visits 
rather than routine inspections and the possibility of 
challenge inspections.
    Senator Thompson. Ms. Smithson.
    Ms. Smithson. You are correct in detecting a difference of 
our opinions. I would argue that the draft BWC protocol should 
have been rejected simply because it could not perform as 
advertised.
    Let me give you an example. One of the provisions that the 
technical experts that sat around my table had problems with 
was the idea that a nonchallenge visit would deploy four 
inspectors for 2 days. One of the industry experts who 
participated in this exercise, Dr. Steve Projan, who is the 
director of antibacterial research at Wyeth-Ayerst Research, 
summed up his views of this particular provision by saying, 
``Four inspectors for 2 days couldn't even get through all the 
bathrooms at my facility.''
    Now what these experts told me is that they do believe it 
is possible to craft monitoring provisions that can tell the 
good guys from the bad guys, and I believe them because this is 
one of the most heavily regulated industries in the world. They 
know their way around inspections. They also believed that it 
was possible to manage the risks of those inspections to 
protect confidential or proprietary business information. That 
is why they urged the Executive Branch, and they urge you to 
ask the Executive Branch, to fulfill the public law that 
requires additional research and field trials in this area. The 
resulting data should inform the U.S. position in future 
negotiations.
    Ms. Harris. Senator, could I just add one point? While Amy 
and I disagree on the value of the draft Biological Weapons 
Convention protocol, I think the one thing we would both agree 
on is that the Bush Administration has made a mistake in 
rejecting any subsequent multilateral process for trying to 
develop a stronger, legally binding regime to strengthen the 
convention.
    So whatever differences we have on the protocol, I think we 
both feel that it is critically important for the United States 
to support the resumption of international efforts to try to 
develop legally binding enforcement mechanisms for this treaty, 
which we both believe are possible.
    Senator Thompson. My time is up, but what is that issue, 
Miss Smithson? What is the procedural issue there and what 
reason does the administration give for not proceeding with 
trying to get a better deal?
    Ms. Smithson. Perhaps you can ask that question directly of 
Under Secretary of State Bolton, who essentially rained on the 
party. He called the negotiations quits. There is a 1-year 
hiatus here. I hope that the United States uses that year to 
get its act together, to do the technical field work necessary 
to come to the negotiating table with a well informed 
negotiating position.
    At this point, I think the jury is out. We really do not 
know whether or not this treaty can be monitored but these are 
such odious weapons that we ought to give it our best shot.
    Senator Thompson. Whether or not anyone will agree to have 
them monitored.
    Ms. Smithson. Well, sir, I would remind you that 145 
countries have signed up for the tremendously strict monitoring 
provisions of the Chemical Weapons Convention, so sometimes it 
can surprise you what countries will agree to.
    Senator Thompson. Thank you, Mr. Chairman.
    Senator Akaka. Senator Cochran.
    Senator Cochran. Mr. Chairman, one of the ways we have 
tried to enforce agreements and to convince countries they 
should not engage in proliferation activities is the use of 
economic sanctions. To what extent do you think these have been 
effective? Are there any instances where you know that the 
imposition of sanctions have worked to help diminish the threat 
caused by proliferation? Mr. Gormley, let us start with you.
    Mr. Gormley. In my view, I think there is room for and a 
strong utility for the implementation of sanctions. 
Unfortunately, the history of the use of sanctions in regard to 
missile proliferation has been notably weak.
    Do I think there is room for improvement? I think one might 
look at ways of standardizing the best provisions of the 
existing law to create more targeted and calibrated sanctions 
that are precisely focused on the issue of trying to take the 
profit out of proliferation. This requires identifying those 
particular entities and imposing costs on those entities that 
outweigh the benefits of sanctionable activity that has 
occurred.
    So I think there is some room for improvement, but I think 
the record from 1990, with the implementation of the first 
Export Administration Act and more recently in 1996, with the 
Arms Export Control Act, the evidence is not strong that it has 
been terribly effective at impeding missile proliferation.
    Senator Cochran. Dr. Walsh.
    Dr. Walsh. Sanctions have not been a frequent part of the 
nuclear non-proliferation regime but they have been used on 
occasion. You will remember after the Indian nuclear test in 
1974 there were a series of sanctions imposed by individual 
countries and again after the 1998 tests in South Asia, Japan 
and to some extent by the United States placed economic 
sanctions against the parties. Those were later withdrawn.
    I think sanctions can be useful. You want to be able to 
send the message to potential proliferators that if they cross 
the line there will be consequences to their behavior. And when 
people do cross the line you do want to punish them so that 
future proliferators see what those consequences will be.
    I am an advocate of smart sanctions. I think that when it 
comes to nuclear proliferation the key question is who is 
sitting around the table? Who are the decisionmakers and what 
are their interests? When it comes to nuclear weapons the 
decisionmakers tend to be the country leader, the military, the 
scientific bureaucracy, typically the nuclear agency, and 
sometimes there are players on the side. And they are 
struggling with this question: Is this nuclear weapons program 
in my interests or not, not only from a national security 
standpoint but from the standpoint of bureaucratic interests? 
Do I, as the head of my nuclear agency in Country X, am I going 
to do better or do worse if we pursue nuclear weapons? 
Sometimes these people have concluded they will do better 
budget-wise, jurisdiction-wise, etc., and have voted in favor 
of pursuing nuclear weapons.
    I think one of the things we can do with sanctions is not 
only send the message that if you cross this line you will be 
punished but also make them smart, targeted sanctions so they 
affect the interests at the table as decisionmakers sit around 
and try to decide their nuclear future.
    Senator Cochran. Dr. Smithson.
    Ms. Smithson. The main sanction that has come into play 
with efforts to retard the proliferation of chemical and 
biological weapons would be economic sanctions. In the mid-
1980's a number of countries, led by Australia, formed an 
export control cooperative known as the Australia Group, which 
controls now a lengthy list of chemical precursors, chemical 
and biological equipment, as well as pathogens and other 
diseases that could be used to inflict harm on animals, humans 
or crops.
    The Chemical Weapons Convention has amplified the Australia 
Group's effectiveness many times over when it comes to the 
control of chemical weapons precursors.
    There is a role for sanctions, although I have to concede 
that since I do not see classified information, I do not know 
exactly how effective these sanctions have been. However, I 
hear a number of government officials arguing that these are 
efforts well worthwhile.
    Senator Cochran. Ms. Harris.
    Ms. Harris. Senator, I would make three points with respect 
to sanctions. First, I believe, having been involved in 
sanctions decisions over the course of 8 years in the Clinton 
Administration, that sanctions are most effective before they 
are imposed, when they can be used as a tool to try to 
influence state behavior, to try to influence governments to 
tighten up their export controls so as to prevent the transfer 
of sensitive WMD-related technologies.
    Second, sanctions are most effective when they are applied 
broadly by the international community, rather than by the 
United States alone.
    And third, they are most effective when they give the 
Executive Branch the flexibility to defer the imposition of 
sanctions in order to work with the government of jurisdiction 
to try to put a stop to the transfers of concern and to put in 
place stronger domestic mechanisms to prevent such transfers in 
the future.
    Senator Cochran. Its been several years now since the 
Chemical Weapons Convention has been in force. One of the 
provisions is to permit challenge inspections of suspected 
activities or facilities. Why hasn't that been used? Why hasn't 
that right to ask for challenge inspections been used? And do 
you think it would be appropriate, since according to 
unclassified intelligence reports that we have talked about, 
there are suspected activities, there are suspected facilities, 
why not use that provision of the treaty to try to find out 
what is going on and put a stop to it under the terms of that 
treaty? Dr. Smithson.
    Ms. Smithson. Actually, I would argue that the reason 
challenge inspections have not been used or one of the main 
reasons is that we have shot ourselves in the foot. There was 
an exemption passed with the implementing legislation on this 
treaty that gives the President the right to refuse a challenge 
inspection on the grounds that it might threaten U.S. national 
security. Well, according to the article in the treaty that 
governs challenge inspections, that option is not there. So 
what this exception does is it allows other governments to use 
a loophole that we ourselves have created.
    I mentioned that Chinese and Russian officials have told me 
they are delighted at this turn of events, that they would be 
able to say hey, you challenge us; well, we refuse the 
challenge because it would threaten our national security.
    So we have kind of made this an impotent tool and that, I 
think, is definitely not in U.S. interests, which is why I 
argued that this exemption and the exemption on analysis of 
samples must be overturned if we are to restore full powers to 
these inspectors.
    Senator Cochran. Dr. Walsh, do you have an observation 
about that question?
    Dr. Walsh. No, sir, I do not. Only to say that I would like 
to see us break that barrier and for them to be a more regular 
feature of arms control and international multilateral 
treaties. I would like to see more challenge inspections. That 
was the issue around Iraq. IAEA had the power to do more and 
they did not use it. They became much more aggressive in North 
Korea and I would like to see that same level of aggressiveness 
in other areas, as well.
    Senator Cochran. Ms. Harris.
    Ms. Harris. Senator, I think the situation with respect to 
the Chemical Weapons Convention and challenge inspections is 
rather more complicated than has been suggested here. There 
are, in fact, a number of reasons why challenge inspections 
were not utilized in the first few years after the treaty 
entered into force, which was in 1997.
    First, here in the United States, we were very much focused 
on our own implementation of the treaty--passing implementing 
legislation, preparing our declarations, ensuring that on a 
national basis we were meeting our treaty obligations.
    Second, the international implementing organization, the 
OPCW, also was focused in the initial years on verifying the 
initial declarations by countries, verifying the beginning of 
destruction activities and, quite frankly, was not prepared 
technically to proceed with challenge inspections.
    And third, as Under Secretary Bolton said at the CDClast 
week, we were using the treaty's consultation provisionsvery 
effectively to pursue concerns about whether a number of 
countries had made accurate declarations or whether they may 
have been engaged in on-going offensive activity. Those 
bilateral consultations resolved our compliance concerns with a 
number of countries.
    Today, we are in a different situation. Our own domestic 
implementation is going fairly well, notwithstanding delays in 
the destruction program. The treaty organization is up and 
running and ready to carry out challenge inspections. And we 
have come close to exhausting the prospects for using other 
treaty provisions, such as the consultation provisions to 
resolve our concerns.
    So I think it is appropriate now to be considering 
challenge inspections in those cases where consultations have 
not addressed our concerns or in cases where such bilateral 
discussions are simply inappropriate or not likely to be 
productive. If we have good intelligence information about 
particular countries, we should proceed with these types of 
inspections.
    Senator Cochran. Thank you very much.
    Mr. Chairman, thank you.
    Senator Akaka. Thank you very much, Senator Cochran.
    Senator Stevens, your questions?
    Senator Stevens. Thank you.
    Dr. Walsh, you have twice said that we did not use the 
powers that we had in Iraq. My memory is that Sadam Hussein 
dismissed the American leader of our inspection team and then 
he expelled the whole team. What powers did we have under those 
circumstances that we did not use?
    Dr. Walsh. I am sorry, Senator Stevens. I should have been 
clearer in my statements. I am talking not about the post-Gulf 
War inspections. I am talking about IAEA's failure to use 
challenge inspections prior to the Gulf War when there were 
suspicions about nuclear activities in Iraq.
    You will remember, for example, in 1981 the Osiraq reactor 
was bombed by Israel. There are any number of documents that 
have mentioned--American declassified documents--that expressed 
concerns about Iraqi nuclear behavior throughout the 1970's. So 
what I would have liked to have seen is that power exercised 
earlier so that we were not in a situation where we fought a 
war and then, after the fact, discovered nuclear ambitions and 
nuclear programs that were further along than we had suspected.
    Senator Stevens. My problem is I do not know how to go back 
and renew that now. You imply that we might be able to do 
something now. What would you suggest we could do now?
    Dr. Walsh. Well, let me speak more generally about the 
issue of challenge inspections and make two points.
    First, I probably take a different view than some of my 
colleagues in that I would like to see more regular challenge 
inspections. Right now challenge inspections are seen as such a 
big deal that if I issue a challenge inspection it is really an 
indictment of another country. So there is a real barrier, a 
psychological and political barrier, to crossing that line. 
Those who might ask for a challenge inspection ask themselves: 
Do we have the goods? Do we really want to do this or do we 
want to pursue other instrumentalities?
    I would like to see the threshold for being able to execute 
a special inspection, the political threshold lowered so that 
they are more common because I think the more common they are, 
the greater the transparency and the greater the likelihood 
that we will deter potential proliferators. So I would like to 
see them become a more frequent part of the regime.
    In terms of IAEA in particular, we have had a strengthening 
of IAEA since Iraq and part of that has been this protocol I 
referred to earlier, 93 Plus 2, or the Additional Protocol. 
Essentially it says we are going to collect information about 
nuclear activities not only by going to the reactor or doing 
material accountancy; we are also going to test the air and the 
water. We are going to do environmental monitoring. So even if 
you do not let us into a facility, we are still going to have 
the ability to detect clandestine activity. I think that is 
enormously useful. So what we need to do is continue to expand.
    Senator Thompson, you raised the issue of why would we join 
something that did not have an enforcement mechanism and, of 
course, the NPT did not have an enforcement mechanism. I think 
it is important to remember that these institutions are not 
fixed. They evolve over time. The NPT and the non-proliferation 
regime is certainly bigger and better than it was in 1970. We 
have more instrumentalities, we have more resources, so we 
should expect that with experience, sometimes bad experiences, 
but with experience we are able to craft better instruments to 
try to enforce and try to verify the agreements.
    Senator Stevens. Mr. Walsh, I am sorry to say I do not 
think we have any options left with Iraq.
    Dr. Walsh. Oh, you mean currently?
    Senator Stevens. Yes.
    Dr. Walsh. Well, let me be clear about Iraq. I know we are 
focused on nuclear terrorism and Bin Laden. Bin Laden has 
somewhere between $25 and $300 million. Sadam Hussein has 
billions of dollars. He is, in my mind, an international war 
criminal. He is one of the few leaders ever to have used 
chemical weapons against innocent civilians and then used 
weapons of mass destruction in a war with another country. I 
think he is a seriously bad guy.
    I think having said that, I would like to see him removed 
from office. The question is how do you get to that? How do you 
get there? And I think reasonable people can disagree. This is 
a policy conundrum. It is not going to be an easy one to solve 
but he ranks as high as anyone in my mind as a threat to 
international security.
    Senator Stevens. Let me just state that Senator Cochran and 
I are on the Appropriations Committee and we do not have money, 
as you have indicated, to continue down some of these avenues 
you would like us to pursue because of the circumstance that 
exists now.
    We do not make any more nuclear weapons. Russia throws 
theirs out and renews them every 5 years. Most of the nuclear 
nations make new weapons. We do not make any new weapons. We 
have a nuclear stockpile program that now costs us several 
billion dollars a year to try to determine whether the nuclear 
weapons that were built 20 years ago are still not only safe 
but potentially effective if we ever were called upon to use 
them.
    Now that determination not to test weapons has strained 
away in the appropriations process the money we would use to 
follow all the things you would like us to follow in terms of 
chemical, biological and nuclear weapons inspections and 
detection concepts. Do you have any comment on that? Why were 
we pushed into that corner of not making weapons and instead 
spending billions of dollars to pursue the policy of assuring 
the utility of weapons made 20 years ago?
    Dr. Walsh. A quick overview and then a response to your 
question, Senator. The overview is that nuclear weapons, and I 
do not have to tell this Subcommittee but I think it is worth 
it for the broader public to understand this, nuclear weapons 
are not like conventional weapons. Numbers matter less. Whether 
I have five nuclear weapons and you have four is less of an 
issue. The issue is deterrence and national security and the 
destruction that you can do to another country.
    I do not know of another country in the world that we would 
want to trade places with in terms of our current nuclear 
stockpile. There is no country that has a more resourced, more 
sophisticated, more deadly stockpile and any of those countries 
that have ambitions in those areas would certainly prefer ours 
to theirs. So I do not worry about our stockpile as much.
    I think we also have to look at this in the context of 
proliferation. We made commitments under the Nuclear Non-
Proliferation Treaty and we made commitments to other countries 
in order to get the indefinite extension of that treaty that 
said that we would pursue the Comprehensive Test Ban Treaty. 
And I know that there are different views about this treaty 
probably on the Subcommittee, as there are in Congress, but my 
own view is that this is an important non-proliferation tool 
and it is an important political issue because of the 
commitments the U.S. Government has made in order to get other 
non-proliferation achievements and victories.
    Now as to the question of cost, yes, stockpile stewardship 
is a very expensive program and I would certainly not disagree 
with that. But I am hopeful that given the intelligence and 
creativity of the Senate, that they will be able to find funds 
for these vitally important issues for U.S. national security, 
as they have been able to find funds for other things.
    Before September 11 the surplus was going down and yet we 
have been able to find the money to fund homeland security. It 
seems to me, again with this notion that homeland security 
begins abroad, that we can find the money and we need to find 
the money to strengthen the system internationally so that 
those things do not come back to haunt us.
    Senator Stevens. The vote is on, Mr. Walsh. I do not know 
if maybe the rest of the people want to make some comments on 
that but in my judgment you may be right today but will you be 
right 5 years from now, 10 years from now? We will still be 
maintaining the most expensive program of stockpile maintenance 
in the world. We spend more annually than most nuclear nations 
spent to get into the nuclear circle and we spend it to 
preserve weapons that are 20 years old now.
    I disagree violently with this concept that we should 
continue to spend that money. We should start building some 
again and we should toss out the ones that are old. If we did, 
we would have some money to do what you suggest.
    Thank you very much.
    Senator Akaka. Thank you very much. I would like to ask the 
Members present whether they want to return for more questions. 
We now have a vote call and we expect to have three votes, one 
after the other, which will take some time.
    So let me ask the Members whether you have further 
questions or whether you would be willing to submit it and 
adjourn this hearing.
    Senator Cochran. Mr. Chairman, I have no other questions. I 
asked that my complete statement be printed in the record at 
the beginning of the hearing.
    Senator Akaka. Without objection it will be printed.
    Senator Cochran. We appreciate very much the witnesses' 
efforts to help us this morning and the excellent answers to 
our questions. I think it has broadened our appreciation of the 
challenge that we face in this area and deepened our 
understanding, as well. Thank you.
    Senator Akaka. Thank you. Senator Thompson.
    Senator Thompson. Mr. Chairman, I have no further 
questions, either. I would ask that my full statement be made a 
part of the record and I, too, would want to thank the 
witnesses and let them know that the statements they have 
submitted will be the basis of a lot of consideration by the 
staff. As we approach these issues it is much more than just 
the little time we spend here together that you have 
contributed and we appreciate that.
    I am always trying to learn more about these complex issues 
and trying to figure out just exactly what is the significance 
of inspection. Miss Smithson, you seem to have some faith in 
it. Sometimes I feel that we should look at it more from a 
common sense standpoint. Who would allow you to come in and 
inspect something that is going to be a problem for them?
    Ms. Smithson. That is what I said, sir.
    Senator Thompson. I hope Sadam Hussein never agrees to us 
coming in to inspect because if he does, we will be in the same 
rigmarole that we were in before. It will be hide and seek and 
running around. I am convinced he will never let us in. An 
inspection regime presumes a mechanism whereby people in good 
faith are trying to convince one another that there is no 
problem. If there is a problem and you allow an inspection 
regime, that just means it is a matter of one trying to out-fox 
the other. Then, in his case you get into issues of 
intrusiveness and what was actually found, then running to the 
United Nations every time there is a dispute and the same sorts 
of things.
    So I am troubled by the whole concept. I am not sure how 
effective that can ever be in a big nation, with all kinds of 
capabilities.
    I also look for signs of optimism with regard to these 
other regimes. Clearly we have got to try to reach some 
accommodations with these other countries. But, when you look 
at the nuclear non-proliferation regime, we learn things as we 
go along. One of the things we learn is that it does not keep 
China from outfitting Pakistan soup to nuts and we do nothing 
about it. Basically we catch them and they say well, those 
pictures you have of missile canisters, you cannot prove there 
are missiles actually in those canisters that we have sent to 
Pakistan and we accept that. So it is kind of farcical.
    With regard to the MTCR, China and Russia or entities 
within those countries basically do what they feel like they 
need to do with regard to assisting Iran, Pakistan, and other 
nations. Then you have the rogue nations themselves, like North 
Korea, developing indigenously all these things and becoming 
suppliers within their region.
    So continue to look for reasons for optimism, why these 
regimes really work. I am sure that there are some things that 
we have deterred that we otherwise would not, as you pointed 
out. But, with regard to the big players and countries that 
determine this is what they need in their own national 
interest, whether it be India or Pakistan, it seems that these 
things, international norms and all that mean nothing in the 
face of all that. So continue trying to convince people like 
myself that these are doing a lot of good.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you, Senator Thompson.
    As you can tell, Members of this Subcommittee have deep 
interest in this area and we will continue to explore this.
    Miss Harris, Dr. Smithson, Dr. Walsh, and Mr. Gormley, I 
want to thank you again for coming this morning and for your 
testimony and your responses.
    A number of points are clear. Terrorists will need to rely 
largely on states to develop weapons of mass destruction. 
Currently multilateral non-proliferation regimes are not 
effective enough to detect and prevent states from developing 
WMD programs. However, these regimes are an essential part of a 
strategy to prevent WMD proliferation.
    The key question then is how does the administration intend 
to strengthen verification regimes? The administration's 
proposals for national regulations and voluntary cooperation 
mechanisms within the BWC are not enough and what I would call 
moving beyond traditional arms control. Moving beyond 
traditional arms control is no substitute for arms control if 
there is nothing concrete to replace it.
    For our next hearing that we are planning on this subject, 
we will invite the administration to appear.
    We have no further questions at this time because of the 
vote that we are expecting. However, Members of this 
Subcommittee may submit questions in writing for any of the 
witnesses. We would appreciate a timely response to any 
questions. The record will remain open for these questions and 
for further statements from my colleagues.
    I would like to express my appreciation once again to all 
the witnesses for your time and for sharing your insights with 
us this morning.
    Any further comments? Otherwise, the Subcommittee is 
adjourned.
    [Whereupon, at 11:02 a.m., the Subcommittee was adjourned.]


          STRENGTHENING MULTILATERAL NONPROLIFERATION REGIMES

                              ----------                              


                         MONDAY, JULY 29, 2002

                                   U.S. Senate,    
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                     of the Governmental Affairs Committee,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Cochran.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
I want to say good afternoon to everyone, both our witnesses 
and the audience. I want to welcome all of you here today.
    As you know, last week the Committee approved a substitute 
amendment to S. 2452, legislation creating the Homeland 
Security Department. Today, we are going to focus on how we can 
improve our security through more effective international 
agreements.
    Earlier this month, John Bolton, the Undersecretary of 
State for Arms Control, commented in a State Department 
journal, ``With very few exceptions, terrorist groups have not 
acquired and cannot acquire weapons of mass destruction without 
the support of nation-states.''
    Our nonproliferation policies help prevent terrorists from 
obtaining these weapons. U.S. nonproliferation strategy is a 
four-pronged approach that includes treaties, export control 
systems, multilateral regimes, and assistance to other 
countries.
    This Subcommittee has held hearings in the past on U.S. 
export control systems and assistance to other nations, 
especially the states of the former Soviet Union. Today, we 
will discuss international regimes and treaties.
    Over the next 4 months, each of the six nonproliferation 
regimes will have a general members meeting. A primary topic to 
be discussed will be the new threat environment and how the 
regimes should address WMD proliferation to terrorist groups.
    Today, the Subcommittee will learn what steps the 
administration is taking to strengthen these regimes.
    Last week, Stephen Younger, the Director of the Department 
of Defense's Defense Threat Reduction Agency, said ``Al Qaeda 
has been trying to get weapons of mass destruction capability. 
I think that they had a limited infrastructure in Afghanistan 
to produce it indigenously. However, that doesn't mean that 
they don't have a different capability elsewhere.''
    The President's just-released national homeland security 
strategy fails to include nonproliferation among the principles 
of homeland security. However, our nonproliferation policies, 
including U.S. participation in multilateral regimes, are an 
essential part of our defense against a WMD terrorist attack on 
American soil.
    I would like to welcome our administration witnesses, Vann 
Van Diepen, the Deputy Assistant Secretary of State, and 
Marshall Billingslea, the Deputy Assistant Secretary of 
Defense. This is not the first time either of you have appeared 
before this Subcommittee, and I thank you for your continued 
assistance in our international security and proliferation 
oversight responsibilities.
    And now, I would like to yield to my friend, Senator 
Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate your convening this hearing 
today. It follows on an earlier hearing that we had back in 
February, when we heard from experts in this area on the 
dangers that flow from proliferation, dangers to our national 
security and the security of mankind, as a matter of fact. When 
you stop to think about the awesome consequences of an 
accidental nuclear incident, for example, or an exchange 
between two nation-states of ICBMs equipped with weapons of 
mass destruction, the consequences are just enormous and not 
just for the individual countries that may be actively engaged 
or involved.
    I recall saying one time that an accident in the nuclear 
area, such as we had with the Chernobyl incident in Ukraine, a 
nuclear accident anywhere is a nuclear accident everywhere, 
because of the possibility of fallout and the impact that it 
potentially has around the world.
    One other aspect of this hearing that I think is 
particularly significant is assessing not just what our 
obligations are to try to strengthen the nonproliferation 
regimes--that is part of our challenge, and that is the topic 
that we are operating under today--but what are the 
consequences on our cooperative efforts to develop defenses 
against missile attacks, and how would they be affected by the 
Missile Technology Control Regime?
    For example, specifically, our relationship in the co-
production of the Arrow missile system--it is a missile defense 
system that Israel has deployed--to what extent will our export 
or cooperation in developing and co-producing these systems 
have, in terms of the Missile Technology Control Regime?
    There are other nation-states, too. In NATO, for example, 
we are talking about cooperative efforts to defend our European 
allies. We already have one program, the MEADS program, which 
involves Germany and Italy as well as the United States. It 
would be interesting to assess what impact the Missile 
Technology Control Regime or any other nonproliferation regime 
might have on our future efforts to cooperatively defend 
against missile attack on NATO countries.
    So those are some of my thoughts as we open this hearing. 
Mr. Chairman, thank you again for chairing the hearing. We look 
forward to hearing our government witnesses today.
    Senator Akaka. Thank you for your statement, Senator 
Cochran.
    And now, I would like to proceed to our witnesses and ask 
Mr. Van Diepen to proceed with his statement.

    TESTIMONY OF VANN VAN DIEPEN,\1\ DIRECTOR OF CHEMICAL, 
  BIOLOGICAL AND MISSILE NONPROLIFERATION, U.S. DEPARTMENT OF 
                             STATE

    Mr. Van Diepen. Thank you, Mr. Chairman, Senator Cochran. 
It is my privilege to testify before you today on behalf of the 
State Department on the important subject of multilateral 
nonproliferation regimes, which play a vital role in the United 
States and international efforts to impede the spread of 
weapons of mass destruction, missiles for their delivery, and 
advanced conventional weapons.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Van Diepen appears in the 
Appendix on page 331.
---------------------------------------------------------------------------
    Nonproliferation continues to be one of the most important 
and complex of America's foreign policy challenges. Preventing 
the spread of WMD and missiles is among the President's highest 
national security priorities. He has made clear that halting 
proliferation is a central tenet of U.S. foreign policy and 
that a comprehensive nonproliferation strategy is needed.
    We are responding to this challenge with the active use of 
a broad range of tools: Norms, export controls, interdiction, 
sanctions, counterproliferation, deterrence, and direct 
diplomacy. Our toolkit also includes the multilateral 
nonproliferation arrangements or regimes: The Missile 
Technology Control Regime, the Australia Group, the Nuclear 
Suppliers Group, the Zangger Committee, and the Wassenaar 
Arrangement.
    Members of these regimes agree as a matter of policy to 
control an agreed list of items according to agreed guidelines 
implemented according to national laws.
    The other key multilateral approaches are legally binding 
global treaties that establish basic norms: The Chemical 
Weapons Convention, the Biological Weapons Convention, the 
Nuclear Non-Proliferation Treaty, and the International Atomic 
Energy Agency.
    These regimes and treaties have made important 
contributions in conjunction with the rest of our 
nonproliferation strategy in slowing WMD and missile 
proliferation worldwide. Through effective enforcement of 
comprehensive export controls, broad multilateral cooperation 
in halting shipments of proliferation concern, and active 
outreach to key nonmembers to increase their awareness of 
proliferation threats, the regimes and treaties have made it 
more difficult, more costly, and more time-consuming for 
programs of proliferation concern to obtain the expertise and 
material needed to advance their programs, compelling them to 
rely on older and often less effective technology.
    The treaties also have established a global, political, and 
legal barrier against the spread of WMD. The Chemical Weapons 
Convention and Nuclear Non-proliferation Treaty, in particular, 
have international verification organizations that have a legal 
right to inspect and require other measures from states' 
parties in order to promote compliance and provide a basis on 
which the International Community can cooperate to enforce 
these norms.
    My written testimony, which I hope can be entered into the 
record, describes the background, purpose, and membership of 
each of these regimes and treaties. Each of them continues to 
serve a vital role in the fight against proliferation. Each has 
recorded a number of successes, and each faces unique 
challenges.
    I would like to review now the current effectiveness of the 
various mechanisms. By the 1990's, the Australia Group had 
largely succeeded in removing its members as an inadvertent 
source of supply for nation-state chemical and biological 
weapons programs.
    Since September 11, the group has been focusing on 
revamping its controls to better address the terrorist threat. 
In 2002, the AG adopted licensing guidelines that include CBW 
terrorism as a reason for control and became the first regime 
to require participants to have so-called catchall controls, 
controls that cover nonlisted items when destined for a CBW 
program, and the first regime to control intangible transfers 
of technology. The AG also agreed to control technology for the 
development and production of listed biological agents and 
equipment.
    In recent years, AG members have begun to consider measures 
to address the cooperation between nonmember countries on CBW 
programs. While the AG has been attacked in the BWC and the CWC 
by some nonaligned countries seeking to abolish export 
controls, AG participants agree on the continued necessity and 
viability of the group, its compatibility with the conventions, 
and the need to educate nonmembers on the regime. Dealing with 
a hostile environment in the BWC and the CWC will remain a 
priority.
    Over the course of the Missile Technology Control Regime's 
15-year history, the regime has persuaded most major suppliers 
to control responsibly their missile-related exports. We have 
reduced the number of countries with MTCR-class or Category I 
missile programs, eliminating programs in Latin American and 
Central Europe. MTCR countries have cooperated to halt numerous 
shipments of proliferation concern. The MTCR has established a 
broad outreach program to increase awareness of the global 
missile threat, and the MTCR Guidelines and Annex have become 
the international standard for responsible missile-related 
export behavior.
    In addition to the MTCR, the United States supports the 
wide acceptance of the International Code of Conduct against 
Ballistic Missile Proliferation. Initiated by the MTCR 
countries in 1999, the code is intended to be a new 
multilateral complement to the work of the MTCR. It will 
supplement but not supplant the MTCR.
    The code would consist of a small set of broad principles, 
general commitments, and modest confidence-building measures. 
It is intended to be a voluntary political commitment to 
establish a broad multilateral norm against missile 
proliferation. It will complement the MTCR and other national 
missile nonproliferation efforts by establishing a widely 
subscribed consensus that countries should cooperate on a 
voluntary basis to impede missile proliferation. We hope the 
code will come into effect as early as the end of this year.
    The Nuclear Suppliers Group's greatest successes included 
requiring full-scope safeguards as a condition of nuclear 
supply to non-nuclear states, and controlling nuclear dual-use 
equipment and technology.
    We have had notable success in gaining consensus within the 
Wassenaar Arrangement conventional regime on guidelines for the 
exports of Man Portable Air Defense Systems, expanding the 
arrangement's mandate to explicitly prevent terrorists from 
acquiring controlled items and increasing categories for arms 
reporting. Wassenaar provides a useful forum for discussing 
developments that have a bearing on national export control 
policies, regional developments, and possible mutual restraint.
    The Biological Weapons Convention has served for nearly 30 
years as an important international prohibition on nearly all 
activities associated with biological weapons. The BWC does not 
include a mechanism for checking compliance, as it is 
inherently unverifiable.
    Although the United States concluded that we could not 
support the approach embodied in the draft BWC protocol and 
that the protocol's flaws could not be fixed, we have proposed 
several important alternative measures to combat the BW threat. 
Such proposed measures include promotion of standards for 
biosafety and biosecurity, scientific and industrial codes of 
conduct, and improved disease surveillance.
    Our goal is to highlight compliance concerns and gain 
support from states' parties for the U.S. package and other 
measures that would address the BW threat of today and the 
future. We hope that BWC parties can agree on measures that 
will effectively do so.
    The Chemical Weapons Convention has helped reduce the 
threat from chemical weapons, resulting in international 
disclosure of chemical weapons programs in India, China, and 
Iran. Stockpiles of chemical weapons, as well as chemical 
weapons production facilities, are being destroyed in Russia 
and a number of other countries. Around the world, facilities 
that could be used for chemical weapons-related purposes are 
subject to international inspection.
    The CWC demonstrates the value of properly designed 
multilateral agreements for placing constraints on potential 
proliferators. Our experience with the CWC demonstrates the 
need for supplementary mechanisms, such as the Australia Group, 
to assist like-minded states in coordinating national 
nonproliferation efforts, and it also demonstrates the critical 
importance of U.S. leadership not only in negotiating an 
agreement but also in ensuring that it is effectively 
implemented.
    The Nuclear Non-proliferation Treaty has contributed 
importantly to stemming the tide of nuclear proliferation. 
States such as South Africa, Argentina, and Brazil decided 
against nuclear weapons and joined the NPT. Following the 
dissolution of the Soviet Union, all former Soviet nuclear 
weapons were transferred to Russia. All other former Soviet 
States joined the NPT as non-nuclear-weapon states. The NPT 
remains especially critical today with the threat of nuclear 
terrorism.
    The periodic NPT review process called for in the treaty is 
an important means for addressing these issues, including 
strengthening the treaty's verification system. As the key 
verification mechanism under the NPT, the International Atomic 
Energy Agency has performed well but has also been frank in 
recognizing its deficiencies and in proposing remedies. Over 
the past 10 years, the IAEA has taken several steps to improve 
its safeguard systems.
    Adoption by member states of the model additional protocol 
to existing safeguards agreements would strengthen the 
effectiveness and improve the efficiency of the safeguard 
system.
    After September 11th, the IAEA moved promptly to expand its 
programs to combat nuclear terrorism. The IAEA has served as an 
important source of assistance to developing countries, which 
might otherwise not obtain the benefits of peaceful nuclear 
applications as envisaged for NPT parties in good standing.
    A strong, effective, and efficient IAEA serves important 
U.S. interests. The IAEA must have sufficient and predictable 
funding resources to fulfill all aspects of its mission.
    The Zangger Committee, the committee of NPT nuclear 
exporters, has taken the lead in developing supplier consensus 
to add enrichment, reprocessing, and heavy water production 
commitment to the so-called trigger list that the group 
administers.
    This talks about what we have done up until now, but 
nonproliferation faces a challenging future. As events of the 
past year have demonstrated, we face an increasing 
proliferation threat from terrorists and their state sponsors. 
The treaties face a continuous threat from states that would 
seek to violate them. We must scrutinize not only the 
nonproliferation regimes and treaties but all of our 
nonproliferation tools with an eye toward improving their 
effectiveness.
    These regimes and treaties have contributed greatly to 
international nonproliferation efforts, but we cannot become 
complacent. As a starting point, rigorous, energetic, and ever-
vigilant enforcement is essential.
    Nonproliferation remains a perpetually unfinished project. 
More work always needs to be done. We must deal with continuing 
proliferation threats posed by countries such as Iran, Iraq, 
Libya, North Korea, India, and Pakistan. We must strengthen 
cooperation and cope with the impact of technological advances. 
We must continue to combat the terrorist threat. We must 
consider new potential threats, expand our nonproliferation 
toolkit, and improve the efficiency of those tools we have.
    My written testimony describes our ongoing and future 
efforts to address these challenges in some detail. To 
summarize, I would note the need for the regimes and treaties 
to focus on the following five priority areas.
    First, regional nonproliferation, focusing on steps beyond 
simply controlling our own exports that we and our partners can 
take individually or collectively to impede proliferation.
    Two, look for ways that these mechanisms can help deal with 
the threat of terrorism.
    Three, continue to update control lists to reflect 
technological advances and ensure that they keep pace with 
proliferation trends, including terrorism and the use of so-
called dirty bombs or radiological dispersal devises.
    Four, work to extend export controls in line with regime 
standards to all potential suppliers, as well as to those 
countries that serve as transshipment points.
    And five, increase efforts to make nonmembers more aware of 
the threat and consequences of proliferation, urge them to 
adopt polices and practices consistent with regime standards, 
and provide export control assistance as necessary.
    In closing, multilateral nonproliferation regimes and 
treaties have an important role to play as two components of a 
comprehensive approach to advancing U.S. national security and 
nonproliferation policy. They must remain vibrant, active 
tools, focused on their collective and individual core mission, 
impeding threatening weapons programs, especially via impeding 
the spread of weapons and related equipment and technology, and 
reinforcing and verifying treaty obligations against the 
acquisition of weapons of mass destruction.
    At the same time, these multilateral instruments must also 
possess the flexibility to adapt to new challenges on the 
battlefield of proliferation. The continued exercise of strong 
U.S. leadership will play an indispensable role in 
strengthening these multilateral regimes and treaties to better 
combat proliferation. Thank you.
    Senator Akaka. Thank you very much for your statement.
    Mr. Billingslea, please proceed with your statement.

   TESTIMONY OF MARSHALL S. BILLINGSLEA,\1\ DEPUTY ASSISTANT 
        SECRETARY OF DEFENSE, U.S. DEPARTMENT OF DEFENSE

    Mr. Billingslea. Chairman Akaka, Senator Cochran, as 
requested, today I will provide the views of the Department of 
Defense regarding the effectiveness of current multilateral 
nonproliferation regimes and organizations in preventing WMD 
and missile proliferation. I will discuss some of the emerging 
trends that we are witnessing and how these regimes are able or 
unable to address such developments. I will then conclude with 
a look at where we should go from here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Billingslea appears in the 
Appendix on page 346.
---------------------------------------------------------------------------
    I will start by characterizing the growing WMD threat. In 
terms of the terrorist dimension to the problem, we see an 
alarming pattern developing. With increasing frequency since 
the mid-1980's, we have seen a steady growth in the awareness 
of and interest in WMD by terrorist groups. These groups are 
aggressively trying to procure the necessary materials to 
conduct a WMD attack.
    For instance, Osama bin Laden has publicly announced his 
WMD aspirations. He has likened the acquisition and use of WMD 
to a religious duty.
    Our friends and allies have, on several occasions, thwarted 
WMD acquisition efforts, whether we are talking about cyanide 
smuggling or trafficking in radiological materials. A few 
months ago, for instance, a terrorist cell was caught with a 
cyanide compound and a map of the U.S. Embassy in Rome.
    Though we have had some important successes, we know we are 
not completely blocking WMD procurement efforts by terrorist 
organizations.
    Part of the problem is that much of the equipment used to 
make and deliver WMD is commercially available from a large 
number of sources. It is very difficult to track dual-use 
technology and to stop it from falling into the wrong hands. 
The manufacturing equipment is generally small; it is generally 
portable; it is easily concealed. For instance, this hearing 
room is big enough to house a complete nerve agent production 
facility. And even less space, the anteroom, would be needed 
for a biological weapons production program.
    Likewise, terrorist groups have both used and are 
interested in a variety of delivery mechanisms for their WMD; 
again, many of which can be constructed or adapted from 
commonly available materials or systems, such as pesticide 
sprayers.
    There are, in short, seemingly infinite ways that a 
determined terrorist group could conduct a WMD attack. As you 
can see, it is difficult to combat the spread of this 
capability through multilateral arms control instruments such 
as treaties or export control regimes, though we believe that 
these regimes are generally helpful to the overall effort to 
block proliferation.
    Terrorist WMD aspirations and threats are receiving a high 
degree of attention from the Bush Administration because the 
results of a WMD attack by terrorist groups or by countries 
could be catastrophic. We are particularly intent on ensuring 
that these groups are not able to obtain highly contagious 
pathogens.
    Giving added emphasis to our efforts is the variety of 
excellent work being done by the medical and academic community 
regarding the various unconventional threats we now face. In 
particular, I would like to direct the attention of the 
Subcommittee to the recent work done by Johns Hopkins 
University in an exercise called Dark Winter. I summarize the 
results of that exercise in my testimony.
    In addition to the fact that many terrorist groups are 
known to harbor WMD ambitions, there is another worrisome 
linkage. Every country that is a ``state-sponsor of terrorism'' 
also is pursuing its own national-level WMD and missile 
programs. In other words, every country that harbors, funds, or 
otherwise assists terrorist groups as a matter of government 
policy also as a matter of government policy is pursuing 
nuclear, chemical, or biological weapons and missile systems to 
deliver these weapons.
    Countries such as Iran and Syria continue to support terror 
groups such as Hamas, Hezbollah, and Palestinian Islamic Jihad, 
and other groups, such as the PFLP-GC.
    Some of the groups, like Hamas, are exploring ways to 
utilize WMD. Hamas is working with poisons and chemicals in an 
effort to coat suicide bomb fragments.
    At the same time, both Iran and Syria themselves have 
robust chemical warfare programs, and both are exploring 
biological weapons. Both countries can deliver these weapons by 
a variety of means via short-range missile systems such as 
Scuds or by artillery shells. And Iran is making strides in 
developing the Shahab-3 medium range missile and longer range 
systems.
    We also believe that Iran is pursuing aggressively a 
nuclear weapons capability, and we are concerned that the 
Bushehr nuclear power project is, in reality, a pretext for the 
creation of an infrastructure that is designed to help Tehran 
acquire atomic weapons.
    The same worrisome linkage exists in other terror-abetting 
countries.
    Cuba, for instance, has a limited developmental research 
effort relating to biological weapons and also harbors 
terrorist groups such as the Basque separatist ETA and FARC and 
ELN operatives.
    Iraq, which stands in violation of numerous Security 
Council resolutions and which expelled international weapons 
inspectors several years ago, is believed to be rebuilding its 
WMD infrastructure. On the terrorism side, Iraq today continues 
to harbor several terrorist organizations and provides bases of 
operations for groups such as the PKK, MEK, Abu Nidal, and the 
Palestine Liberation Front.
    The linkage between terrorist groups and countries with WMD 
aspirations concerns us for several reasons. First, these 
countries give wide latitude to terrorist groups that operate 
within their borders. Terrorists are able to establish training 
and research camps where they are free to develop WMD and to 
perfect their plans for delivery. There also is a very 
dangerous potential that equipment and expertise meant for a 
state-level program could fall into the hands of terrorist 
groups, either unintentionally or by design. Finally, we are 
worried about the potential for a country to use terrorist 
networks to conduct a WMD attack.
    I will turn now to an assessment of nonproliferation 
regimes. President Bush has placed a high priority on combating 
the spread of WMD and their delivery systems. We have moved 
rapidly to counter imminent terrorist threats and to identify 
and thwart future ones. In countering these urgent threats, 
President Bush has stated that traditional Cold War concepts, 
such as deterrence and containment, may no longer be 
appropriate in every situation. The international security 
situation has changed, and we must adapt our nonproliferation 
and defense strategies to recognize these changes.
    Over the last 50 years, we have achieved important success 
in stemming the proliferation of WMD through a variety of 
mechanisms, ranging from treaties to multilateral technology 
control mechanisms such as the Australia Group and the Missile 
Technology Control Regime. Domestic export controls and 
transshipment laws and regulations designed to control the 
movement of sensitive goods and technologies also are very 
important.
    That said, while the traditional nonproliferation policy 
instruments the United States has used to combat the 
proliferation of WMD--again, international treaties, 
multilateral export control regimes, and so forth--continue to 
have value in the collective international nonproliferation 
framework, they also have limitations.
    One of the limitations is enforceability. At this stage, 
for instance, several countries such as Iran, Iraq, Libya, and 
Cuba seem able to violate their obligations under treaties such 
as the Biological Weapons Convention with relative impunity. 
The United States continues to employ treaty compliance as an 
issue at annual or biennial review conferences associated with 
these treaties and regimes, but we have not received a great 
deal of support from even our closest allies.
    In the case of multilateral export control regimes--the 
MTCR, the Australia Group, Wassenaar--these are voluntary, 
nonbinding agreements. And an underlying assumption has been 
that the members are like-minded and would implement voluntary 
controls in a like-minded fashion. Unfortunately, in some 
instances, that has not always been the case.
    Domestic export control laws and multilateral export and 
transshipment controls continue to be a vital part of the 
various successes that the United States and other allies have 
had. But with the global economy becoming more and more 
interconnected, dual-use items and technologies used to develop 
weapons of mass destruction cannot be effectively controlled 
without better cooperation among exporting and transit 
countries. Moreover, export controls and transshipment controls 
are only as good as the capability of those who adopt the 
measures in terms of their ability to enforce their laws and 
regulations.
    This is an area where the Department of Defense sees an 
opportunity for improvement. We need to look at ways to bolster 
our interaction and cooperation with key transit countries, 
most of whom are friendly to the United States but who lack the 
technical capacity themselves to monitor and seize dangerous 
cargo.
    We also need to work on countering the ability of WMD 
states and terrorist organizations denied an item by one 
country to obtain the same item from other sources outside the 
reach of traditional nonproliferation treaties and regimes.
    Finally, we are seeing new patterns in WMD-related trade 
developing that existing export control regimes are currently 
unable to address, but which I think can be expanded and 
adapted to address this problem. Increasingly, trade in WMD and 
missile-related items is occurring between countries outside of 
the regimes. This is a new trend in secondary proliferation; 
that is, former importers are now becoming exporters to other 
states of concern.
    And most troubling of all is the nexus that I have 
described between WMD, state-sponsors of terrorism, and 
terrorists themselves seeking these capabilities.
    So as a result, the picture I paint today is a threat that 
is increasingly diverse, increasingly unpredictable, dangerous, 
and difficult to counter using traditional measures. But while 
these dangers are growing, the United States and our allies in 
the International Community are formulating ways to improve our 
ability to deal effectively with these new threats.
    We will continue to use existing diplomatic and economic 
tools to engage with countries involved in proliferation 
activities to urge them to constrain, halt, or reverse those 
activities, to encourage them to desist. And we will continue 
to work with and assist friends and allies in developing and 
implementing their own mechanisms, domestic export controls 
regimes.
    But to meet the threat head-on and stop it is going to 
require a new definition of nonproliferation, a stronger global 
nonproliferation architecture, and strenuous national efforts.
    On the international front--and here I will echo much what 
my State Department colleague has said--we need to expand and 
enhance and enforce existing international nonproliferation 
treaties and regimes. This includes pursuing adoption of the 
IAEA's Additional Protocol. This is the protocol developed in 
the wake of Desert Storm and the discoveries of how Iraq was 
exploiting the existing protocol at that time, the new protocol 
that plugs those loopholes. We need to encourage countries to 
adopt that treaty and encourage other countries to fully comply 
with their obligations to the NPT, the Chemical Weapons 
Convention, and the Biological Weapons Convention.
    Naming names is a very powerful diplomatic tool that we 
will continue to use at these annual review conferences for 
these treaties.
    The United States also has proposed an amendment to the 
1988 Suppression of Unlawful Acts at Sea Treaty, or the SUA 
Convention. We have proposed to expand the coverage of that 
treaty to include a wider range of additional offenses, 
including terrorist acts.
    The proposed amendment the United States is pushing will 
make it a criminal offense to carry or transport, or cause to 
be carried or transported, items that are in violation of the 
CWC or the BWC or the NPT. If adopted, this proposal would 
effectively transform the SUA Convention from an after-the-fact 
extradite or prosecute treaty to a proactive treaty where 
military forces could board ships in international waters if 
they were carrying dual-use WMD-related materials.
    We also need to continue to strengthen the multilateral 
export control regimes themselves to better equip them to 
combat the evolving global nonproliferation threat. Sensitive 
dual-use items and technology cannot be controlled effectively 
unless there is broad cooperation among exporting and transit 
countries. We have made an important start in this effort with 
the decision taken by the Australia Group to broaden the number 
of dual-use items that it controls.
    But all of these steps taken together, unfortunately, are 
not going to be enough, given that yesterday's recipients of 
WMD-related systems and technologies are today's purveyors of 
WMD-related systems and technologies to other countries. As 
President Bush said in June at the West Point commencement 
ceremony, ``We cannot defend America and our friends by hoping 
for the best. We cannot put faith in the word of tyrants, who 
solemnly sign nonproliferation treaties and then systematically 
break them. If we wait for threats to fully materialize, we 
will have waited too long. The war on terror will not be won on 
the defensive. We must take the battle to the enemy. In the 
world we have entered, the only path to safety is the path of 
action.''
    So in conclusion, from our standpoint, the future is ours 
to lose. In preventing the spread of weapons of mass 
destruction and their delivery systems, there is no excuse for 
inaction. The United States and the International Community 
must act and act decisively. As long as there are would-be-
proliferators or groups seeking WMD, we must remain vigilant 
and resolute. And we need to take the initiative away from 
these groups, so that they are not able to choose the time and 
place of such an attack. I thank the Subcommittee.
    Senator Akaka. Thank you very much, Mr. Billingslea, for 
your statement.
    Mr. Billingslea, as you mentioned Dark Winter, we have 
witnesses in previous hearings from Johns Hopkins who 
participated in Dark Winter.
    Mr. Van Diepen, according to an article in today's 
Washington Post, there is discussion among some in the 
administration about a preemptive strike against the Iranian 
nuclear reactor before it becomes operational. Others argue 
that the reactor would be under the International Atomic Energy 
Agency's safeguards and does not pose a security risk.
    What are we doing now to ensure that the IAEA has the 
financial and personnel resources to safeguard this facility?
    Mr. Van Diepen. Well, Senator, first of all, overall, we 
have been doing a lot to assist the IAEA in improving its 
safeguard system through direct U.S. contributions, so-called 
voluntary additional contributions, that we make. We provide a 
lot of assistance in terms of technology and expertise to help 
them boost their overall level of safeguards capability.
    As Mr. Billingslea indicated, we have serious concerns 
about the Bushehr facility. And while certainly, if and when 
that facility becomes operational, the IAEA will safeguard it 
and do the best job possible, our real concern runs to the 
cover that the existence of that facility, and the large amount 
of equipment and technology and personnel attendant to it, 
could provide for a covert Iranian nuclear weapons program. And 
IAEA's safeguards of the reactor itself really would not deal 
effectively with that problem.
    Senator Akaka. In your statement, you mentioned, ``The IAEA 
must have sufficient and predictable financial resources to 
fulfill all aspects of its mission.'' The IAEA has determined 
that it will need an additional $40 million to fulfill all the 
safeguard activities that it is being asked to do. The United 
States share amounts to $10 million. Is the United States 
providing this additional funding?
    Mr. Van Diepen. Senator, I do not know the exact answer to 
that particular question. I do know, again, that we have been 
making additional contributions, so-called voluntary 
contributions, that go beyond our assessed contribution. And we 
have been working both internally and with other countries to 
try to boost the overall level of funding for the IAEA 
safeguard activities.
    If you wish, we could provide you an answer for the record 
that specifically addresses that question.
    Senator Akaka. Will you please do that?
    And this next question is for both of you. The pledges by 
the United States and other nuclear states to never use nuclear 
weapons against a non-nuclear state were a significant factor 
in winning a consensus for an indefinite extension of the Non-
Proliferation Treaty. Administration officials openly state 
that we should expand our options for nuclear attacks and widen 
the number of targeted nations.
    Has the United States changed its policy? If so, do you 
think that this change will have any effect on compliance with 
the Non-Proliferation Treaty?
    Mr. Billingslea.
    Mr. Billingslea. Senator, I think that the policy of the 
United States has been clearly articulated by both the 
President and by the National Security Advisor. It very much 
tracks other statements for the record under the previous 
administration.
    Secretary Cohen, for instance, made clear that any use of 
WMD against the United States, its friends, its allies, or our 
troops overseas would be met with an overwhelming and 
devastating response. We would not specify in advance the 
nature of that response, but there should be no doubt in that 
fact.
    Senator Akaka. Would you have any comment, Mr. Van Diepen?
    Mr. Van Diepen. Just, Mr. Chairman, that I am certainly not 
aware of any change in policy in this area.
    Senator Akaka. To both of you, has the administration 
engaged in any new discussions with either India or Pakistan 
concerning a possible resolution to bringing them into Non-
Proliferation Treaty compliance?
    Mr. Van Diepen. We have extensive dialogues with both 
countries that include extensive nonproliferation discussions. 
And certainly, in those discussions, we make clear our desire 
that those countries restrain their programs to the maximum 
extent possible. And of course, our ultimate objective would be 
to see them do what would be necessary to sign up to the NPT as 
non-nuclear weapons states.
    But the current reality is that there is no near-term 
prospect that those countries will take that step.
    Senator Akaka. Would you have any comment to that, Mr. 
Billingslea?
    Mr. Billingslea. No, sir. I would agree with that 
assessment.
    Senator Akaka. Mr. Van Diepen, last year, the GAO produced 
a report that showed minimal emphasis by the State Department 
in recruiting and placing Americans in international 
organizations. We understand that the number of Americans 
employed by the IAEA has been decreasing.
    Could you tell us what efforts are being made to make it 
more attractive for Americans to accept employment at the IAEA?
    Mr. Van Diepen. Frankly, Senator, I do not know the answer 
to that question. I will have to take that one for the record.
    Senator Akaka. Well, I am not surprised at that answer, 
because, on this Subcommittee, Senator Voinovich and I have 
been pursuing what we call workforce or human capital issues. 
We find, according to some of the reports that we are 
receiving, that our country is going to be in critical need of 
people to work in our workforce. And we know that, by next 
year, the baby boomers are going to be eligible to retire. 
Eventually, they will have to retire. By then, we will be in 
deep trouble if we do not begin to plan to recruit and hire 
people for those jobs now.
    Mr. Van Diepen, since September 11, the IAEA has moved to 
expand its programs to combat nuclear terrorism. Did the 
emergency appropriations supplemental include a request for 
programs for the protection against nuclear terrorism through 
IAEA? If not, does the State Department still support the 
programs proposed by IAEA?
    Mr. Van Diepen. Senator, I do not know what was in the 
supplemental, but we are certainly strong supporters of the 
IAEA's efforts to deal with nuclear terrorism. We have been 
providing a lot of direct assistance in that effort. They are 
trying to come to help deal with this problem of radiological 
dispersal devices, trying to locate and secure so-called orphan 
sources, nuclear sources that could provide the basis for 
radiological dispersion devices that, particularly in the 
former Soviet Union, have literally been misplaced and cannot 
be located.
    So they are in the process of doing a lot of good work to 
deal with this problem. We are certainly very supportive of it. 
But I am not aware of what was or was not in the supplemental.
    Senator Akaka. Thank you very much. I will yield to Senator 
Cochran for questions.
    Senator Cochran. Thank you, Mr. Chairman.
    I thought it was fortuitous that in this morning's paper 
there was a detailed discussion of the construction of the 
nuclear power reactor in Iran where Russia is actively involved 
in the construction of that facility.
    In your opinion, so we will have this in the record, why is 
it there is so much concern about the construction of that 
nuclear power plant? And why does it pose a threat, in the view 
of some, to our security and the security of other countries in 
that region of the world?
    Mr. Billingslea. Well, we should start with examining the 
Iranian claim that the power reactor is to help bolster Iran's 
energy grid. The truth of the matter is that Iran is a major 
natural gas-producing country, but they are flaring or venting 
six times more natural gas than any other major gas-producing 
nation.
    Now, the energy equivalence of the gas that they are 
venting or flaring off is three times what they are going to 
get out of that one reactor at Bushehr. So they could, for a 
fraction of the cost at the Bushehr plant, simply capture three 
times as much energy, if they wanted to. So there is clearly 
something else going on here.
    What is going on is Iranian recognition that possessing the 
Bushehr reactor will allow them to argue to have all of the 
other bits and pieces of a domestic nuclear infrastructure that 
ostensibly is designed to support the civil power plant but, in 
reality, we feel is designed to support nuclear weapons 
ambitions.
    It also puts them in proximity to Russian firms and allows 
them to continue to try to obtain materials and expertise for 
what is, in effect, a violation of their NPT obligations.
    Senator Cochran. Is it true, as the paper suggests, that we 
still have 5 or 6 years left within which to decide how we are 
going to react to this? Or do you think we are operating under 
a much shorter time constraint than that?
    Mr. Billingslea. Senator, I read the press story this 
morning, and I do not want to be overly alarmist, but I would 
also say that this is a pressing matter that has very much got 
the administration's attention. We have a tendency in the 
nonproliferation business to be overly sanguine that we can 
predict when those red-line thresholds are crossed and 
frequently find ourselves surprised. Often, we only learn how 
wrong we were after the fact.
    So the only surprise here is that, as Secretary Rumsfeld 
says, we keep allowing ourselves to get surprised. We should 
not do that.
    So I would not want to debate 5 years, 7 years. It is an 
ongoing matter of the highest priority for the administration. 
We are dealing with the Russians on this issue.
    Senator Cochran. Judging from press accounts, our President 
has been in active discussions with President Putin and others 
about this situation and has expressed our concerns, and has 
requested that Russia take steps to see that this activity, the 
proliferation aspects of it, come to a halt. Do you have any 
indication now whether progress is being made in that area? 
That is in the diplomatic effort to persuade and convince our 
friends in Russia that they have an obligation to take some 
positive steps here to ensure that security interests here and 
elsewhere, even in Russia, are not threatened by the 
development of this nuclear capability in Iran.
    What is your reaction to that, Mr. Van Diepen? Could you 
give us the status on that? What is the latest?
    Mr. Van Diepen. Well, this continues to be an issue that is 
discussed with the Russians regularly and at the highest 
levels. It was discussed at the recent summit, and it has been 
discussed in every significant meeting of United States and 
Russian officials.
    I think the honest answer is that it is a mixed picture. On 
the one hand, because of the high-level U.S. efforts since 
about mid-1997, the Russians have taken a number of important 
steps to help them deal with this problem. They have put in 
place very good export control legislation, including so-called 
catchall controls, to deal with items not on multilateral 
lists. They have investigated some entities. They have taken 
some level of action.
    But the unfortunate truth is that Iranian entities, in 
particular, still continue to have substantial success in 
obtaining missile and nuclear-related technologies from Russian 
entities. And so we are far from satisfied with the level of 
performance from the Russians.
    And so we continue to engage. We continue to try to get 
them to realize that this is a serious, ongoing problem that 
they need to devote the necessary resources and priority to, 
because it is happening in their territory, so it is 
fundamentally their responsibility to get it fixed.
    Senator Cochran. We are also at a disadvantage with respect 
to discussions with Iranian officials because we do not have 
diplomatic relations, and we do not have people there. Is that 
true, that we have an impediment to our efforts to discuss this 
directly with Iranians?
    Mr. Van Diepen. Well, I guess potentially implicit in your 
question is some assessment of the effectiveness of having such 
discussions. Certainly, our European friends and others have 
had direct discussions with the Iranians on these matters, and 
the answers either range from, ``We are not doing anything,'' 
to ``Hey, we live in a tough neighborhood.'' So it is not clear 
to me that the addition of a direct U.S.-Iranian dialogue on 
this subject would necessarily be all that helpful, given where 
they are. I think, frankly, that our other range of 
nonproliferation activities is more effective in impeding 
Iran's activities than a direct dialogue would be.
    Senator Cochran. There is a suggestion that the Iranian 
reactor and others that may come afterward would be subject to 
International Atomic Energy Agency safeguards and inspections. 
What is your assessment of that? And will that help assuage our 
concerns, or should it, that there is no plutonium being 
converted to nuclear weapons?
    Mr. Van Diepen. Well, by treaty, the Iranians must subject 
reactors to IAEA inspections, so that is not an extra offer on 
their part. That is part of their current obligation as being a 
party to the Nuclear Non-Proliferation Treaty. And likewise, 
the Russians in this case also are obligated under the treaty 
to subject reactors to those kinds of safeguards.
    I think the real issue is less with the reactor itself than 
with, as Marshall indicated, what having the reactor and the 
reactor project in place may allow the Iranians to do under the 
surface and the sort of covert assistance that could facilitate 
to a nuclear weapons program.
    Senator Cochran. It was also suggested in this newspaper 
article that the Russians plan to sell equipment to the 
Iranians for four or five additional reactors after this 
project is over. Do you have any assessment of whether that is 
true or not? And what, if anything, does our administration 
intend to do to convince them they should not do that or take 
steps to dissuade them from it?
    Mr. Van Diepen. Marshall, you may correct me, but my 
recollection is there has been talk off and on for years about 
potential additional units at Bushehr, and it remains to be 
seen to what extent they may eventuate.
    By definition, our concerns about the current ongoing 
project would extend to any additional units, and additional 
units would simply make it easier to use the infrastructure of 
this project to try to facilitate a covert nuclear weapons 
program.
    Senator Cochran. Mr. Billingslea, anything to add on that?
    Mr. Billingslea. Well, Senator, all I would say is that, if 
we are upset about one reactor at Bushehr, you can imagine how 
upset we would be over the prospects of five or six.
    Senator Cochran. This is considered to be a very serious 
matter, as far as this administration is concerned?
    Mr. Billingslea. This is a very serious matter. And the 
concern over Bushehr predates this administration as well. 
There has been a great deal of success in turning off 
cooperation with the Bushehr project in terms of other 
countries. But the quest to obtain Russian cessation is ongoing 
and has not produced the kind of results we want yet.
    Senator Cochran. There was some talk at one time about our 
offering lucrative incentives to Russia to help them understand 
that it would be in their own interest if they took steps to 
stop this proliferation of technology and information that 
could be converted to weapons use. Has there been any 
indication that those incentives have been a positive 
contribution to getting the Russians to do what we hope they 
will do?
    Mr. Van Diepen. Well, certainly some of the progress we 
have seen out of the Russians--for example, legislation, 
actions against specific entities--has come in the context of 
previous efforts to use sort of a carrot-and-stick approach.
    For example, in 1998 and 1999, we used discretionary 
authorities to put penalties on certain Russian entities that 
were involved with Iran's missile or nuclear programs. And in 
the wake of that activity, there was a noticeable upsurge in 
Russian efforts on the legislative front.
    So certainly, there is a generic understanding that the 
carrot-and-stick approach is helpful in getting progress. But 
we still have a substantial way to go, and the exact path ahead 
to get to where we want to go is sort of unclear right now.
    Senator Cochran. Mr. Chairman, I see that the red light 
came on, and I think my time is up for this round.
    Senator Akaka. Thank you very much.
    I have a number of questions. I want to switch from nuclear 
weapons proliferation to missile proliferation, and you may 
have time after that for further questions.
    This is to both of you. Israel is considering arm sales of 
the Arrow missile defense system to India. Do either of you 
have concerns over the Arrow sale for Missile Technology 
Control Regime reasons? And do you think that Arrow sales to 
India might further destabilize the security situation in South 
Asia or exacerbate the regional arms race?
    Mr. Van Diepen. Mr. Chairman, let me try to answer that in 
generic terms. First of all, the Arrow interceptor is a so-
called MTCR Category I rocket system. Israel is a country that 
unilaterally has pledged its adherence to the MTCR, so it, just 
as we or countries that are members of the MTCR, is committed 
to apply what is called a strong presumption of denial to 
exports of any Category I system, including Arrow, to any end-
user for any purpose.
    And so, in the example that you cite in that case, Israel 
would have to go through the necessary procedures to decide 
that it could overcome that strong presumption of denial and 
make that sale. And that is, by definition, not an easy matter.
    Clearly, South Asia is a region of tension, as is obvious 
by ongoing events. India is a country that is pursuing programs 
of proliferation concern. So by definition, there would be 
issues that one would have to consider of that nature, in 
deciding whether or not to go ahead with such a sale.
    Senator Akaka. Do you have any comments on that, Mr. 
Billingslea?
    Mr. Billingslea. Senator, this matter came up in a hearing 
last week on the Moscow Treaty, where Senator Levin asked 
Secretary Rumsfeld about this, so I will cleave to, in essence, 
what my Secretary had to say.
    We believe that missile defenses, generally speaking, are 
part of an inherently stabilizing concept. The right to defend 
yourself against these missiles is something that we feel is a 
matter to explore with the Indians, with the Pakistanis, if 
they are interested. What I would say is that we need to look 
at it more from the standpoint of what do the Indians feel they 
need in terms of defense for the region.
    The Arrow system, because it is an MTCR-class missile, does 
raise certain obligations that we have under the MTCR. And I do 
not think the administration has come to a position on that 
whole complex issue of balancing the MTCR, our defense 
cooperation with India, so on and so forth. But it is a matter 
under active discussion.
    Again, we also need to hear from the Indians in terms of 
what they want and what they need.
    Senator Akaka. To both of you, the United States is 
considering collaborating with international partners on 
development and fielding of a missile defense system. Would the 
interceptor technology anticipated for use in a missile defense 
system violate the MTCR if it is shared with non-MTCR partners?
    Mr. Van Diepen. Well, Mr. Chairman, the answer is, it 
depends. It depends critically on what the capability of the 
missile system is we are talking about.
    For example, Patriot PAC-3 is below the so-called Category 
I threshold, and so exports of PAC-3 would not be subject to 
this strong presumption of denial. MEADS, which Senator Cochran 
mentioned, falls below that line. So a lot of the more theater-
oriented missile defense systems do not raise this issue of the 
strong presumption of denial.
    If there were a future system that were capable enough to 
cross that line, then, again, we would be committed under the 
MTCR guidelines to apply that strong presumption.
    Now, as we discussed in the UAV hearing, the strong 
presumption is not an absolute ban. It can be overcome on so-
called rare occasions that are extremely well-justified in 
terms of five specific nonproliferation and export control 
factors in the MTCR guidelines. So another thing it would 
depend on would be who is the recipient, and how do they stack 
up against those factors?
    So it is difficult to go too far down the hypothetical 
path, because the real world facts of what system to whom for 
what purpose really start to come into play very early on into 
this.
    Senator Akaka. Do you have a comment, Mr. Billingslea?
    Mr. Billingslea. Well, happily, most of the countries with 
whom we would want and intend to work collaboratively on 
missile defense are within the MTCR framework as member 
countries. So a lot of this issue really goes away, in effect. 
I am certain that we will be able to balance these two 
priorities to get a good outcome.
    Senator Akaka. Mr. Van Diepen, in your testimony, you 
discussed the possibility of challenge inspections as provided 
in the Chemical Weapons Convention. Is the administration 
considering using challenge inspections? And if so, against 
whom?
    Mr. Van Diepen. Well, Mr. Chairman, I certainly could not 
say anything in open session about anyone we might be 
considering challenging. But it is an active tool in the 
toolkit, and we are looking for potential opportunities for 
using it that makes sense, balancing all the various factors, 
including the very important need to protect intelligence 
sources and methods.
    Senator Akaka. Mr. Van Diepen, in November 2001, the United 
States declared the Biological Weapons Convention draft 
protocols a dead issue and proposed voluntary measures for BWC 
members to demonstrate compliance. The question is, has the 
administration offered any standards or guidelines for these 
voluntary measures? And have any state parties enacted criminal 
legislation or stricter standards for security of biological 
agents?
    Mr. Van Diepen. Well, first of all, we made very specific 
proposals at the November 2001 review conference, along the 
lines that I described in my testimony. So there were very 
explicit proposals that we made.
    Under the existing convention, states' parties are required 
to put in place criminal legislation to enforce their 
obligations under the convention. One of the things that we 
have found out, to our disappointment, is that a large number 
of states' parties have not done so. And so we have been 
engaged in a remedial effort to try to get them to meet their 
treaty obligations in that respect. And certainly in the wake 
of September 11th and, in a sense, outside the context of the 
BWC, we have been engaged in separate efforts.
    As Marshall indicated, it is very important to try to 
secure dangerous pathogens that might fall into the hands of 
terrorists. And we have been engaged in a number of efforts in 
the Australia Group and elsewhere to try to promote awareness 
of this problem and to try to urge countries to put on higher 
levels of security in biosafety.
    Senator Akaka. Here is a question about control lists. The 
BWC and CWC have their own control lists. Is it realistic to 
pursue a comprehensive control list?
    Mr. Van Diepen. I am not quite sure I understand the 
question, Mr. Chairman. But, first of all, the BWC, the 
convention, does not have attended to it any lists of pathogens 
or equipment. Such lists were posited in the context of this 
protocol, but as you have already noted, the protocol is not 
going anywhere.
    The CWC has lists of agents, but the purpose of that list 
of agents is to facilitate the work of onsite verification. In 
addition, those lists are used, in effect, as a sanction 
against countries that are not members of the convention to try 
to get them to join. There are so-called trade restrictions 
that limit to varying extents the degree to which state parties 
to the CWC can trade with nonparties in listed chemicals.
    But, strictly speaking, there is not really an export 
control component to the CWC.
    Senator Akaka. Before I yield to my friend, Senator 
Cochran, I would like to ask Mr. Billingslea a question.
    In your testimony, you state the United States has proposed 
an amendment to the 1988 Suppression of Unlawful Acts against 
the safety of maritime navigation. The amendment would allow 
military forces to board ships in international waters if they 
were carrying items in violation of the CWC, NPT, and BWC. How 
have our allies and international partners responded to this 
proposal?
    Mr. Billingslea. Senator, I do not have in front of me a 
roster of reactions. This is being worked through the 
International Maritime Organization.
    What I will say is that there already exists a consent-
based regime for dealing with narcotics trafficking. We have 
gotten good support out of a number of nations in terms of 
maritime operations to stop and board and inspect vessels 
suspected of trafficking or moving terrorists. And so there is 
a logical third piece to the puzzle that needs to be added 
here, which is the WMD cargo moving about.
    If we feel that a vessel is carrying commodities that would 
assist a terror group or a terrorist-sponsoring state in 
acquiring WMD, we would like to see a consent-based regime, as 
well as a nonconsensual regime, established for stopping and 
searching certain vessels.
    I am told that actually the United Kingdom has expressed a 
lot of interest in helping us on this, so it would appear that 
this piece of the puzzle also will be put in place.
    Senator Akaka. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you. I want to explore 
just for a minute some of the policy decisions that are being 
made by the administration with respect to what is and what is 
not subject to Missile Technology Control Regime provisions.
    For example, you mentioned already this Category I 
definition of the kind of missile that would be included or 
prohibited from being exported or shared, even with a 
cooperative arrangement with an ally and even if it is for a 
defensive purpose. It is not designed to be an offensive 
missile; it is designed strictly to defend against missile 
attacks; it is an interceptor that is supposed to intercept an 
incoming missile.
    Now you mentioned that the standard, if I have this right, 
was whether a missile has enough energy or capacity to propel a 
500 kilogram warhead a distance of 300 kilometers, not whether 
the missile is actually suitable as an offensive weapon.
    And if such a missile has those characteristics, then, as I 
understand it, there would be a strong presumption to deny its 
export. Does this mean that there is room in that definition 
and that standard to decide that you could export the missile, 
even though it had the capacity to propel a certain size 
warhead a certain distance?
    Mr. Van Diepen. That's exactly right, Senator. Under the 
guidelines, we are allowed to overcome that strong presumption 
of denial in what are called rare occasions that, again, have 
to be very well-justified, in terms of these five specific 
nonproliferation and export control factors in the MTCR 
guidelines.
    So in the past, for example, we sold Trident missiles and 
Tomahawk missiles to the UK as a rare occasion to overcome the 
strong presumption of denial. And that was a recipient that 
obviously scores very high in terms of those five----
    Senator Cochran. But in the case of the Arrow system and 
Israel, for example, I understand that there may be a strong 
presumption of denial invoked there because it would fit within 
that category. If we co-produce the Arrow interceptor missile 
here and ship it back to Israel, because they cannot produce 
enough to really meet what they consider to be their need to 
protect their security interest, is it our policy right now to 
deny the export of those interceptor missiles if we co-produce 
them with Israel?
    Mr. Van Diepen. Well, actually, Senator, this is a good 
example of how we work to balance the various considerations 
that apply to these sorts of ideas.
    In this case, we worked very closely with the government of 
Israel, with Israeli industry, with U.S. industry, and with the 
Missile Defense Organization, and came up with a way of 
increasing Israel's ability to make Arrow interceptors that did 
not require the United States to export Category I items to 
Israel. In effect, we designed what we are calling enhanced 
production of components for the Arrow.
    And so Israel will be building more Arrows in Israel using 
more components from the United States. And so the Israelis 
will be able to get what they need in terms of enhanced 
production of the Arrow, while the United States will be able 
to support that basically in the way that we have supported the 
Arrow program since 1982. That does not rely on the transfer 
from the United States to Israel of Category I items.
    And so, we found, in effect, a workaround that does not do 
co-production in the sense of making it here and shipping it 
there, but having enhanced U.S. assistance to Israel making it 
there, so that they can make more, faster, by getting more 
components made in the United States.
    Senator Cochran. Well, adhering to that, would you then say 
that it would be a prohibition of the regime if we decided to 
build the entire missile here and ship it back to Israel? Are 
you painting us in a corner where, in an emergency situation or 
under later developing challenges that Israel might face, we 
would not be able to build that missile here and send it to 
them, even if it meant it was critical and important to the 
protection of Israel from its adversaries?
    Mr. Van Diepen. Well, again, Senator, that same strong 
presumption of denial would apply and the United States would 
have the ability to decide as a matter of policy that, in that 
particular case, it was a rare occasion. But we would have to 
be prepared to justify that to our MTCR partners. In terms of 
the MTCR guidelines, we would have to be prepared to live with 
whatever precedents other countries decided to draw from that 
sale.
    The problem being, of course, that Israel itself maintains 
certain programs of proliferation concern, and so if the United 
States said yes to a Category I rocket system export to Israel, 
it is going to be hard for us potentially to say no to a 
Russian export of Category I rocket technology to Iran.
    I do not want to draw those kinds of parallels, but you can 
see people trying to make those kinds of arguments. And all of 
that would have to be taken into account in any decisionmaking 
on that kind of question.
    But thus far, we have been able to provide very substantial 
support to the Arrow program by remaining below the Category I 
line, and that seems to be working out very well.
    Senator Cochran. Another anomaly seems to me to be the 
situation with another missile system like the Theater High 
Altitude Area Defense System. It is a long, slender missile. It 
does not have the capacity, really, to accommodate a 500 
kilogram payload. But because of the amount of energy and 
thrust it has and capabilities to propel objects long 
distances, could it probably be classified the same as the 
Arrow in terms of reaching the Category I definition?
    Mr. Billingslea. Senator, let me ask for us to go away and 
come back to you with the technical parameters on that, because 
I am not certain that is a----
    Senator Cochran. That is correct?
    Mr. Van Diepen. Yes, I also----
    Senator Cochran. It would be good to know, because if we 
are adhering to a standard that is really going to get us in 
deep trouble in terms of our own security interests and our 
allies' security interest, then we need to rethink it. That is 
all I am saying.
    And that is why, in my opening statement, I wondered aloud, 
what do we need to think through and what do we need to assess 
as serious challenges in this area? We are all in favor of 
doing everything we can to keep down the proliferation of 
weapons of mass destruction and missiles, but in the effort to 
do that and adhering to the MTCR, we at the same time are 
putting ourselves in jeopardy by our own interpretations and 
our own policies and our cooperative efforts with our friends 
around the world. I just do not want us to go off down a trail 
that ends up putting us in jeopardy.
    Mr. Van Diepen. And there is certainly no intention to do 
that, Senator. I think what we were able to work out with our 
Defense Department colleagues on UAVs is very much proof of the 
idea that we can in fact think ahead----
    Senator Cochran. These are the Unmanned Aerial Vehicles 
that we are seeing now, the Global Hawk, the Predator.
    Mr. Billingslea. But that's a good example, I think. There 
are a lot of analogies to be drawn from that experience. When 
you look at operation Enduring Freedom, you see what systems 
worked really well, what systems did not. You come to the 
conclusion that there is a real future for UAV and weaponized 
UAV platforms.
    Now, the UAV family of systems has a lot of technical ties 
to basic cruise missile technology and, therefore, do in fact 
potentially get caught up in the whole Missile Technology 
Control Regime effort.
    But we were able to work out with the Department of State, 
recognizing this fact but also recognizing that we want to work 
with our NATO allies and our other allies to bring them along 
to capitalize upon this new generation of technology, we were 
able to work out a regime that lets us cooperate with allies 
but, again, in a way that does not jeopardize the effective 
functioning of the MTCR, which in and of itself, I have to say, 
is a valuable regime.
    When you look at a lot of the threat missiles that we are 
dealing with today, one thing that can be said of a lot of it--
now, this is not perfectly true, because you have a lot of 
Russian and Chinese technology increasingly mixed in--but a lot 
of this stuff is based on Soviet Arrow Scud technology that has 
been configured and reconfigured in new and interesting ways to 
give longer and longer and more dangerous range. So we have 
effectively channeled some of the foreign missile programs, and 
the MTCR gets a lot of credit for that.
    But that is only part of the picture, and both active and 
passive defenses have to be brought into the equation here.
    And in the case of India, Arrow with India, Israeli 
cooperation with India, the jury is still out on that. The 
administration is working the issue, but we also need to hear 
from the Indians in terms of what they need, what they want, 
what kind of missile defense systems do they want to have, and 
for what ends. And we are pursuing that.
    Senator Cochran. Well, thank you very much. I think your 
testimony today and your participation in this hearing have 
been very helpful to our depth of understanding and 
appreciation of the challenges that we face in trying to help 
support the administration's good efforts in this area. Thank 
you.
    Senator Akaka. Thank you very much, Senator Cochran.
    Mr. Van Diepen and Mr. Billingslea, thank you very much 
again for being with us today and for your statements. No 
question, it will be a big help to this Subcommittee.
    As your testimony indicates, without help from the states 
with weapons of mass destruction, terrorists will have 
significant difficulty in acquiring a WMD capability. We need 
to work on both ends of the problem, discouraging state WMD 
programs, as well as destroying terrorist organizations.
    We also need to strengthen current nonproliferation 
regimes. As Mr. Van Diepen indicated, an activist agenda must 
use a broad range of tools--and I like that toolkit 
description--to limit proliferation. These tools include our 
bilateral assistance programs. We must be careful about the 
impact that weakening one of these tools will have on our 
overall nonproliferation goals.
    For example, the administration froze funding for all 
cooperative threat reduction programs because of Russian 
noncompliance to the Biological Weapons Convention and the 
Chemical Weapons Convention. Is America more secure after 
several months of stalled projects in the former Soviet Union? 
Is Russia more open to U.S. pleas to end their assistance to 
Iran's nuclear power plant? These issues are linked and must be 
answered.
    Press reports indicate that Russia is proposing to 
construct five additional nuclear power plants in Iran. Where 
our bilateral efforts are insufficient, we should strengthen 
multilateral regimes. A fully funded IAEA is a good way to 
ensure that a new Iranian nuclear reactor is not being used to 
advance a weapons program.
    Preventing terrorists from acquiring WMD is a complicated 
task. However, it is easier than the alternative of responding 
to a WMD terrorist attack.
    Gentlemen, we have no further questions at this time. 
However, Members of this Subcommittee may submit questions in 
writing for any of the witnesses. We would appreciate a timely 
response to any questions. The record will remain open for 
these questions and for further statements from my colleagues.
    Again, if my friend does not have anymore statements----
    Senator Cochran. I have nothing further.
    Senator Akaka [continuing]. I would like to express my 
appreciation to our witnesses for their time and for sharing 
their insights with us. The hearing is adjourned.
    [Whereupon, at 3:47 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 78620.001

[GRAPHIC] [TIFF OMITTED] 78620.002

[GRAPHIC] [TIFF OMITTED] 78620.003

[GRAPHIC] [TIFF OMITTED] 78620.004

[GRAPHIC] [TIFF OMITTED] 78620.005

[GRAPHIC] [TIFF OMITTED] 78620.006

[GRAPHIC] [TIFF OMITTED] 78620.007

[GRAPHIC] [TIFF OMITTED] 78620.008

[GRAPHIC] [TIFF OMITTED] 78620.009

[GRAPHIC] [TIFF OMITTED] 78620.010

[GRAPHIC] [TIFF OMITTED] 78620.011

[GRAPHIC] [TIFF OMITTED] 78620.012

[GRAPHIC] [TIFF OMITTED] 78620.013

[GRAPHIC] [TIFF OMITTED] 78620.014

[GRAPHIC] [TIFF OMITTED] 78620.015

[GRAPHIC] [TIFF OMITTED] 78620.016

[GRAPHIC] [TIFF OMITTED] 78620.017

[GRAPHIC] [TIFF OMITTED] 78620.018

[GRAPHIC] [TIFF OMITTED] 78620.019

[GRAPHIC] [TIFF OMITTED] 78620.020

[GRAPHIC] [TIFF OMITTED] 78620.021

[GRAPHIC] [TIFF OMITTED] 78620.022

[GRAPHIC] [TIFF OMITTED] 78620.023

[GRAPHIC] [TIFF OMITTED] 78620.024

[GRAPHIC] [TIFF OMITTED] 78620.025

[GRAPHIC] [TIFF OMITTED] 78620.026

[GRAPHIC] [TIFF OMITTED] 78620.027

[GRAPHIC] [TIFF OMITTED] 78620.028

[GRAPHIC] [TIFF OMITTED] 78620.029

[GRAPHIC] [TIFF OMITTED] 78620.030

[GRAPHIC] [TIFF OMITTED] 78620.031

[GRAPHIC] [TIFF OMITTED] 78620.032

[GRAPHIC] [TIFF OMITTED] 78620.033

[GRAPHIC] [TIFF OMITTED] 78620.034

[GRAPHIC] [TIFF OMITTED] 78620.035

[GRAPHIC] [TIFF OMITTED] 78620.036

[GRAPHIC] [TIFF OMITTED] 78620.037

[GRAPHIC] [TIFF OMITTED] 78620.038

[GRAPHIC] [TIFF OMITTED] 78620.039

[GRAPHIC] [TIFF OMITTED] 78620.040

[GRAPHIC] [TIFF OMITTED] 78620.041

[GRAPHIC] [TIFF OMITTED] 78620.042

[GRAPHIC] [TIFF OMITTED] 78620.043

[GRAPHIC] [TIFF OMITTED] 78620.044

[GRAPHIC] [TIFF OMITTED] 78620.045

[GRAPHIC] [TIFF OMITTED] 78620.046

[GRAPHIC] [TIFF OMITTED] 78620.047

[GRAPHIC] [TIFF OMITTED] 78620.048

[GRAPHIC] [TIFF OMITTED] 78620.049

[GRAPHIC] [TIFF OMITTED] 78620.050

[GRAPHIC] [TIFF OMITTED] 78620.051

[GRAPHIC] [TIFF OMITTED] 78620.052

[GRAPHIC] [TIFF OMITTED] 78620.053

[GRAPHIC] [TIFF OMITTED] 78620.054

[GRAPHIC] [TIFF OMITTED] 78620.055

[GRAPHIC] [TIFF OMITTED] 78620.056

[GRAPHIC] [TIFF OMITTED] 78620.057

[GRAPHIC] [TIFF OMITTED] 78620.058

[GRAPHIC] [TIFF OMITTED] 78620.059

[GRAPHIC] [TIFF OMITTED] 78620.060

[GRAPHIC] [TIFF OMITTED] 78620.061

[GRAPHIC] [TIFF OMITTED] 78620.062

[GRAPHIC] [TIFF OMITTED] 78620.063

[GRAPHIC] [TIFF OMITTED] 78620.064

[GRAPHIC] [TIFF OMITTED] 78620.065

[GRAPHIC] [TIFF OMITTED] 78620.066

[GRAPHIC] [TIFF OMITTED] 78620.067

[GRAPHIC] [TIFF OMITTED] 78620.068

[GRAPHIC] [TIFF OMITTED] 78620.069

[GRAPHIC] [TIFF OMITTED] 78620.070

[GRAPHIC] [TIFF OMITTED] 78620.071

[GRAPHIC] [TIFF OMITTED] 78620.072

[GRAPHIC] [TIFF OMITTED] 78620.073

[GRAPHIC] [TIFF OMITTED] 78620.074

[GRAPHIC] [TIFF OMITTED] 78620.075

[GRAPHIC] [TIFF OMITTED] 78620.076

[GRAPHIC] [TIFF OMITTED] 78620.077

[GRAPHIC] [TIFF OMITTED] 78620.078

[GRAPHIC] [TIFF OMITTED] 78620.079

[GRAPHIC] [TIFF OMITTED] 78620.080

[GRAPHIC] [TIFF OMITTED] 78620.081

[GRAPHIC] [TIFF OMITTED] 78620.082

[GRAPHIC] [TIFF OMITTED] 78620.083

[GRAPHIC] [TIFF OMITTED] 78620.084

[GRAPHIC] [TIFF OMITTED] 78620.085

[GRAPHIC] [TIFF OMITTED] 78620.086

[GRAPHIC] [TIFF OMITTED] 78620.087

[GRAPHIC] [TIFF OMITTED] 78620.088

[GRAPHIC] [TIFF OMITTED] 78620.089

[GRAPHIC] [TIFF OMITTED] 78620.090

[GRAPHIC] [TIFF OMITTED] 78620.091

[GRAPHIC] [TIFF OMITTED] 78620.092

[GRAPHIC] [TIFF OMITTED] 78620.093

[GRAPHIC] [TIFF OMITTED] 78620.094

[GRAPHIC] [TIFF OMITTED] 78620.095

[GRAPHIC] [TIFF OMITTED] 78620.096

[GRAPHIC] [TIFF OMITTED] 78620.097

[GRAPHIC] [TIFF OMITTED] 78620.098

[GRAPHIC] [TIFF OMITTED] 78620.099

[GRAPHIC] [TIFF OMITTED] 78620.100

[GRAPHIC] [TIFF OMITTED] 78620.101

[GRAPHIC] [TIFF OMITTED] 78620.102

[GRAPHIC] [TIFF OMITTED] 78620.103

[GRAPHIC] [TIFF OMITTED] 78620.104

[GRAPHIC] [TIFF OMITTED] 78620.105

[GRAPHIC] [TIFF OMITTED] 78620.106

[GRAPHIC] [TIFF OMITTED] 78620.107

[GRAPHIC] [TIFF OMITTED] 78620.108

[GRAPHIC] [TIFF OMITTED] 78620.109

[GRAPHIC] [TIFF OMITTED] 78620.110

[GRAPHIC] [TIFF OMITTED] 78620.111

[GRAPHIC] [TIFF OMITTED] 78620.112

[GRAPHIC] [TIFF OMITTED] 78620.113

[GRAPHIC] [TIFF OMITTED] 78620.114

[GRAPHIC] [TIFF OMITTED] 78620.115

[GRAPHIC] [TIFF OMITTED] 78620.116

[GRAPHIC] [TIFF OMITTED] 78620.117

[GRAPHIC] [TIFF OMITTED] 78620.118

[GRAPHIC] [TIFF OMITTED] 78620.119

[GRAPHIC] [TIFF OMITTED] 78620.120

[GRAPHIC] [TIFF OMITTED] 78620.121

[GRAPHIC] [TIFF OMITTED] 78620.122

[GRAPHIC] [TIFF OMITTED] 78620.123

[GRAPHIC] [TIFF OMITTED] 78620.124

[GRAPHIC] [TIFF OMITTED] 78620.125

[GRAPHIC] [TIFF OMITTED] 78620.126

[GRAPHIC] [TIFF OMITTED] 78620.127

[GRAPHIC] [TIFF OMITTED] 78620.128

[GRAPHIC] [TIFF OMITTED] 78620.129

[GRAPHIC] [TIFF OMITTED] 78620.130

[GRAPHIC] [TIFF OMITTED] 78620.131

[GRAPHIC] [TIFF OMITTED] 78620.132

[GRAPHIC] [TIFF OMITTED] 78620.133

[GRAPHIC] [TIFF OMITTED] 78620.134

[GRAPHIC] [TIFF OMITTED] 78620.135

[GRAPHIC] [TIFF OMITTED] 78620.136

[GRAPHIC] [TIFF OMITTED] 78620.137

[GRAPHIC] [TIFF OMITTED] 78620.138

[GRAPHIC] [TIFF OMITTED] 78620.139

[GRAPHIC] [TIFF OMITTED] 78620.140

[GRAPHIC] [TIFF OMITTED] 78620.141

[GRAPHIC] [TIFF OMITTED] 78620.142

[GRAPHIC] [TIFF OMITTED] 78620.143

[GRAPHIC] [TIFF OMITTED] 78620.144

[GRAPHIC] [TIFF OMITTED] 78620.145

[GRAPHIC] [TIFF OMITTED] 78620.146

[GRAPHIC] [TIFF OMITTED] 78620.147

[GRAPHIC] [TIFF OMITTED] 78620.148

[GRAPHIC] [TIFF OMITTED] 78620.149

[GRAPHIC] [TIFF OMITTED] 78620.150

[GRAPHIC] [TIFF OMITTED] 78620.151

[GRAPHIC] [TIFF OMITTED] 78620.152

[GRAPHIC] [TIFF OMITTED] 78620.153

[GRAPHIC] [TIFF OMITTED] 78620.154

[GRAPHIC] [TIFF OMITTED] 78620.155

[GRAPHIC] [TIFF OMITTED] 78620.156

[GRAPHIC] [TIFF OMITTED] 78620.157

[GRAPHIC] [TIFF OMITTED] 78620.158

[GRAPHIC] [TIFF OMITTED] 78620.159

[GRAPHIC] [TIFF OMITTED] 78620.160

[GRAPHIC] [TIFF OMITTED] 78620.161

[GRAPHIC] [TIFF OMITTED] 78620.162

[GRAPHIC] [TIFF OMITTED] 78620.163

[GRAPHIC] [TIFF OMITTED] 78620.164

[GRAPHIC] [TIFF OMITTED] 78620.165

[GRAPHIC] [TIFF OMITTED] 78620.166

[GRAPHIC] [TIFF OMITTED] 78620.167

[GRAPHIC] [TIFF OMITTED] 78620.168

[GRAPHIC] [TIFF OMITTED] 78620.169

[GRAPHIC] [TIFF OMITTED] 78620.170

[GRAPHIC] [TIFF OMITTED] 78620.171

[GRAPHIC] [TIFF OMITTED] 78620.172

[GRAPHIC] [TIFF OMITTED] 78620.173

[GRAPHIC] [TIFF OMITTED] 78620.174

[GRAPHIC] [TIFF OMITTED] 78620.175

[GRAPHIC] [TIFF OMITTED] 78620.176

[GRAPHIC] [TIFF OMITTED] 78620.177

[GRAPHIC] [TIFF OMITTED] 78620.178

[GRAPHIC] [TIFF OMITTED] 78620.179

[GRAPHIC] [TIFF OMITTED] 78620.180

[GRAPHIC] [TIFF OMITTED] 78620.181

[GRAPHIC] [TIFF OMITTED] 78620.182

[GRAPHIC] [TIFF OMITTED] 78620.183

[GRAPHIC] [TIFF OMITTED] 78620.184

[GRAPHIC] [TIFF OMITTED] 78620.185

[GRAPHIC] [TIFF OMITTED] 78620.186

[GRAPHIC] [TIFF OMITTED] 78620.301

[GRAPHIC] [TIFF OMITTED] 78620.302

[GRAPHIC] [TIFF OMITTED] 78620.303

[GRAPHIC] [TIFF OMITTED] 78620.304

[GRAPHIC] [TIFF OMITTED] 78620.305

[GRAPHIC] [TIFF OMITTED] 78620.306

[GRAPHIC] [TIFF OMITTED] 78620.307

[GRAPHIC] [TIFF OMITTED] 78620.308

[GRAPHIC] [TIFF OMITTED] 78620.309

[GRAPHIC] [TIFF OMITTED] 78620.310

[GRAPHIC] [TIFF OMITTED] 78620.311

[GRAPHIC] [TIFF OMITTED] 78620.312

[GRAPHIC] [TIFF OMITTED] 78620.313

[GRAPHIC] [TIFF OMITTED] 78620.314

[GRAPHIC] [TIFF OMITTED] 78620.315

[GRAPHIC] [TIFF OMITTED] 78620.316

[GRAPHIC] [TIFF OMITTED] 78620.317

[GRAPHIC] [TIFF OMITTED] 78620.318

[GRAPHIC] [TIFF OMITTED] 78620.319

[GRAPHIC] [TIFF OMITTED] 78620.320

[GRAPHIC] [TIFF OMITTED] 78620.321

[GRAPHIC] [TIFF OMITTED] 78620.322

[GRAPHIC] [TIFF OMITTED] 78620.323

[GRAPHIC] [TIFF OMITTED] 78620.324

[GRAPHIC] [TIFF OMITTED] 78620.235

[GRAPHIC] [TIFF OMITTED] 78620.236

[GRAPHIC] [TIFF OMITTED] 78620.237

[GRAPHIC] [TIFF OMITTED] 78620.238

[GRAPHIC] [TIFF OMITTED] 78620.239

[GRAPHIC] [TIFF OMITTED] 78620.240

[GRAPHIC] [TIFF OMITTED] 78620.241

[GRAPHIC] [TIFF OMITTED] 78620.242

[GRAPHIC] [TIFF OMITTED] 78620.243

[GRAPHIC] [TIFF OMITTED] 78620.244

[GRAPHIC] [TIFF OMITTED] 78620.245

[GRAPHIC] [TIFF OMITTED] 78620.246

[GRAPHIC] [TIFF OMITTED] 78620.247

[GRAPHIC] [TIFF OMITTED] 78620.248

[GRAPHIC] [TIFF OMITTED] 78620.187

[GRAPHIC] [TIFF OMITTED] 78620.188

[GRAPHIC] [TIFF OMITTED] 78620.189

[GRAPHIC] [TIFF OMITTED] 78620.190

[GRAPHIC] [TIFF OMITTED] 78620.191

[GRAPHIC] [TIFF OMITTED] 78620.192

[GRAPHIC] [TIFF OMITTED] 78620.193

[GRAPHIC] [TIFF OMITTED] 78620.194

[GRAPHIC] [TIFF OMITTED] 78620.195

[GRAPHIC] [TIFF OMITTED] 78620.196

[GRAPHIC] [TIFF OMITTED] 78620.197

[GRAPHIC] [TIFF OMITTED] 78620.198

[GRAPHIC] [TIFF OMITTED] 78620.199

[GRAPHIC] [TIFF OMITTED] 78620.200

[GRAPHIC] [TIFF OMITTED] 78620.201

[GRAPHIC] [TIFF OMITTED] 78620.202

[GRAPHIC] [TIFF OMITTED] 78620.203

[GRAPHIC] [TIFF OMITTED] 78620.204

[GRAPHIC] [TIFF OMITTED] 78620.205

[GRAPHIC] [TIFF OMITTED] 78620.206

[GRAPHIC] [TIFF OMITTED] 78620.207

[GRAPHIC] [TIFF OMITTED] 78620.208

[GRAPHIC] [TIFF OMITTED] 78620.209

[GRAPHIC] [TIFF OMITTED] 78620.210

[GRAPHIC] [TIFF OMITTED] 78620.211

[GRAPHIC] [TIFF OMITTED] 78620.212

[GRAPHIC] [TIFF OMITTED] 78620.213

[GRAPHIC] [TIFF OMITTED] 78620.214

[GRAPHIC] [TIFF OMITTED] 78620.215

[GRAPHIC] [TIFF OMITTED] 78620.216

[GRAPHIC] [TIFF OMITTED] 78620.217

[GRAPHIC] [TIFF OMITTED] 78620.218

[GRAPHIC] [TIFF OMITTED] 78620.219

[GRAPHIC] [TIFF OMITTED] 78620.220

[GRAPHIC] [TIFF OMITTED] 78620.221

[GRAPHIC] [TIFF OMITTED] 78620.222

[GRAPHIC] [TIFF OMITTED] 78620.223

[GRAPHIC] [TIFF OMITTED] 78620.224

[GRAPHIC] [TIFF OMITTED] 78620.225

[GRAPHIC] [TIFF OMITTED] 78620.226

[GRAPHIC] [TIFF OMITTED] 78620.227

[GRAPHIC] [TIFF OMITTED] 78620.228

[GRAPHIC] [TIFF OMITTED] 78620.229

[GRAPHIC] [TIFF OMITTED] 78620.230

[GRAPHIC] [TIFF OMITTED] 78620.231

[GRAPHIC] [TIFF OMITTED] 78620.232

[GRAPHIC] [TIFF OMITTED] 78620.233

[GRAPHIC] [TIFF OMITTED] 78620.234

[GRAPHIC] [TIFF OMITTED] 78620.249

[GRAPHIC] [TIFF OMITTED] 78620.250

[GRAPHIC] [TIFF OMITTED] 78620.251

[GRAPHIC] [TIFF OMITTED] 78620.252

[GRAPHIC] [TIFF OMITTED] 78620.253

[GRAPHIC] [TIFF OMITTED] 78620.254

[GRAPHIC] [TIFF OMITTED] 78620.255

[GRAPHIC] [TIFF OMITTED] 78620.256

[GRAPHIC] [TIFF OMITTED] 78620.257

[GRAPHIC] [TIFF OMITTED] 78620.258

[GRAPHIC] [TIFF OMITTED] 78620.259

[GRAPHIC] [TIFF OMITTED] 78620.260

[GRAPHIC] [TIFF OMITTED] 78620.261

[GRAPHIC] [TIFF OMITTED] 78620.263

[GRAPHIC] [TIFF OMITTED] 78620.264

[GRAPHIC] [TIFF OMITTED] 78620.265

[GRAPHIC] [TIFF OMITTED] 78620.266

[GRAPHIC] [TIFF OMITTED] 78620.267

[GRAPHIC] [TIFF OMITTED] 78620.268

[GRAPHIC] [TIFF OMITTED] 78620.269

[GRAPHIC] [TIFF OMITTED] 78620.270

[GRAPHIC] [TIFF OMITTED] 78620.271

[GRAPHIC] [TIFF OMITTED] 78620.272

[GRAPHIC] [TIFF OMITTED] 78620.273

[GRAPHIC] [TIFF OMITTED] 78620.274

[GRAPHIC] [TIFF OMITTED] 78620.349

[GRAPHIC] [TIFF OMITTED] 78620.350

[GRAPHIC] [TIFF OMITTED] 78620.351

[GRAPHIC] [TIFF OMITTED] 78620.352

[GRAPHIC] [TIFF OMITTED] 78620.353

[GRAPHIC] [TIFF OMITTED] 78620.354

[GRAPHIC] [TIFF OMITTED] 78620.355

[GRAPHIC] [TIFF OMITTED] 78620.356

[GRAPHIC] [TIFF OMITTED] 78620.357

[GRAPHIC] [TIFF OMITTED] 78620.358

[GRAPHIC] [TIFF OMITTED] 78620.359

[GRAPHIC] [TIFF OMITTED] 78620.360

[GRAPHIC] [TIFF OMITTED] 78620.361

[GRAPHIC] [TIFF OMITTED] 78620.362

[GRAPHIC] [TIFF OMITTED] 78620.363

[GRAPHIC] [TIFF OMITTED] 78620.364

[GRAPHIC] [TIFF OMITTED] 78620.365

[GRAPHIC] [TIFF OMITTED] 78620.366

[GRAPHIC] [TIFF OMITTED] 78620.367

[GRAPHIC] [TIFF OMITTED] 78620.368

[GRAPHIC] [TIFF OMITTED] 78620.369

[GRAPHIC] [TIFF OMITTED] 78620.370

[GRAPHIC] [TIFF OMITTED] 78620.371

[GRAPHIC] [TIFF OMITTED] 78620.372

[GRAPHIC] [TIFF OMITTED] 78620.325

[GRAPHIC] [TIFF OMITTED] 78620.326

[GRAPHIC] [TIFF OMITTED] 78620.327

[GRAPHIC] [TIFF OMITTED] 78620.328

[GRAPHIC] [TIFF OMITTED] 78620.329

[GRAPHIC] [TIFF OMITTED] 78620.330

[GRAPHIC] [TIFF OMITTED] 78620.331

[GRAPHIC] [TIFF OMITTED] 78620.332

[GRAPHIC] [TIFF OMITTED] 78620.333

[GRAPHIC] [TIFF OMITTED] 78620.334

[GRAPHIC] [TIFF OMITTED] 78620.335

[GRAPHIC] [TIFF OMITTED] 78620.336

[GRAPHIC] [TIFF OMITTED] 78620.337

[GRAPHIC] [TIFF OMITTED] 78620.338

[GRAPHIC] [TIFF OMITTED] 78620.339

[GRAPHIC] [TIFF OMITTED] 78620.340

[GRAPHIC] [TIFF OMITTED] 78620.341

[GRAPHIC] [TIFF OMITTED] 78620.342

[GRAPHIC] [TIFF OMITTED] 78620.343

[GRAPHIC] [TIFF OMITTED] 78620.344

[GRAPHIC] [TIFF OMITTED] 78620.345

[GRAPHIC] [TIFF OMITTED] 78620.346

[GRAPHIC] [TIFF OMITTED] 78620.347

[GRAPHIC] [TIFF OMITTED] 78620.348

                                   - 

</pre></body></html>
